<html>
<title> - H.R. 298, H.R. 1167, H.R. 1259, H.R. 1633, H.R. 1846, H.R. 2015, H.R. 2259, H.R. 2657, H.R. 2954, AND H.R. 3188</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
H.R. 298, H.R. 1167, H.R. 1259, H.R. 1633, H.R. 1846, H.R. 2015, H.R. 
               2259, H.R. 2657, H.R. 2954, AND H.R. 3188

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 3, 2013

                               __________

                           Serial No. 113-45

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

85-144 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001          
      
      
      
      



      
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Raul R. Labrador, ID                 Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Mark E. Amodei, NV                   Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Chris Stewart, UT                    Vacancy
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Louie Gohmert, TX                    Rush Holt, NJ
Doug Lamborn, CO                     Madeleine Z. Bordallo, GU
Paul C. Broun, GA                    Gregorio Kilili Camacho Sablan, 
Tom McClintock, CA                       CNMI
Cynthia M. Lummis, WY                Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Steven A. Horsford, NV
Mark E. Amodei, NV                   Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Jared Huffman, CA
Jason T. Smith, MO                   Peter A. DeFazio, OR, ex officio
Doc Hastings, WA, ex officio

                                 ------   
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 3, 2013........................     1

Statement of Members:
    Amodei, Hon. Mark E., a Representative in Congress from the 
      State of Nevada............................................    26
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
    Daines, Hon. Steve, a Representative in Congress from the 
      State of Montana...........................................    28
        Letters and statements submitted by......................    29
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................     3
        Prepared statement of....................................     4
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     5
        Prepared statement of....................................     6
    Horsford, Hon. Steven A., a Representative in Congress from 
      the State of Nevada........................................    14
        Letters, resolutions and statements submitted by.........    14
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................    35

Statement of Witnesses:
    Anderson, John, City Councilor, Whitefish, Montana...........    46
        Prepared statement on H.R. 2259..........................    47
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah..............................................    10
    Heck, Hon. Joseph J., a Representative in Congress from the 
      State of Nevada............................................    25
    Larson, Hon. John B., a Representative in Congress from the 
      State of Connecticut.......................................    11
    Lee, John, Mayor, city of North Las Vegas, Nevada............    73
        Prepared statement on H.R. 2015..........................    75
    McMillan, Kristin, CEO and President, Las Vegas Metro Chamber 
      of Commerce................................................    68
        Prepared statement on H.R. 2015..........................    71
    Miller, Hon. Jeff, a Representative in Congress from the 
      State of 
      Florida....................................................     8
    Neikirk, William R., Founder, Mill Springs Battlefield 
      Association................................................    37
        Prepared statement on H.R. 298...........................    38
    Partin, Tom, President, American Forest Resource Council.....    50
        Prepared statement on H.R. 3188..........................    52
    Rogers, Hon. Harold, a Representative in Congress from the 
      State of Kentucky..........................................     9
    Ross, Steve, Councilman, City of Las Vegas, Nevada, Ward 6...    76
        Letters and resolution submitted by......................    77
        Prepared statement on H.R. 2015..........................    83
    Segarra, Pedro E., Mayor, city of Hartford, Connecticut......    42
        Prepared statement on H.R. 1259..........................    43
    Titus, Hon. Dina, a Representative in Congress from the State 
      of 
      Nevada.....................................................    24
    Velazquez, Hon. Nydia M., a Representative in Congress from 
      the State of New York......................................    13
    Vogel, Morris J., President, Lower East Side Tenement Museum.    39
        Prepared statement on H.R. 1846..........................    41
    Whitten, Pat, County Manager, Storey County, Nevada..........    65
        Prepared statement on H.R. 1167..........................    67

Additional Materials Submitted for the Record:
    Bureau of Land Management, U.S. Department of the Interior, 
      Prepared statements on H.R. 1167, H.R. 1633, H.R. 2015, 
      H.R. 2259, and H.R. 2657...................................    88
    Forest Service, U.S. Department of Agriculture, Prepared 
      statements on H.R. 1633 and H.R. 2259......................    86
                                     

LEGISLATIVE HEARING ON H.R. 298, TO DIRECT THE SECRETARY OF THE 
    INTERIOR TO CONDUCT A SPECIAL RESOURCE STUDY TO EVALUATE 
    THE SIGNIFICANCE OF THE MILL SPRINGS BATTLEFIELD LOCATED IN 
    PULASKI AND WAYNE COUNTIES, KENTUCKY, AND THE FEASIBILITY 
    OF ITS INCLUSION IN THE NATIONAL PARK SYSTEM, AND FOR OTHER 
    PURPOSES; H.R. 1167, RESTORING STOREY COUNTY ACT; H.R. 
    1259, COLTSVILLE NATIONAL HISTORICAL PARK ACT; H.R. 1633, 
    SMALL LANDS TRACTS CONVEYANCE ACT; H.R. 1846, LOWER EAST 
    SIDE TENEMENT NATIONAL HISTORIC SITE AMENDMENTS ACT; H.R. 
    2015, LAS VEGAS VALLEY PUBLIC LAND AND TULE SPRINGS FOSSIL 
    BEDS NATIONAL MONUMENT ACT OF 2013; H.R. 2259, NORTH FORK 
    WATERSHED PROTECTION ACT OF 2013; H.R. 2657, DISPOSAL OF 
    EXCESS FEDERAL LANDS ACT OF 2013; H.R. 2954, TO AUTHORIZE 
    ESCAMBIA COUNTY, FLORIDA, TO CONVEY CERTAIN PROPERTY THAT 
    WAS FORMERLY PART OF SANTA ROSA ISLAND NATIONAL MONUMENT 
    AND THAT WAS CONVEYED TO ESCAMBIA COUNTY SUBJECT TO 
    RESTRICTIONS ON USE AND RECONVEYANCE; AND H.R. 3188, TO 
    EXPEDITE THE PLANNING AND IMPLEMENTATION OF SALVAGE TIMBER 
    SALES AS PART OF FOREST SERVICE AND DEPARTMENT OF THE 
    INTERIOR RESTORATION AND REHABILITATION ACTIVITIES FOR 
    LANDS WITHIN THE STANISLAUS NATIONAL FOREST AND YOSEMITE 
    NATIONAL PARK AND BUREAU OF LAND MANAGEMENT LANDS ADVERSELY 
    IMPACTED BY THE 2013 RIM FIRE IN CALIFORNIA
                              ----------                              


                       Thursday, October 3, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bishop, McClintock, Tipton, 
Labrador, Amodei, Daines, LaMalfa, Smith, Grijalva, Holt, 
Horsford, Huffman, DeFazio.
    Also present: Representatives Heck and Titus.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. All right. This hearing will come to order. The 
Chair notes the presence of a quorum.
    Under the rules, the opening statements are limited to the 
Chairman and Ranking Member; however, I ask unanimous consent 
to include any other Member's opening statement in the hearing 
record if submitted to the clerk by the close of business 
today, and hearing no objections, it is so ordered.
    Before we turn to the bills at hand, I want to simply 
comment on the events that have been occurring under our 
jurisdiction, especially on the Mall. Our new Secretary of 
Interior has--I may be wrong on this, but in my estimation, she 
has tried to bring an idea or an aura of new professionalism to 
her Department.
    In vast contrast to what she is attempting to do, I see 
nothing but cheap pettiness on the part of the Park Service, 
and it is more than just putting up barricades to stop World 
War II veterans from attending open-air monuments, putting on 
more Park Service personnel to keep people away from those 
monuments than they ever have working them when they are open, 
but it is a pattern of what the Park Service has been doing 
that we have been talking about this entire year.
    We have bills before us today where the Park Service has 
closed down annual church picnics in Washington because it 
makes too much noise for the park next door. We have 
experiences in Nevada where families have had to raise a great 
deal of money, go to court to try to get the ability of just 
going in and finding their relatives who have died on that Park 
Service property, and once the Park Service finally allowed 
that to take place, after a long period of time and after much 
money was raised, within a matter of days in the one instance 
and a matter of hours in the other, those bodies were actually 
located.
    We have an experience of a river that has been 
congressionally designated as a recreational wild and scenic 
river where the Park Service has banned any kind of paddling 
activity in that particular river.
    We have had the Park Service--Lincoln Park here in 
Washington has been open without ever having a Park Service 
person walking around it, but on Monday the playground was 
padlocked and chained, just the playground.
    What we are seeing in the Park Service is a history of 
inactions where they really don't care about people.
    I am told the last time there was a government shutdown in 
1995, I believe it was, that the Interior bill was one of the 
bills that had been funded. They had their money. The Park 
Service shut down their parks just for the fun of it in a 
series of solidarity or whatever it was.
    What this Park Service has done is just unacceptable. When 
we hear about a farm in Virginia, Park Service land, but they 
don't pay for the personnel, they don't put any money into it, 
they have insisted that those people who are being paid by an 
outside group, still have to close their park down. And the 
last one is I heard that the parking lot at Mount Vernon, which 
is not Federal property, has just been barricaded.
    Now, if that indeed is true, then somebody should call for 
this Park Service Director's resignation because that is just 
blatant political spirit and meanness, not an effort to try and 
help people out. I am disgusted with what the Park Service is 
doing, especially when I contrast it to what I think this new 
Secretary of the Interior is trying to do to add a different 
level of professionalism in the Department.
    So having said that, I welcome our--no, I don't. I will 
welcome you here, but you can't talk yet. First I have to turn 
to the minority members for opening statements they may have.
    I will turn first to the Ranking Member of the full 
committee Mr. DeFazio, if he has a statement he wishes to 
present.

  STATEMENT OF THE HON. PETER A. DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. I welcome our 
colleagues, and there are a number of bills that will be heard 
here today of which I am particularly supportive.
    I do want to address my remarks to one issue, and it will 
touch on what the Chairman raised about the shutdown or the 
impacts of it, and that is one of the bills that will be heard 
today, in particular Mr. McClintock, our colleague, is to deal 
with salvage of postcatastrophic fires in California.
    I have considerable experience with dealing with salvage. 
Early in my career I cowrote, negotiated legislation to 
actually do salvage after a catastrophic fire in Oregon, and it 
was necessary to legislate at that point in order to get it 
done on a timely basis. So I understand the concerns of the 
gentleman from California and the other gentleman from 
California Mr. Garamendi, who is, I guess, impacted by this, or 
quite close to it, has also raised concerns about how we might 
expedite salvage.
    We met with the Chief of the Forest Service earlier this 
week to discuss this, and here is the unfortunate thing. The 
Chief wants to go in, do a thorough survey of the damage, plot 
the whole mosaic of the burn, overlay all of the existing plans 
for those forests to determine what and where and how they 
might enter to do salvage, and that has all ground to a halt 
because of this shutdown. I don't know the instances that the 
Chairman raised regarding the Park Service and all the facts, 
but in this case it is not mean-spirited, it is just reality 
that these are not--that they will still fight fires, they are 
going to still do some emergency restoration work before the 
snows or the rains set in. They have already started in Oregon, 
where I also had a very large fire that I wish to have the--in 
this case it happens to be the BLM, although there is a rather 
smaller fire which the Forest Service needs to look at in terms 
of potential for salvage.
    So, Mr. Chairman, as I said a couple of weeks ago on the 
floor, we have some common concerns. I am not certain that we 
need to--I don't believe that we are going to go down the path 
of suspending all laws and judicial review to do the salvage, 
but salvage does have a sense of urgency about it. There are 
tools which the Forest Service can use. They have something 
called an ESD, which I just learned about this week, that they 
can use to expedite after appeals, or after they have done a 
plan to preclude appeals. And we might want to look at how we 
could further modify tools; if we could apply HFRA to forest 
fires, a bill we worked on on a bipartisan basis years ago to 
prevent fires, which unfortunately has never been adequately 
funded by either a Republican or a Democratic administration, 
to prevent intense fires.
    So we have got a lot of work before us. I think we have 
some opportunity here to work together, and I just wanted to 
raise that. But I am hopeful we get this shutdown behind us so 
that the Forest Service can do an orderly plan; we get all the 
documentation we need that is necessary to look at where and 
how we could do salvage, what restoration activities are 
necessary; and then get an emergency appropriations of whatever 
we need to do to get it done.
    So thank you, Mr. Chairman.
    [The prepared statement of Mr. DeFazio follows:]
Prepared Statement of The Honorable Peter A. DeFazio, a Representative 
                  in Congress From the State of Oregon
    Thank you, Mr. Chairman.
    Two weeks ago we were on the floor of the House talking about 
forest management and ways to reduce the threat of catastrophic 
wildfires.
    As I said then, there is common ground between Democrats and 
Republicans on this committee about the need for restoration to make 
our forests more resilient to fire and--in some cases--the need for 
post-fire activities to help put our forests on a sustainable, healthy 
path after a large fire.
    But those activities cost money. Implementing the Healthy Forest 
Restoration Act--which is bipartisan legislation that does reduce 
government costs and time spent developing projects--requires 
congressional appropriation.
    Putting together salvage projects to extract some economic benefit 
from post-fire events requires congressional appropriation.
    Restoring the landscape, replanting, and executing emergencies 
activities to protect communities post-fire requires congressional 
appropriation.
    Timber sales, hazardous fuels contracts, and stewardship 
contracts--all activities my colleagues on the other side of the aisle 
strongly support--require congressional appropriation.
    But none of these things are happening right now thanks to this 
illogical, irresponsible, completely unnecessary Government shutdown. I 
hope members of this committee understand that what is happening today 
in Washington is having real world, long-term, detrimental consequences 
on our land management agencies, our public resources, and on the 
communities and businesses that depend on these resources.
    I know my colleague from California, Mr. McClintock, is very 
concerned about possible delays in salvage operations in the Yosemite 
Rim Fire area. He recently introduced a bill, which is before the 
committee today, to expedite salvage timber sales by waiving all 
environmental laws and judicial review.
    I can understand the gentleman's frustrations and anxiety about 
getting this work done. In fact, I have 100,000 burned acres in my 
district from 2013 fires.
    But I will tell you that the most immediate threat to delay in 
salvage operations in the Yosemite Rim Fire area is not process and 
potential litigation--it's the Government shutdown.
    I talked to the Chief of the Forest Service on Tuesday. He has been 
forced to furlough all non-emergency personnel--some 18,800 employees 
total. The personnel that WOULD be working on planning for salvage and 
restoration in Yosemite aren't working.
    The only work being done in Yosemite right now is emergency work to 
put out the last remnants of the fire, to stabilize soils, and to 
ensure public safety. That's it. And when, or if, Forest Service 
employees return from this disruptive and expensive shutdown, they are 
going to be facing an even greater work backlog than they do now with 
declining budgets and reduced staff.
    You think these employees are just going to come back and pick up 
exactly where they left off? No. Congress is creating a mountain of 
paperwork for our Federal agencies because of the shutdown.
    I would counsel my colleagues on the other side of the aisle, if 
you want timely salvage operations in Yosemite or anywhere else in the 
country--if that's really your goal--fund the Government.
    If you want to move forward with hazardous fuel projects to reduce 
the risk of catastrophic fires like the Rim Fire in the future, fund 
the Government.
    And if you want to put your constituents back to work in the woods 
and make sure the timber infrastructure in your district or State is 
supplied with material, fund the Government.
    I am happy to work with my Republican colleagues on this committee 
on legislation that addresses fire and salvage. I don't think we need 
to waive all environmental laws and judicial review to accomplish our 
mutual goals. We should be able to come together on legislation that 
provides our agencies with the tools they need to better prevent and 
respond to wildfires and the devastation wildfires can bring to 
communities and the environment.
    But those tools would be completely useless to our Federal agencies 
if they aren't open for business.
                                 ______
                                 
    Mr. McClintock. Will the gentleman yield?
    Mr. DeFazio. If I have time, I would, if the Chairman 
allows.
    Mr. McClintock. Thank you.
    Mr. Bishop. Well, if you have to, go ahead and do it. He 
actually has unlimited time for an opening statement. We were 
going to discuss this issue later.
    Mr. McClintock. If the Chairman would prefer to discuss it 
later, but since the gentleman has referenced my legislation--
--
    Mr. Bishop. We are going to talk about your bill in detail.
    Mr. McClintock. All right. OK.
    Mr. Bishop. Let me also turn to the Ranking Member of the 
subcommittee Mr. Grijalva for an opening statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. I will submit the 
statement in its entirety for the record. I want to thank our 
colleagues for being here today.
    Personally I am astounded that we are having the hearing to 
begin with. The Government is shut down, employees are locked 
out, and the public is locked out of their public places and 
national parks, and everything is not normal. And while there 
is legislation before us that I support, legislation that I 
would like to probe even further. There are consequences to 
this shutdown of this Government, and particularly the public 
lands.
    The incidents that the Chair pointed out that are going on 
are a consequence of the majority shutting down the Government; 
consequences that are unfortunate, painful to visitors who have 
planned for months to be here, to bring their families, to go 
to the Grand Canyon. The month of October is worth $32 million 
to the Grand Canyon from visitors and from all the business 
related to those visits. So $3.2 million a day disappears from 
the revenue of surrounding communities and the park itself, 400 
employees locked out, 1,500 concession employees that work for 
concessionaires, the river runners closed, outfitters not doing 
business. And so there is a series of domino consequences to 
this shutdown, and while we can try to nitpick which one we 
should and which one we shouldn't, we are looking at a 
wholesale shutdown of this Government, and we need to remedy it 
in that way.
    I appreciate the Republican majority investigating this 
Government shutdown, having detailed information. It reminds me 
of President George W. Bush investigating how we got into Iraq.
    The fact remains that this is a decision that was made and 
a decision that can be resolved. The Park Service needs to be 
open, the American people need to see their lands that they pay 
for and sustain, and I hope as we go forward--and this hearing, 
while important to the people sponsoring the legislation and 
important to those communities that it represents, nevertheless 
this is a hearing in a vacuum and a hearing that, quite 
frankly, should occur once the Park Service is open and 
functioning and we can have their personnel here to react and 
give opinions regarding each one of these bills.
    Mr. Chairman, I appreciate the time, I yield back, and I 
will submit the full statement for the record.
    Mr. Bishop. I thank Mr. Grijalva for his statement.
    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of The Honorable Raul M. Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation
    I'm astounded that we're having this hearing today. The Government 
is shut down and we're going to go on with business like everything is 
normal? Everything is not normal. Despite the rhetoric from the other 
side, this hearing is not normal. Because the Government is shutdown, 
we will not be able to hear from the administration on several highly 
controversial bills. That's not how government should operate.
    While I appreciate that 3 democratic bills were included in today's 
hearing, I'm wary about the motivation behind today's meeting.
    On Monday, the majority voted to shut down the Government, 
shuttering our public lands, including the some of our Nation's most 
beloved and visited National Parks. People wait all year to see the 
autumn leaves at Acadia National Park in Maine or enjoy cooler 
temperatures at the Grand Canyon in Arizona. This year, however, they 
are being turned away.
    October is a popular month in many of our National Parks, and local 
communities rely on seasonal income to get through the rest of the 
year. This seasonal income is at risk. In Arizona alone, over 50,000 
people visit National Park units every day during the month of October. 
Visitation during October drives $3.2 million in economic activity. 
That's $3.2 million being sucked out of the State every day this 
shutdown continues.
    Right now, people are being turned away from the Grand Canyon. 
People who planned for months, even years, have to cancel their plans 
and pack up their stuff. All roads and trailheads in the park are 
closed. Hotels on the rim of the canyon are forced to close. River 
launches have stopped. Concessions have stopped. The park has had to 
furlough over 400 employees, and that doesn't even include the 1,500 
plus concession employees that will be out of work during this 
senseless shutdown. The shutdown has a serious ripple effect on gateway 
communities. Grand Canyon National Park generates $465 million per year 
in economic activity. Every day this shutdown continues the communities 
that rely on the park are losing over $1 million.
    Shutting down the Government has serious consequences and, like I 
mentioned at the beginning of my remarks, I cannot believe we are 
holding this hearing today. We can't pretend everything is business as 
usual. We have to stop playing games with the American people. On 
Tuesday, the Majority held a vote to that singled out funding for the 
National Park Service, the Smithsonian, and the National Holocaust 
Museum. This was cute, but not an effective way to end this shutdown. I 
voted against this piecemeal strategy. We can't pick out individual 
programs that make good sound bites and fund the Government piece by 
piece. People do care about funding the National Park Service. They 
also recognize a ruse when they see one. Under the individual CR to 
fund the park service, 81 percent of Department of the Interior would 
be still be furloughed.
    Several of the bills under consideration today are attempts to 
expedite the sale or transfer of Federal lands. Ignoring the public 
planning process has become a priority for the majority. But even if 
they had their way, under this shutdown they've orchestrated, there 
would be no one working to facilitate the sale of Federal lands. I just 
hope they appreciate that little bit of irony.
    Another bill we'll be discussing today requires salvage timber 
sales in the recovery plan for the Rim Fire that burned nearly 80,000 
acres in Yosemite National Park. Even though the impacted land in the 
park is primarily wilderness, the bill waives all environmental review, 
the Clean Water Act, and the Wilderness Act. Officials from Yosemite 
have publicly indicated that salvage logging is not necessary, but 
again, we aren't able to hear from the administration because the 
Government is shutdown. Under the shutdown, there all of the staff that 
could facilitate salvage logging are furloughed.
    I spent this time to raise my concerns about the impacts of the 
shutdown and questioning the rationale for holding this hearing, but I 
would like to take a minute to thank the witnesses for joining us 
today. It's not under the best circumstances. I recognize that, but I 
do look forward to your testimony.
    With that, I yield back.
                                 ______
                                 
    Mr. Bishop. He is right that the administration is not 
here, but will submit their points on each bill for the record, 
especially as we move toward a markup.
    So I thank all of you, our colleagues, for being here. I 
actually appreciate the remarks of the gentleman from Arizona 
as well, and for those of you who are coming here and asking to 
create a Federal facility in your State, I might just remind 
you that the State parks are still open and functioning very 
well. It's an option.
    The bills we will be discussing today include H.R. 298 by 
Mr. Rogers of Kentucky to authorize a study of the Mill Springs 
Battlefield for possible inclusion in the National Park System; 
H.R. 1167 and 1633 by Mr. Amodei to resolve issues and deal 
with small tract conveyances; H.R. 1259 by Mr. Larson to 
establish Coltsville National Historic Park in Connecticut; 
H.R. 1846 by Ms. Velazquez to have the Lower East Side Tenement 
National Historic Site Amendment Act; H.R. 2015 by Mr. 
Horsford--and by the way, we are happy to have you back here. 
You OK?
    Mr. Horsford. Great.
    Mr. Bishop. You are not going to have any kind of medical 
issue with us while you are here? We are happy to have you 
back.
    Mr. Horsford. Stronger and healthier.
    Mr. Bishop. Good. We are happy to have you back here.
    H.R. 2015 to provide for certain land conveyances in the 
State of Nevada; H.R. 2259 by Mr. Daines, the North Fork 
Watershed Protection Act; H.R. 2657 by Mr. Chaffetz--or Chavez, 
as I have heard you called all over the place--Disposable 
Excess Federal Lands Act; H.R. 2954 by Mr. Miller to authorize 
conveyance of certain property in some county in Florida--I 
can't pronounce it, I am sorry; H.R. 3188 by Mr. McClintock to 
expedite salvage timber sales damaged in the 2013 Rim Fire.
    We are going to invite you to give your testimony for 5 
minutes. It is in front of you there. We will then also ask you 
if you would like to join us at the dais for the rest of the 
procedures as we go through your bills.
    I also recognize the gentlelady from Nevada Ms. Titus, who 
has joined us here. We welcome you to the dais as well. I ask 
unanimous--oh, and Mr. Heck as well from Nevada. I ask 
unanimous consent that Members who are sponsoring bills as well 
as the other Representatives be able to join us on the dais and 
participate as well. Hearing no objections, we will proceed 
with that.
    Now, Mr. Miller, I understand that you are the one that has 
the most urgent need to go somewhere else. Even though we are 
going to invite you to stay, you are probably just going to 
blow me off and not stay anyway, but we will start with you, 
and then I will go down the row as well, and you have got 5 
minutes. Please, Mr. Miller, go ahead.

STATEMENT OF THE HON. JEFF MILLER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Miller. Thank you, Mr. Chairman. I have to go down to 
the National Mall and remove some barricades.
    Thank you to the Chairman and members of the subcommittee 
for allowing me to speak on my bill, 2954, to authorize 
Escambia County, Mr. Chairman, to convey certain property that 
was on Santa Rosa Island that has been leased to individuals 
that have been living on the island.
    In 1947, the U.S. Government, pursuant to congressional 
action taken during the 79th Congress, removed Santa Rosa 
National Monument from the jurisdiction of the National Park 
Service and deeded the land located on Santa Rosa Island to 
Escambia County, Florida. Under the terms of the law, Escambia 
County was given the authority to transfer property on Santa 
Rosa Island with the caveat that they could not issue title to 
the property. Rather, the county could only lease the land or 
return it to the Federal Government.
    Shortly after Escambia took custody of the island, they 
began offering to lease the property to businesses and 
homeowners, who would pay a lease fee, but would not be charged 
property taxes.
    In the years since this land was given to Escambia County, 
Santa Rosa Island has grown from an undeveloped barrier island 
into a bustling community with thousands of residents, 
businesses contributing millions of dollars to the local 
community, and tourists from across the United States and 
around the world traveling to vacation on the island's pristine 
white sand beaches.
    Mr. Chairman, this is a fairness issue. These significant 
developments on Santa Rosa Island necessitate a change in the 
original agreement between the Federal Government and Escambia 
County, and that is why the Board of County Commissioners of 
both Escambia County and Santa Rosa County passed resolutions 
asking me to introduce this bill that would allow the current 
Santa Rosa Island leaseholders the option of attaining fee 
simple title while protecting public access to the beaches and 
conservation areas on the island.
    H.R. 2954 is a simple solution that will allow current 
leaseholders the option of attaining fee simple title to their 
property if they so choose to do. Additionally, the bill would 
help ease management of the island by conveying land that 
currently falls in the jurisdictional boundaries of Santa Rosa 
County but is owned by Escambia County to Santa Rosa County.
    It is also vital to the many stakeholders in the current 
community that current agreements governing conservation, 
preservation, and public access or recreation on Santa Rosa 
Island are maintained, and that is why my legislation codifies 
these agreements into law in accordance with all resolutions 
that have been adopted by the county commission governments. 
This meets all the other criteria set forth to me by the Board 
of County Commissioners of Escambia and Santa Rosa counties, 
and it will help to ensure that individuals and businesses 
currently living and working on Santa Rosa Island have the 
choice to attain title to their land while also upholding 
current conservation easements and public access to the island 
beaches.
    In closing, I want to add that my bill in no way affects 
the right to public beach access, nor does it in any way change 
the boundaries of the Gulf Islands National Seashore, nor 
negatively impact the mission of the National Park Service at 
the national park.
    Mr. Chairman, thank you for allowing me to testify this 
morning at this legislative hearing on H.R. 2954 and speaking 
before this subcommittee. I yield back.
    Mr. Bishop. Thank you, Mr. Miller.
    I appreciate now knowing how to say Escambia County, and 
you are welcome to join us if you would like to, and on your 
way down to the Mall take wire cutters. I am told the Park 
Service wired the barricades together today. Again, you are 
welcome to join us if you would like to. If you have other 
business, I understand that.
    Let me turn to Mr. Rogers. I think you probably have a 
couple of other things on the plate today as well. I will give 
you 5 minutes to talk about your study for the Mill Springs 
Battlefield.

   STATEMENT OF THE HON. HAROLD ROGERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF KENTUCKY

    Mr. Rogers. Mr. Chairman and members of the committee, 
thank you for this important hearing, and I am grateful for the 
opportunity to speak before you. Truly our Nation is blessed. 
We have a remarkable array of natural beauty, which people from 
all over the world flock to see. Additionally we have a great 
number of historical sites which have been dutifully and 
faithfully preserved so that new generations can appreciate 
what this country has been through and what their forefathers 
cared for.
    I am proud today to introduce to you my friend Bill 
Neikirk--Bill, raise your hand so they can see who you are--
Bill Neikirk, whom you will see in the next panel, I think. It 
seems like only yesterday, but more than 20 years ago Bill and 
a group of citizens in Wayne and Pulaski Counties in Kentucky 
grew concerned that the site of an important Civil War 
battlefield in our backyard was in danger of being lost 
forever. It was at that time that the U.S. Department of the 
Interior classified the site of the Battle of Mill Springs, one 
of the most important battles in the western theater of the 
war, as one of the most endangered battlefields in Kentucky.
    Today, thanks to Bill and the group he founded, the Mill 
Springs Battlefield Association, hundreds of acres of 
battlefields have been diligently preserved, acquired and 
preserved. Through a partnership of public and private funds, 
his association has constructed a fantastic 10,000-square-foot 
Mill Springs Battlefield Visitors Center and Museum, 
established interpretive signage, led driving and walking tours 
of the battlefield, but above all they have created a very 
vibrant tourist attraction which hosts thousands of visitors 
and students each year, preserving the memory of this historic 
battle for generations to come, including staging the 
reenactment of the battle every January.
    Mr. Chairman, the Mill Springs Battlefield Association has 
expressed its desire to turn over their tireless preservation 
work to the National Park Service and the people of this 
country so that the joy of learning and of history will be 
enjoyed by many more people through the years. My bill, H.R. 
298, would start this process by evaluating the feasibility of 
adopting this important site into the Park Service. I am proud 
to associate myself with their effort and to have this 
battlefield and generous group of citizens in my district.
    I thank this subcommittee for favorably considering this 
legislation. I hope it will be passed to the full committee, 
Mr. Chairman and Members, and thank you for the time allotted 
me, and I yield back what is remaining.
    Mr. Bishop. Thank you, Mr. Rogers, and, again, if you would 
like to stay, you are welcome to it. I have a feeling you 
probably have other issues that you need to deal with.
    I also once failed to announce that H.R. 712, which is on 
the agenda, will not be discussed today, but will be reassigned 
to a different hearing time.
    Mr. Chaffetz, happy to have you back here again. Your bill, 
number 2657, is before us. Five minutes. Go for it.

   STATEMENT OF THE HON. JASON CHAFFETZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Chaffetz. I thank the Chairman and thank the Ranking 
Member for their consideration.
    As you know, over the course of years, the Federal 
Government has spent billions of dollars acquiring private 
property and making it public, and through that time back in 
1997, the Clinton administration actually went through an 
exercise of assessing the BLM lands, and during that assessment 
they categorized them. They looked at mineral rights, they 
looked at road access, they looked at all the different uses of 
this public land. But there was a certain portion of the land 
that really didn't serve any sort of public purpose. It didn't 
have road access issues, it didn't have mineral rights; it just 
was excess Federal land that served no public purpose.
    And as they did this assessment, the Clinton administration 
came to determine that just over 1 percent of that land didn't 
really have any other purpose, and so what this bill says is 
let us take that little bit of excess that doesn't serve a 
public purpose and let us put it up at fair market value and 
sell it back as private property. If it sells, if people find 
value to it, whether it is a conservationist or a private 
property owner, they could buy that, and it would go back as 
private property.
    Now, it ends up that would be about 3.3 million acres of 
land through a variety of States, mostly in the West. This is, 
again, half of 1 percent, \1/2\ of 1 percent of all the Federal 
lands.
    So the number 3.3 million acres sounds like a lot, but in 
the context of how much Federal land is owned by the Federal 
Government, it is a very, very small amount of land. But in the 
Western States this becomes vital to the education of our 
children, because if you don't have property tax, which is 
private property to generate the taxes that you need to educate 
your children, like we need in Utah--we have nearly 70 percent 
of our land owned by State and Federal Government. We have a 
hard time getting the money that we need to educate our 
children. So if we have excess Federal land, just over 1 
percent of the BLM, my bill suggests that we would sell that 
back to private property owners.
    H.R. 2657, the disposal of excess Federal lands, would 
responsibly dispose of nearly 3.3 million acres of land the 
Federal Government reported it does not need, and selling these 
lands could generate more than a billion dollars for the 
Federal Treasury. In addition, putting these lands to good use 
would generate economic activity, jobs, and even more Federal 
revenue.
    National treasures like national parks we have in Utah and 
particularly in Utah's Third Congressional District deserve 
Federal protection; however, during the Clinton administration 
there was a portion of land under their assessment that they 
found suitable for disposal. This bill simply would allow that 
process to move forward.
    I appreciate the committee's consideration of this bill. I 
would hope we would find support. I would be happy to answer 
any questions as we move forward, but I appreciate, Chairman, 
allowing this bill to move forward and the consideration of 
this committee.
    I yield back.
    Mr. Bishop. Thank you. I appreciate you being here. Once 
again, we would extend you the opportunity to stay if you would 
like to.
    Mr. Larson, we are happy to have you here on H.R. 1259, the 
Coltsville National Historic Park. You are recognized for 5 
minutes.

   STATEMENT OF THE HON. JOHN B. LARSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Larson. Well, thank you, Mr. Chairman, and I want to 
thank you, and Mr. Grijalva, and members of the committee, and 
certainly the committee staff, for the ongoing work that we 
have been involved in. We are honored to be here. You will be 
hearing in the second panel from the Mayor of Hartford. I thank 
you again for extending an invitation to him. This will be his 
second appearance before the committee as well.
    I can't tell you how important this is to the State of 
Connecticut. I think for many States it is important for us to 
put this in the perspective of a small State. You can fit the 
State of Connecticut in most of your national parks, and yet we 
have this very significant historic spot that not only produced 
the gun that won the West, but also was at the heart of the 
industrial revolution, a revolution that ultimately--I know we 
are going to get some disagreement from New Jersey about this, 
and I have this argument on a regular basis with Mr. Pascrell 
as well, but this was a place in Coltsville, as it is called, 
where not only did they come up with the concept of the 
assembly line and interchangeable parts, but we had a woman who 
didn't have the right to vote when her husband Samuel Colt 
passed away who actually was part of what would be back then in 
probably a Fortune 500 company in the United States. They 
became the first manufacturers to not only manufacture here, 
but the first American manufacturer to manufacture overseas as 
well. She developed the concept of firewalls. She introduced 
housing for employees there, as well as forms of insurance that 
ultimately led to a burgeoning insurance industry in Hartford, 
Connecticut, but also saw the production of the bicycle, the 
automobile, and the typewriter that were all part of what 
people commonly now refer to as the Gilded Age.
    It is a great source of pride for the State of Connecticut, 
and I thank Ranking Member DeFazio, who visited recently and 
had a tour of the Colts building and was taken on that tour by 
Mayor Segarra, who you will be hearing from later as well. But 
it also has the full support of the community, from the 
Historic Society to the residents in the community, to the 
religious community, the Chamber of Commerce because of its 
vital importance and synergy with so many other State historic 
landmarks.
    And I take the Chairman's admonition to heart, but as I 
have told him on many occasions, for Connecticut, and we 
consider ourselves a donor State to the Federal Government. By 
that I mean the amount of money that we send to the Federal 
Government based on what we receive back is quite 
disproportionate. And so this, of course, is something that I 
appeal to the committee's genuine sense of fairness and 
understanding how prideful this is and what a great designation 
this would be to bring the prestige of a national park to the 
State of Connecticut. You know from your States how important 
it is to you and what that designation carries with it. We are 
talking about a very small parcel here that we are dealing 
with, and we are talking about 10,000 square feet where 
probably the best collection in the world of that period and 
that era of guns will be displayed.
    And so it is with a great source of pride that I come here 
today representing our community. We have been working on this 
for almost a decade now. I am proud of the National Park 
Service's support and so many others, both of our United States 
Senators, and Senator Wyden who are supporting this as well. 
And I especially want to thank the Ranking Member Grijalva and 
the Chairman for taking the time with us and our staff and 
meeting with our staffs to work out some of the issues that you 
have expressed.
    We are willing to do anything and everything that it takes 
to gain this prestigious recognition, and I know it is a dear 
thing, and it comes dearly to these Members, but thank you for 
allowing me the opportunity to make this case before you today.
    Mr. Bishop. Thank you.
    And, John, once again, if you would like to join us, you 
will notice that no one has taken me up on that offer, but the 
offer is still there, and I would still remind the gentleman--
--
    Mr. Larson. It is not personal, I am sure, yes.
    Mr. Bishop. I told you, you had to talk about the baseball 
diamonds out there. Too late, too late. You had your chance.
    Mr. Larson. I just wanted to say and also the home of 
vintage baseball for Connecticut, where we have Colts Ball 
Field, which is right there on the facility and site.
    Excuse me, Mr. Chairman.
    Mr. Bishop. Thank you.
    Ms. Velazquez, we appreciate you coming in here today. We 
recognize you for 5 minutes to talk about the Lower East Side 
Tenement National Historic Site.

 STATEMENT OF THE HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE IN 
                  CONGRESS FROM THE STATE OF 
                            NEW YORK

    Ms. Velazquez. Good morning. Thank you, Mr. Chairman and 
Ranking Member Grijalva, for holding this important hearing and 
taking up consideration of H.R. 1846, the Lower East Side 
Tenement National Historic Site Amendments Act.
    Since our country's inception, immigration has been a 
driving force in shaping our Nation's history. For hundreds of 
years people from every corner of the globe have come to the 
United States in pursuit of a better life. Their arrival has 
made us stronger with their valuable contributions in a wide 
range of fields. In my city, New York, immigrants have been an 
important part of the cultural fabric. From Little Italy to 
Chinatown, every one of the five boroughs has been enriched by 
the arrival of immigrants.
    Because of immigration's important role in our country and 
in our history, there are a number of sites that recognize the 
millions who came here from abroad to start a new life and help 
build the American dream. I am sure members of this committee 
are familiar with Ellis Island and the Statue of Liberty.
    In my district the Tenement Museum helps visitors remember 
the challenges immigrants have faced when they first arrived in 
the city and lived in the Lower East Side. Since being founded 
in 1988, this local gem has helped recount the story of 7,000 
working-class immigrant families who lived in these structures. 
They demonstrate the challenges families faced in building a 
new life, assimilating to a new culture, and creating a 
brighter future.
    The stories told through the Tenement Museum range widely. 
The museum offers a glimpse into the lives of our first factory 
workers. It allows us to see how a Greek Sephardic family lived 
in the Lower East Side tenements. Exhibits allow visitors to 
experience the shops. Some of our earliest immigrants owned 
small businesses that provided goods and services to the area's 
burgeoning immigrant population.
    The museum has been officially acknowledged as significant 
to our Nation's history. Congress designated 97 Orchard Street 
as an affiliated site of the National Park System in 1988, and 
the Secretary of the Interior declared the museum a historic 
landmark in 1994.
    As interest in the museum has continued to grow, there is 
an increasing need for additional space and greater 
accessibility. My bill, H.R. 1846, will help meet this growing 
need. By having the National Park System recognize the museum's 
expansion at 103 Orchard Street, the bill will enhance the 
experience of those visiting the museum. Under H.R. 1846, the 
museum will be able to open a new visitors center and transform 
certain portions of the museum into additional educational 
exhibits and tours. This legislation is needed because it will 
make this valuable educational tool available to a wider 
audience.
    Mr. Chairman, the immigrant story is the American story. We 
have always been a Nation of immigrants, and all our 
communities are enriched by this infusion of new ideas and 
cultures. The Tenement Museum honors the men, women, and 
children who came here to carve out a better life and in the 
process improved our country. H.R. 1846 will ensure the museum 
can reach an even wider audience and continue telling this 
uniquely American story. And I thank you for giving me this 
opportunity and for the consideration of this legislation.
    Mr. Bishop. Thank you. I appreciate your testimony. Once 
again, the invitation to join us if you would like to, but I 
understand Members have other commitments other places.
    We will now turn to the introduction of bills that are 
sponsored by Members who are here on the committee and the dais 
as well. Mr. Horsford, let us turn to yours first, 2015. You 
are recognized for 5 minutes to introduce your legislation.

 STATEMENT OF THE HON. STEVEN A. HORSFORD, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Horsford. Thank you very much, Mr. Chairman, to you and 
to the Ranking Member Mr. Grijalva, for scheduling this hearing 
today.
    The consensus on this important and bipartisan bill, H.R. 
2015, truly is remarkable. I have dozens of letters, 
resolutions, and statements of support from countless elected 
officials, community leaders, and citizen groups who are all 
asking this Congress to recognize Tule Springs be designated as 
a national monument. And, Mr. Chairman, I would like to ask 
that they be included in the record with your permission. 
Permission to include those in the record.
    Mr. Bishop. Yes.
    [The letters, resolutions and statements submitted by Mr. 
Horsford follow:]
 Letter Submitted for the Record by the Board of County Commissioners, 
                          Clark County, Nevada
                    Clark County Government Center,
                                         Las Vegas, Nevada,
                                                     June 17, 2013.
To:  Nevada Congressional Delegation:

    The Honorable Harry Reid, The Honorable Dean Heller, The Honorable 
Mark Amodei, The Honorable Joe Heck, The Honorable Steven Horsford, The 
Honorable Dina Titus.

    Re:  S. 974 and H.R. 2015--Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act of 2013.

    Please accept this letter as my support of S. 974 and H.R. 2015--
The Las Vegas Valley Public Land and Tule Springs Fossil Beds National 
Monument Act of 2013. Community support for Tule Springs legislation 
has been broad and inclusive, and it's important to note that the 
entire Nevada delegation (three Republicans and three Democrats) co-
sponsored this legislation. I encourage the swift passage of this 
legislation so the Tule Springs National Monument may begin to take 
place. In the northern outskirts of Clark County/Las Vegas, thousands 
of fossils or Ice Age creatures' remains are buried. Founded in 2007, 
the Protectors of Tule Springs (POTS) has worked tirelessly to make 
certain this area is preserved and protected. I want future generations 
to enjoy all that is to be learned and seen in this wonderful area.
    I fully support designating this area a National Monument, managed 
by the National Park Service. It has the unanimous support of local 
elected officials, the United States Air Force, the Las Vegas Paiute 
Tribe, tourism industry leaders, educators, scientists, conservation 
organizations, and community groups. In addition, thousands of people 
have registered their support. It is the right time and the right thing 
to do.
            Thank you,
                                               Tom Collins,
                                         Clark County Commissioner.
                                 ______
                                 
 Letter Submitted for the Record by the Board of County Commissioners, 
                          Clark County, Nevada
                    Clark County Government Center,
                                         Las Vegas, Nevada,
                                                       June 4, 2013
        The Honorable Harry Reid, 
        U.S. Senate, 
        Washington, DC 20510.         The Honorable Dean Heller, 
                                      U.S. Senate, 
                                      Washington, DC 20510.
        The Honorable Mark E. 
        Amodei, 
        U.S. House of 
        Representative, 
        Washington, DC 20515.         The Honorable Joseph J. Heck, 
                                      U.S. House of Representative, 
                                      Washington, DC 20515.
        The Honorable Steven A. 
        Horsford, 
        U.S. House of 
        Representative, 
        Washington, DC 20515.         The Honorable Dina Titus, 
                                      U.S. House of Representative, 
                                      Washington, DC 20515.

Re:  S. 974 and H.R. 2015--Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act of 2013

    Dear Congressional Delegation:
    I am writing in support of the above referenced act. The Upper Las 
Vegas Wash contains thousands of paleontological resources from the 
Pleistocene Epoch that are preserved in a unique geological context 
that are of national importance. Designation of this site as a National 
Monument would protect the unique fossil resources of the area and the 
geological context of those resources for present and future 
generations while allowing for public education and continued 
scientific research opportunities.
    In studies of the area conducted during the last decade, the Bureau 
of Land Management and National Park Service determined that the area 
likely contains the longest continuous section of Pleistocene strata in 
the desert southwest, which span multiple important global climate 
cooling and warming episodes.
    The Upper Las Vegas Wash is significant to the culture and history 
of the native and indigenous people of the area, including the Southern 
Paiute Tribe.
    The entire Nevada delegation along with Clark County and the cities 
of Las Vegas and North Las Vegas has shown its support for this 
legislation.
    This designation would protect the fossil specimens and, hopefully, 
lead to a new tourist destination as well.
    I request and urge the swift passage of the legislation so that the 
development of a management plan that provides for the long-term 
protection and management of the Monument can be accomplished soon.
            Sincerely,
                                       Chris Giunchigliani,
                                                      Commissioner.
                                 ______
                                 
     Letter Submitted for the Record by the City of North Las Vegas
              Office of the Mayor and City Council,
                                   North Las Vegas, Nevada,
                                                      June 3, 2013.
Honorable Steven A. Horsford,
2250 Las Vegas Blvd North, Suite 500,
North Las Vegas, NV 89030.

    Dear Congressman Horsford:

    The city of North Las Vegas City Council wishes to express our 
support for H.R. 2015, the Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act of 2013. We believe this 
legislation reflects a well-balanced approach to public land management 
policy in the Las Vegas Valley, and we urge you to support this 
important measure.
    The legislation would achieve important conservation goals by 
establishing the Tule Springs Fossil Beds National Monument. Located at 
the northern edge of the Las Vegas Valley and within the boundaries of 
the Cities of North Las Vegas and Las Vegas (the ``Cities'') are the 
Tule Springs National Register Historic Site and an area known as the 
Upper Las Vegas Wash, a unique natural drainage channel that carries 
storm water from the surrounding mountains toward Lake Mead. Found 
within these areas are significant paleontological sites containing 
numerous fossils demonstrative of the Pleistocene Ice Age that span 
geologic history from 7,000 to nearly 200,000 years ago. These areas 
also contain endangered and imperiled plants such as the Merriam's and 
Las Vegas Bearpoppy and the Las Vegas Buckwheat, as well as important 
habitat for threatened species such as the desert tortoise and 
burrowing owls.
    Recognizing the significance of these areas, the mayors and city 
councils of the Cities unanimously passed a resolution, in 
collaboration with the Clark County Commission and the Tribal Council 
of the Southern Nevada Paiute Tribe, requesting that Congress designate 
the area surrounding Tule Springs and the Upper Las Vegas Wash a unit 
of the National Park Service. We believe a national monument is the 
appropriate designation. Due to the large number and variety of 
resources that are available for study and viewing within the area it 
is expected that the national monument would attract visitors from all 
over the world with a wide range of interests, including educational, 
scientific, cultural and recreational. The Cities have worked closely 
with a broad range of stakeholders, including the U.S. Air Force, 
conservation groups, and NV Energy, to develop a boundary for the 
national monument that balances conservation and resource protection 
with the future growth needs of the Cities.
    The legislation also facilitates important economic development 
goals for the city by making surplus Federal land available for future 
job creation and development in accordance with local land use plans. 
The city expects the release of these lands to create thousands of jobs 
over the next decade.
    The city appreciates all you do for southern Nevada, and we thank 
you for your support of this important public lands legislation for the 
benefit of current and future generations of Las Vegas Valley residents 
and visitors.
            Sincerely,
                                             Shari L. Buck,
                                                             Mayor.
                                 ______
                                 
     Letter Submitted for the Record by The City of North Las Vegas
                                       Mayor-Elect,
                                   North Las Vegas, Nevada,
                                                      June 6, 2013.
        The Honorable Harry Reid, 
        U.S. Senate, 
        Washington, DC 20510.         The Honorable Dean Heller, 
                                      U.S. Senate, 
                                      Washington, DC 20510.
        The Honorable Mark E. 
        Amodei, 
        U.S. House of 
        Representatives, 
        Washington, DC 20515.         The Honorable Joseph J. Heck, 
                                      U.S. House of Representatives, 
                                      Washington, DC 20515.
        The Honorable Steven A. 
        Horsford, 
        U.S. House of 
        Representatives, 
        Washington, DC 20515.         The Honorable Dina Titus, 
                                      U.S. House of Representatives, 
                                      Washington, DC 20515.

Re:  S. 974 and H.R. 2015--Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act of 2013.

    Dear Sen. Reid, Sen. Heller, Rep. Heck, Rep. Amodei, Rep Titus, and 
Rep. Horsford:

    I am writing to strongly urge you to support S. 974 and H.R. 2015--
The Las Vegas Valley Public Land and Tule Springs Fossil Beds National 
Monument Act of 2013. As Mayor-Elect of North Las Vegas, I believe the 
National Monument is not only culturally and historically significant, 
but has the potential to provide a positive economic affect on our 
city.
    The broad and overwhelming community support for the Tule Springs 
legislation matches the bi-partisan effort of the entire Nevada 
Congressional delegation. While on the campaign trail over the last 
several months, a countless number of people expressed their support 
and excitement for Tule Springs. Nevadans are excited and eager for the 
wonderful addition of the monument to our State.
    I hope you will continue your work to quickly pass the Tule Springs 
Fossil Beds National Monument Act. Thank you for your consideration of 
this important issue.
            Respectfully,
                                                  John Lee.
                                      Mayor-Elect, North Las Vegas.
                                 ______
                                 

                             Clark County 
                     Board of County Commissioners

                              RESOLUTION 
                  OF THE BOARD OF COUNTY COMMISSIONER

                A RESOLUTION SUPPORTING THE DESIGNATION

              OF AN AREA KNOWN AS THE UPPER LAS VEGAS WASH

                     AS AN URBAN NATIONAL PARK UNIT

                  MANAGED BY THE NATIONAL PARK SERVICE

WHEREAS, Americans have deep and enduring love for the National Park 
System, and places identified as national park units embody America's 
highest ideals and values; and

WHEREAS, America's National Park System enjoys consistent and global 
goodwill, embraces more than 272 million visitors, generates more than 
$10 billion for local economies, and generates community pride; and

WHEREAS, the Upper Las Vegas Wash has been deemed worthy of inclusion 
in the National Park System; and

WHEREAS, the Upper Las Vegas Wash has been confirmed by scientists to 
have significant paleontological fossils demonstrative of the 
Pleistocene Ice Age, and these fossil findings appear to contain the 
longest continuous section of Pleistocene strata, spanning important 
global climate cooling and warming episode in the desert Southwest; and

WHEREAS, a four-month intensive study of the area in 1962, chronicled 
by National Geographic, catalogued thousands of Ice Age mammal fossils 
including Columbian Mammoth, Ground Sloth, American Lion, Camelops, 
Bison and ancient species of Horse and found this area ``greatly 
significant;'' and

WHEREAS, the significance of the Upper Las Vegas Wash area, established 
in 1962, was re-confirmed in the past few years with the scientifically 
documented removal of thousands of fossils through recent paleontology 
studies and inventory contracted by the Bureau of Land Management, and 
through a 2009 study commissioned by the National Park Service; and

WHEREAS, findings of Ice Age palynomorphs (plants) and invertebrates 
(animals) within the Upper Las Vegas Wash provide study opportunities 
uncommon in most fossil localities, and are thus are expected to 
attract international scientific interest and onsite research; and

WHEREAS, the Upper Las Vegas Wash is significant to native and 
indigenous people and offers interpretive opportunities to show a broad 
range of history, from Ice Age through Native American history to 
contemporary culture; and

WHEREAS, the vision for the Upper Las Vegas Wash as a new national park 
unit is expected to include state-of-the-art visitor facilities and 
amenities, working field sites in which the public can observe 
scientific research, paleontology curation facilities; and interpretive 
displays that engage visitors in area history, flora and fauna; and

WHEREAS, the Upper Las Vegas Wash is expected to attract international 
and domestic visitors to bolster tourism revenues; and

WHEREAS, the proximity of the new national park unit is expected to be 
used as an educational resource for the area's schoolchildren, and 
integrated into plans for the northern campus of the University of 
Nevada Las Vegas; and

WHEREAS, the protection and conservation of the natural, cultural and 
paleontological resources within an urban national park unit will 
enhance southern Nevada's efforts for sustainable economic growth; and

WHEREAS, the American people have entrusted the National Park Service 
for nearly a century with the care of our most special places and 
treasures, and have recognized that creating national park units 
preserves special places in perpetuity, for our children, grandchildren 
and their children; and

WHEREAS, it is a privilege to add a new park designation to 392 units 
within the National Park Service; and

WHEREAS, the Clark County Board of Commissioners, the Las Vegas City 
Council, and the North Las Vegas City Council support establishing an 
area of the Upper Las Vegas Wash as a national park unit and recognize 
the rare opportunity to create a new urban national park unit, managed 
by the National Park Service; and

WHEREAS, we intend for Clark County, the city of Las Vegas, the city of 
North Las Vegas, and the Las Vegas Paiute Tribe to work with local, 
State, tribal and Federal jurisdictions and agencies to collaboratively 
participate in the planning of the new urban national park unit;

NOW, THEREFORE BE IT RESOLVED that the Clark County Board of 
Commissioners urge the United State Congress, the U.S. Department of 
Interior, and the National Park Service to make a land management 
designation that is appropriate for the protection of the resources, 
done in a timely manner to avoid further degradation of the area, with 
appropriate funding to fully develop the scientific, educational and 
recreational potential.
                                 ______
                                 
     Letter Submitted for Record by the Department of the Air Force
                   Headquarters 99th Air Base Wing,
                             Nellis Air Force Base, Nevada,
                                                 November 13, 2009.
Colonel Howard D. Belote,
Commander,
430 Grissom Ave, Suite 101,
Nellis AFB, NV 8919.1

Chairman Rory Reid,
Clark County Board of County Commissioners,
500 Grand Central Pkwy,
Las Vegas, NV 89106.

    Dear Chairman Reid,

    On behalf of Team Nellis, which comprises Nellis AFB, Creech AFB, 
Tonopah Test Range, and the Nevada Test and Training Range (NTTR), I 
would like to express our ongoing support for the protection and 
conservation of the Upper Las Vegas Wash. We believe the various 
efforts to protect this sensitive region, such as your resolution, are 
integral to the sustainment of Team Nellis's future by maintaining 
current and future air and ground military operations throughout the 
region.
    Team Nellis is one of our Nation's most valuable military 
complexes. We conduct approximately 40,000 test and training flights 
each year. Our missions range from operational testing of new weapons 
systems and simulated combat during allied Red Flag operations, to 
ground combat operations and real-time combat missions flown from 
Creech AFB in Indian Springs. The Nellis Complex is truly a national 
treasure, and the unmatched testing and training capabilities it 
provides are critical to our ability to fight and win our Nation's 
wars.
    Compatible conservation of the Upper Las Vegas Wash region presents 
a great opportunity to protect two different national treasures--the 
Wash and the Nellis Complex. As you know, the wash region contains 
significant paleontological, botanical, and cultural resources on the 
ground, which require long term protective measures. In addition, the 
area also provides critical airspace that supports Team Nellis's air 
and ground operations. We have crucial low/high-level flight arrival, 
departure, and training routes throughout the wash region, and the area 
serves as a gateway to our testing and training ranges. By federally 
protecting the region with an associated military aviation reservation, 
we can ensure the sustainment of both critical habitat and military 
airspace, creating a truly win-win compatible future for Nevada.
    Team Nellis remains committed to working with community leaders to 
develop processes that foster compatible growth solutions to secure 
Nevada's future. My point of contact for this matter is Ms. Deb 
MacNeill, Director of Public Partnerships.

                                          Howard D. Belote,
                                                     Colonel, USAF.
                                 ______
                                 
  Letter Submitted for the Record by the National Parks Conservation 
                              Association
                   10161 Park Run Drive, Suite 150,
                                       Las Vegas, NV 89145,
                                                      June 3, 2013.
TO: The Honorable Harry Reid, The Honorable Dean Heller, The Honorable 
    Mark Amodei, The Honorable Joe Heck, The Honorable Steven Horsford, 
    and The Honorable Dina Titus.

RE:  S. 974 and H.R. 2015--The Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act of 2013.

FROM: The National Parks Conservation Association.

    On behalf of more than 350 million visitors to America's national 
parks, more than 800,000 members of the National Parks Conservation 
Association (NPCA), and nearly 5,000 members and parks enthusiasts from 
Nevada who are actively engaged with NPCA, we thank all members of 
Nevada's Congressional delegation for legislation to create Tule 
Springs Fossil Beds National Monument.
    Legislation to protect this fossil-dense are in the northwest part 
of the Las Vegas Valley is expected to enhance educational 
opportunities for area school children, bolster the area's tourism-
based economy, and complement America's national park system. The 
area--rich with Pleistocene-era fossils of Columbia mammoth, American 
lions and camels, saber-tooth cats, dire wolves, bison and sloth that 
span nearly 200,000 years in geologic time--also provides scientists 
from multiple disciplines with rare opportunities for research.
    The legislation--which has been co-sponsored by all members of 
Nevada's Congressional delegation--is endorsed by the cities of Las 
Vegas and North Las Vegas, Clark County, business and tourism 
organizations, educational institutions, and conservation organization. 
Most recently, a resolution supporting the Federal legislation was 
passed near unanimously by the Nevada State Legislature.
    In addition, the legislation is endorsed by the U.S. Air Force for 
preserving an essential military air corridor above the proposed new 
national monument.
    NPCA is honored to playa part in seeing this significant Ice Age 
fossil site added to our national park system. We thank the Nevada 
Congressional delegation for recognizing this important opportune 
opportunity.
            Sincerely,
                                                Lynn Davis,
                          Sr. Program Manager, Nevada Field Office.
                                 ______
                                 
     Letter Submitted for the Record by the Office of the Governor
                                   State of Nevada,
                                       Carson City, Nevada,
                                                   August 12, 2011.
The Honorable Harry Reid,
U.S. Senate,
Washington, D.C. 20510.

    Dear Senator Reid:

    I am submitting this letter in support of legislation to create a 
new National Park unit in Nevada for the area surrounding Tule Springs 
and the Upper Las Vegas Wash. As you know, thousands of Nevada citizens 
have expressed their support for a new national monument in this 
region. Additionally, the mayors and city councils of North Las Vegas 
and Las Vegas. the Clark County Commissioners, and the Tribal Council 
of the Las Vegas Paiute Tribe unanimously passed resolutions requesting 
Congress to designate Tule Springs as an urban national park.
    Legislation to establish the Tule Springs Fossil Beds National 
Monument will not only protect the unique paleontological resources 
existing in the area, but also create new opportunities for economic 
development by attracting tourists and Nevada citizens to the region. I 
understand you have been working with Nevada's Congressional Delegation 
to create legislation that accomplishes National Park designation and 
also considers the concerns and needs of various stakeholders.
    Thank you for your continued support of this effort.
            Sincere regards,
                                            Brian Sandoval,
                                                           Governor
                                 ______
                                 
   Letter Submitted for the Record by the Protectors of Tule Springs
                                       North Las Vegas, NV,
                                                      June 3, 2013.

To: Nevada's Congressional Delegation; The Honorable Harry Reid, The 
    Honorable Dean Heller, The Honorable Mark E. Amodei The Honorable 
    Joe Heck, The Honorable Steven A. Horsford and The Honorable Dina 
    Titus.

Re:  S. 974 and H.R. 2015--Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act of 2013.

    The Protectors of Tule Springs, a citizens group founded in 2006, 
have joined a diverse coalition of groups in advocating for the 
protection of the Tule Springs fossil beds in the northern Las Vegas 
Valley. We have a unique opportunity to create an educational 
laboratory in an urban area where students and visitors can learn about 
the last 250,000 years of ice age history and climate change. This new 
National Monument will be an economic boost for Las Vegas economy.
    We urge swift passage of these bills so that Tule Springs may 
receive the protection and preservation that it deserves.
            Respectfully,
                                         Jill K. DeStefano,
                                                         President.
                                 ______
                                 
     Letter Submitted for the Record by the Las Vegas Ice Age Park 
                               Foundation
        Helen Mortenson--President.   Thalia Dondero--Vice President.
        Steve Rowland--Secretary.     Bob Anderson--Treasurer.
        Paul Aizley--State 
        Legislature.                  Harry Mortenson-Liaison
        Jill DeStaphano--Liaison, 
        P.O.T.S.                      Samantha Rubinson--Liaison, State 
                                      Stewardship.
        Sandy Croteau--Public 
        Relations.                    Lonnie Hammargren--Public 
                                      Relations.
                              ice age park
    Dear Members of tbe Nevada Congressional Delegation:

    Thank you for co-sponsoring S. 974 or H.R. 2015--The Las Vegas 
Valley Public Land and Tule Springs Fossil Beds National Monument Act 
of 2013. Our Board of Directors has been actively working for several 
years toward the establishment of an Ice Age Park, visitor center, and 
research center in the Upper Las Vegas Wash, and the creation of Tule 
Springs Fossil Beds National Monument will be a huge step in that 
direction. Such a park will provide a significant incentive for nature-
oriented and science-oriented tourists to linger in Las Vegas for an 
extra day or two, instead of driving directly to Zion National Park, or 
Grand Canyon, or Death Valley. It will also contribute very 
significantly to the scientific and educational richness of southern 
Nevada.
    We strongly support the passage of S. 974 or H.R. 2015.
            Respectfully,
                                           Helen Mortenson,
                      President--Las Vegas Ice Age Park Foundation.
                                 ______
                                 
  Letter Submitted for the Record by the Red Rock Canyon Interpretive 
                              Association
                  6755 W. Charleston Blvd. Suite D,
                                       Las Vegas, NY 89146,
                                                      June 3, 2013.
To: Nevada's Congressional Delegation:

        The Honorable Harry Reid.     The Honorable Dean Heller.
        The Honorable Mark E. 
        Amodei.                       The Honorable Joseph J. Heck.
        The Honorable Steven A. 
        Horsford.                     The Honorable Dina Titus.

Re:  S. 974 and H.R. 2015--Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act of 2013

    On behalf of the Red Rock Canyon Interpretive Association and the 
Southern Nevada Conservancy, I want to express our support for passage 
of S. 974 and H.R. 2015--The Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act of 2013. We appreciate the 
hard work of the Nevada delegation to draft the legislation and to 
jointly introduce the legislation. This collaborative effort among the 
delegation is deeply appreciated.
    The creation of the Tule Springs Fossil Beds National Monument is 
not only important to Nevada but to the entire nation and world 
community. This is truly an extraordinary resource, one of the most 
important paleontological sites in the world. Fossil findings in the 
Tule Springs area, chronicled over 250,000 years in geologic time, make 
this area unique and of great scientific and educational interest. 
There is no unit in the National Park System that spans such a long 
period where you can actually see how ecosystems have transitioned from 
warm climates to cold climates and back again through several ice ages.
    The mission of the Red Rock Canyon Interpretive Association is to 
enhance the recreational, educational and interpretive programs of the 
Bureau of Land Management, and other governmental agencies, by 
providing materials and services to the public which promote an 
understanding, and appreciation of, the natural history, cultural 
history and sciences of southern Nevada and specifically, Red Rock 
Canyon National Conservation Area. As an educational, interpretive and 
scientific organization, we are enamored with the opportunity that the 
Tule Springs National Monument offers for learning, especially among 
our youth. The Monument can be a great asset to the Clark County School 
District and to the university system as a place for authentic learning 
and science.
    Designation as a National Monument also helps broaden the economic 
base and public perception of Las Vegas. fn these tough economic times, 
it is critical that we look at broadening our economic base. The 
Monument would provide another reason to visit Las Vegas and can help 
lengthen the stay.
    Thanks for your hard work and we hope to see the legislation 
enacted during this session of Congress.
            Sincerely,
                                           Blaine Benedict,
                                                Executive Director.
                                 ______
                                 
       Letter Submitted for the Record Submitted by Scenic Nevada
                                       P.O. Box 32,
                                       Reno, Nevada, 89504,
                                                 November 12, 2009.
    To Whom it May Concern:

    Scenic Nevada would like you to consider supporting the resolution 
for the Upper Las Vegas Wash. Scenic Nevada is a 501(c) non-profit, 
non-partisan, conservation organization that works to preserve, 
protect, and enhance the scenic beauty of Nevada.
    Our principal activity is to educate the general public on the 
economic, social, and cultural benefits of scenic preservation by means 
of encouraging billboard and sign control, protecting and supporting 
scenic byways, promoting sound-wall alternatives, supporting open space 
and green-way plans, minimizing the impact of cell towers, preserving 
hill sides and drainage ways.
    A Nevada LAST CHANCE Scenic Places is our publication which 
illustrates Nevada's treasured landscapes and describes both pending 
environmental threats as well as their potential solutions. Scenic 
Nevada, in 2007, designated the upper Las Vegas Wash (Tule Springs) as 
one of Nevada's 13 LAST CHANCE Scenic Places. Scenic Nevada requests 
that you support the resolution presented before you to protect the 
Upper Las Vegas Wash.
            Sincerely,
                                                Doug Smith,
                                 Board of Director's Scenic Nevada;
         Member of the Scenic Nevada Board of Directors Statements.
                                 ______
                                 

                            State of Nevada

                          Executive Department

                     A Proclamation by the Governor

        WHEREAS, the month of April each year has been designated as 
``Paleontological Awareness Month;'' and

        WHEREAS, the study of paleontology seeks to find information 
about the history of the Earth through the study of fossils' 
environment and evolution; and

        WHEREAS, the necessity for state and local officer's, private 
and nonprofit groups and foundations, schools, businesses, and other. 
public and private entities to work toward the goal of preserving the 
paleontology resources of Nevada resides in the importance of 
understanding its earth history and its contribution to future 
business; and

        WHEREAS, the recognition of the important contribution of 
prehistoric fossils and other paleontological sites of Nevada also 
illuminates the impact of paleontological sciences and their importance 
in Nevada history and future; and

        WHEREAS, the paleontological sites in Nevada, including Berlin-
Ichthyosaur State Park and Tule Springs, have contributed to bringing 
renowned scientists and producing distinguished research on the 
Ichthyosaur fossils and Pleistocene animals, making Nevada a notable 
area in paleontology science;

        NOW, THEREFORE, I, BRIAN SANDOVAL, GOVERNOR OF THE STATE OF 
NEVADA, do hereby proclaim April 2011, as
               paleontological awareness month in nevada
                                 ______
                                 
Letter Submitted for the Record by the University of Nevada Las Vegas, 
                                  UNLV
                          Department of Geoscience,
                                         Las Vegas, Nevada,
                                                 November 12, 2009.
Clark County Board of Commissioners,
500 S. Grand Central Parkway,
Las Vegas, NV 89155-1601.

    Dear Commissioners:

    I fully support the designation of an urban national park unit in 
the Upper Las Vegas Wash. I am a paleontologist who has been conducting 
research in the Upper Las Vegas Wash for several years. The area has 
enormous scientific and educational potential, and it has the potential 
to attract a different type of tourist than we presently attract to Las 
Vegas.
    I urge you to approve the resolution in support of this new urban 
national park or monument.
            Sincerely,
                                        Stephen M. Rowland,
                                              Professor of Geology.
                                 ______
                                 
Letter Submitted for the Record by the University of Nevada Las Vegas, 
                                  UNLV
                           Office of the President,
                                         Las Vegas. Nevada,
                                                 November 10, 2009.

    To whom it may concern:

    This letter is to express the support of the University of Nevada, 
Las Vegas for the conservation and preservation of the Upper Las Vegas 
Wash (Tule Springs) area with the creation of the Fossils Bed National 
Monument. The university has long-tern plans to create a North Las 
Vegas Campus east of the proposed site and adjacent to the southern 
border of the Desert National Wildlife Refuge. Our plans for a campus 
focused on sustainability principles are enhanced by the potential 
monument, which would offer myriad opportunities for education, 
research, recreation, and partnerships.
    We initially envisioned higher education programs at the North Las 
Vegas Campus focusing on technology, business management, and 
elementary education, while our research interests included 
transportation and wind/solar energy. With the addition of the 
monument, we have the possibility of creating unparalleled science 
education and research in the areas of paleontology, conservation 
biology, vegetation and wildlife ecology, health, outdoor education, 
and recreation management.
    UNLV's plans will co-exist with the future plans of the cities, 
county, tribe, and Federal agencies. Each entity will see plans 
bolstered by a seamless collaborative network of education, research, 
and recreation endeavors.
    We are hopeful the proposed monument will be given strong 
consideration.
            Sincerely,
                                          Neal J. Smatresk,
                                                         President.
                                 ______
                                 
    Mr. Horsford. Thank you.
    I also want to highlight just a few of those letters of 
support. In November 2009, three governmental entities, the 
Clark County Commission, and the mayors and city council 
members of Las Vegas and North Las Vegas unanimously passed 
resolutions asking Congress to make Tule Springs a part of the 
National Park System. H.R. 2015 and its Senate companion are 
cosponsored by all members of Nevada's congressional 
delegation, and I am thankful that Congresswoman Titus, 
Congressman Heck, my fellow member here on the committee 
Congressman Amodei, and I all are here today to show support 
for this legislation, and I want to thank my colleagues in the 
Congress for their leadership and support of this important 
bipartisan bill.
    Our city and county officials did important groundwork by 
coordinating an active coalition of local supporters to define 
the boundaries in a way that will serve both the national 
interests and our local population. Additionally, we worked 
very closely with the U.S. Air Force on this legislation to 
carefully define a critical military air corridor between 
Nellis and Creech Air Force Bases by protecting airspace above 
the national monument.
    Finally, I want to point out that the administration 
testified in support of this legislation when our colleagues in 
the Senate examined this bill earlier in the year. Due to the 
current government shutdown, the Department of the Interior is 
not able to be here today to testify, but I would ask the 
Chairman to allow the administration to submit their testimony 
after this hearing once the government reopens.
    This area is indeed unique and definitely has a place as a 
new part of the National Park System. The local economic 
benefits are clear. Tule Springs will increase tourism by 
attracting more travelers to southern Nevada, and by increasing 
their stay in our region. The area is expected to attract 
scientists from around the world and capture the imagination 
and interest of children and adults alike. Establishing the 
Tule Springs Fossil Beds National Monument would make the 
region a world-class destination for archaeological tourism 
that will revitalize southern Nevada's economy and enhance the 
area's quality of life.
    The monument is expected to generate jobs to build the 
monument's infrastructure, and permanent jobs and businesses to 
support the monument's gateway needs. In addition, community 
leaders intend to locate geosciences and technology businesses 
in the local area. Community leaders have also discussed design 
features for bordering development with plans for a nearby 
satellite campus for the University of Nevada-Las Vegas.
    Finally, Mr. Chairman, I must also point out that the 
region is an archaeological treasure. Colombian mammoths, 
massive beasts with tusks as long as 10 feet and molars the 
size of a human head, once roamed here as did prides of 
American lion and herds of bison, dire wolves and saber tooth 
cats, the sloth the size of a small sports car.
    Tule Springs Fossil Beds National Monument is significant 
for an array of national and historic resources, specifically 
fossils from the ice ages. Fossils discovered in this arid 
desert terrain harken back to a time when the area was lush 
with vegetation, a span of 200,000 years of geologic time which 
offers rare scientific opportunities to study the rise and 
demise of ice age species.
    I would like to thank you, Mr. Chairman, for scheduling 
today's hearing and for accepting the request to invite our 
Mayor from the city of North Las Vegas, John Lee; Councilman 
Steve Ross, who has served as my councilman for my local area, 
and who represents the area of where Tule Springs will be 
located; as well as Las Vegas Metro Chamber President and CEO 
Kristin McMillan as witnesses on this important bipartisan 
legislation that grows our economy, creates jobs, and will have 
significant positive research and education opportunities for 
the region of southern Nevada.
    Thank you very much, Mr. Chairman, for this hearing and to 
our witnesses who are here today.
    Mr. Bishop. Thank you, Mr. Horsford, and as I said before, 
we are happy to have you back here, and hopefully you are 
feeling well.
    Mr. Horsford. I feel great. Thank you. Good to be back.
    Mr. Bishop. I am going to do an audible here. Usually I 
would refer to Representative Titus and Representative Heck 
when we do the rest of the bill, but that is on the third 
panel, and I don't know what your schedules are like, so were 
you wanting to make a statement on this particular bill?
    Ms. Titus. Yes.
    Mr. Bishop. Please. You are recognized.

STATEMENT OF THE HON. DINA TITUS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Ms. Titus. Thank you very much, Mr. Chairman, for the 
courtesy, and Ranking Member Grijalva. I am just here to 
briefly voice my support for H.R. 2015, the Las Vegas Valley 
Public Land and Tule Springs Fossil Beds National Monument Act.
    Although the area in question is largely in North Las Vegas 
and unincorporated Clark County, not in District 1, I am 
joining the entire Nevada delegation in support of this bill 
because its provisions will certainly affect people who live 
throughout the valley, and there may be some people who travel 
to visit these fossils who will then want to come and stay on 
the Las Vegas strip, which is in my district. Just a little 
plug, Mr. Chairman.
    Although--you will hear from other witnesses, and you have 
heard from Mr. Horsford, this legislation is vital to the 
preservation of our region's history, which dates back to the 
ice age. It includes a number of provisions that will enhance 
tourism and will also encourage economic development, job 
creation, and increase education and research opportunities. At 
the same time, it will protect some of Las Vegas' most precious 
open spaces and its paleontological treasures.
    The support for this legislation runs the gamut from the 
chamber of commerce to the environmental organizations, local 
Native American tribes, educational institutions, and elected 
officials at all levels. I would urge your support of this 
bill, and I will hope you will move it forward without delay, 
and I thank you for the opportunity just to express my support.
    Mr. Bishop. Mr. Heck, I am assuming you are speaking to 
this one? There is a couple of other Nevada bills, but whatever 
you want to do, go ahead.

   STATEMENT OF THE HON. JOSEPH J. HECK, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Dr. Heck. Thank you, Mr. Chairman. First I thank the Chair 
and the Ranking Member for allowing me to testify in support of 
H.R. 2015, the Las Vegas Valley Public Land and Tule Springs 
Fossil Beds National Monument Act. H.R. 2015, offered by my 
friend and colleague from Nevada Mr. Horsford and supported by 
the entire Nevada delegation, is a commonsense piece of 
legislation that will protect and preserve our natural 
treasures, open up land for public use, and help create much-
needed jobs in Nevada.
    Specifically, H.R. 2015 will create the Tule Springs Fossil 
Beds National Monument to protect those archaeological sites 
that contain remarkable fossils that date back to the ice age 
and have attracted international attention.
    As you all know, travel and tourism is the largest industry 
in southern Nevada, and this designation is incredibly 
important to our economy as it will help attract additional 
visitors to our State and provide opportunities for new 
businesses around the monument area.
    Additionally H.R. 2015 supports the public use of public 
lands by conveying roughly 1,200 acres of land in the Nellis 
Dunes area for an off-highway vehicle recreation park to be 
managed by Clark County, and designating approximately 10,000 
acres of public land surrounding the park as an OHV recreation 
area.
    Furthermore, the bill includes a number of additional 
provisions and supported--recommended and supported by local 
stakeholders that will protect access to critical water and 
energy resources, support the Las Vegas Metropolitan Police 
Department, the Nellis Air Force Base, and the Nevada System of 
Higher Education by conveying land for future educational, 
research, and administrative needs.
    With the Las Vegas Valley bordered on all sides by Federal 
land, bills like H.R. 2015 are critical to allowing our 
community to expand and grow. This bill was worked, reworked, 
and worked yet again by stakeholders at the Federal, State, and 
local level of government and is an example of how public land 
bills should be created.
    For all these reasons I support H.R. 2015 and want to thank 
the subcommittee for holding this important hearing on this 
bill that is important to all Nevadans. And I yield back the 
balance of my time.
    Mr. Bishop. Thank you.
    Mr. Grijalva.
    Mr. Grijalva. Thank you. Thank you, Mr. Chairman.
    I would like to take this moment to welcome our newest 
member to the subcommittee, Representative Huffman from 
California. Welcome. And I think his expertise and 
participation is going to be very good for this committee.
    Thank you for the time.
    Mr. Bishop. We welcome you here. It is a learned 
experience.
    To the members of the Nevada delegation, I appreciate it. I 
have to do one other thing about your bill, though. I 
understand Tule is spelled T-U-L-E? There is a county in my 
State spelled T-O-O-E-L-E, and anyone who doesn't know it calls 
that Tule, which it is actually pronounced Tu-wil-a. So I am 
sorry, every time you all say Tule, I just want to blurt out, 
no, it is Tu-wil-a. So you are going to have to change the name 
of whatever it is if you want this bill to go forward.
    Mr. Horsford. Phonetically, Mr. Chairman.
    Mr. Bishop. I don't care.
    Mr. Horsford. Call it whatever you want. I will accept that 
as a motion to do pass.
    Mr. Bishop. Well, we will work on that one, too.
    Mr. Amodei, since this is turning into Nevada month, you 
also have two bills that are before us, H.R. 1167 and as well 
as H.R. 1633. We will offer you time to introduce both of those 
if you will, and if you need extra time to do it since there 
are two bills, please feel free to use that extra time.

   STATEMENT OF THE HON. MARK E. AMODEI, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Amodei. Thank you, Mr. Chairman and Mr. Ranking Member. 
I will endeavor to be crisp.
    The first bill, which is the Quitclaim Surface Rights of 
Federal Land under the Jurisdiction of the Bureau of Land 
Management in Virginia City, Nevada, otherwise known as the 
Restoring Storey County Act, H.R. 1167, is a pretty simple 
story.
    As a result of the mining that occurred in the mid-1800s, 
there was not a lot of attention paid to township plots, 
parcels, things like that. Never really went back and fixed it. 
You have a county manager and one of the county commissioners 
with some pretty deep roots in the county that will testify 
later as a part of a panel.
    I will just say this: The objective of the bill which, by 
the way, came at the suggestion of the BLM folks in Nevada, was 
to say there are a lot of title issues in Virginia City in 
those township areas, and we would just as soon be out of it. 
The objective of the bill is to remove the Federal Government 
from the title reports for those parcels that are in various 
incorporated, unincorporated urban areas of Storey County, if 
you will.
    So if somebody is concerned about this is going to give 
something away, there is still plenty of title work to do on 
those parcels in terms of the competing owners. And actually I 
will say this in front of the Storey County folks: Be careful 
what you ask for, we will be quitclaiming under this 
legislation to the county to let them basically step into the 
position of the Bureau of Land Management for purposes of all 
further title-clearance issues, and there are plenty.
    What it does, though, is it acknowledges the fact that 
these parcels have all been residential or commercial in nature 
in a small western town. Not the only instance in Nevada, but 
this is the one we are talking about today, allows the Federal 
Government to get off of people's preliminary title reports and 
lets the landowners and the county with jurisdiction sort out 
the rest of it.
    The Bureau of Land Management in Nevada has not the 
resources nor the interest, according to my meetings with them, 
to engage in this. They have other things to be doing in a 
State which they own various portions of 86 percent of. I 
understand they are not here today. I can tell you that one of 
the accommodations made in it, though, is this is surface 
rights only; deals nothing in mineral rights. So that is what 
we are trying to accomplish with H.R. 1167.
    H.R. 1633, conveyance of small parcels, is meant to address 
another issue which is, at least in Nevada, and I believe in 
other Western States, if you have a State that is 33 percent 
owned by the Federal Government or more, which includes most of 
the West, including my colleague from California that I see is 
here today, and you have inholdings that are a quarter section 
or less that are in or near an urban area, which there are no 
environmental issues, it sets up a public process 18 months 
long where, in exchange for fair market value, those parcels 
can be sold into private ownership, or into municipal 
ownership, or into tribal ownership to put them in the stream 
of commerce.
    Now, we have limited the size to say this is not some 
subterfuge to buy multi-hundred-, multi-thousand-acre parcels, 
but when you are talking along the fringe of urban areas or 
things like that that don't lend themselves to national forests 
management on a mega scale or BLM on that same scale, if you 
have cleared those, and there are no environmental NEPA type of 
issues, then if somebody wants to buy them, we ought to set up 
a process where at fair market value they can do that.
    So that is it in a nutshell, except the one thing that we 
have done that we think is kind of interesting is the proceeds 
of that, because of our earmark rule, are distributed for from 
each sale half to the State where the sale originated and then 
half to the other remaining Western States on a per capita 
basis for use to do things like comply with the Endangered 
Species Act, do things that are resource related in those 
States so that we can hopefully in the West keep those funds 
working for the resource as a result of these parcels that are 
sold.
    That is it in a nutshell, Mr. Chairman, and I thank you, 
and I yield back.
    Mr. Bishop. Thank you, Mr. Amodei.
    I'll turn to Mr. Daines, if you would like to present H.R. 
2259.

    STATEMENT OF THE HON. STEVE DAINES, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Daines. Thank you, Chairman Bishop and Ranking Member 
Grijalva, for hosting this hearing and carrying out our 
constitutional legislative duties even though the Government 
shut down. As we say in Montana, we just use pictures, words 
usually aren't necessary, so we are going to talk about this 
bill.
    Agreement in our Government seems far gone these days. 
However, today, despite the dark clouds over DC, perhaps there 
is a silver lining. Today we are having a hearing on H.R. 2259. 
It is a bill I have introduced called the North Fork Watershed 
Protection Act. It is an initiative that I have joined my 
Democrat Montana colleague Max Baucus to support. In fact, as 
we saw the entire Nevada delegation, congressional, supporting 
it, I can tell you the entire Montana delegation supports it. I 
am the only one.
    My support for this bill marks the first time in almost 30 
years that the Montana delegation, House and Senate, have 
supported public lands legislation in a bipartisan, bicameral 
fashion, and we are hoping to get this bill across the finish 
line.
    If DC looked a little more like Montana, I think we would 
have better government. At no cost to the American taxpayer, 
and in no loss in production of minerals, and in no loss in 
timber harvests and grazing rights, the North Fork Watershed 
Protection Act protects multiple use in a special part of our 
State from future energy development on 362,000 acres in the 
Flathead and Kootenai National Forests that border Glacier 
National Park.
    The current leases are held in suspension due to a 1988 
Ninth Circuit Court of Appeals decision that held the 
Department of the Interior did not adequately complete 
environmental impact statements prior to issuing the leases. 
Current leaseholders are not paying rentals or royalties. Due 
to the sensitivity of the area--and you can just see the 
pictures behind me that made me explain that--and the low 
prospect of developing these leases, nearly 80 percent of the 
existing leaseholders have already voluntarily relinquished 
their leases. Though no production is taking place, in this 
bill we ensure that lawful leaseholders maintain the ability to 
produce on their leases should the Interior again seek to go 
through the environmental review process.
    Let me tell you why this is important for Montana. The 
North Fork of the Flathead River extends about 90 miles from 
its headwaters in southern British Columbia, and it moves south 
into Montana where it forms the western boundary of Glacier 
National Park through the watershed to British Columbia. The 
North Fork is widely treasured as a remote corner of our State. 
We harvest timber, we hunt elk, we catch trout, and we launch 
expeditions near the adjacent Glacier National Park.
    This bill will sustain our local economy and strengthen 
long-term community stability. It is supported by a wide 
variety of stakeholders from local businesses, community 
leaders, and conservation groups. In fact, Mr. John Anderson, a 
Whitefish, Montana, City Councilman, is here today to testify 
about this bill's importance to the Whitefish community and to 
the business community of the Flathead Valley as a whole.
    Lumber mills, like the longest family owned mill in the 
Flathead, Stoltze Lumber, find the bill important sustaining 
healthy forest management in the area. Though a witness from 
Stoltze Lumber wanted to testify today, they were not able to 
attend. Mr. Chairman, I ask unanimous consent to enter 
testimony from Paul McKenzie of Stoltze Lumber into the record, 
as well as statements of support from Conoco Phillips, the 
Outdoor Alliance, Trout Unlimited, the Wilderness Society, the 
Kalispell Chamber of Commerce, and The Nature Conservancy. I 
would like unanimous consent to enter into the record. 
Unanimous consent to enter into the record.
    Thank you, Mr. Chairman.
    [The statements and letters of support follow:]
        Letter Submitted for the Record by ConocoPhillips Company
                    1776 Eye Street, NW. Suite 700,
                                      Washington, DC 20006.
                                                   October 1, 2013.

The Honorable Steve Daines,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Mr. Daines:

    I am writing to express ConocoPhillips' support for H.R. 2259, the 
North Fork Watershed Protection Act of 2013, which would conserve an 
area of Montana that has important economic and recreational qualities 
and is a gateway to Glacier National Park.
    ConocoPhillips was pleased to voluntarily give up its interest in 
108 Federal oil and natural gas leases, covering 169,000 acres in the 
watershed. ConocoPhillips is confident that it could have developed 
those leases in a safe and environmentally responsible manner, but 
relinquished the acreage after considering the unique characteristics 
of the area.
    We hope that the Natural Resources Committee and the House will act 
expeditiously in its consideration of H.R. 2259.
            Sincerely,
                                                  Jim Ford,
                                                    Vice President,
                               Federal and State Government Affair.
                                 ______
                                 
 Letter Submitted for the Record by F.H. Stoltze Land & Lumber Company
                              Lumber Manufacturers,
                                  Columbia Falls, MT 59912,
                                                   October 1, 2013.
The Honorable Rob Bishop,
Chairman,
U.S. House of Representative,
Committee on Natural Resources,
Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

RE:  H.R. 2259--North Fork Watershed Protection Act of 2013

    Dear Chairman Bishop and members of the committee,

    Please accept the following testimony on behalf of F.H. Stoltze 
Land & Lumber Co. regarding H.R. 2259, the North Fork Watershed 
Protection Act of 2013, sponsored by Congressman Daines from Montana.
    Clean air, clean water and robust wildlife habitats are valued by 
all Americans. The trans-boundary North Fork of the Flathead River 
valley has a long history of balancing resource development with 
residential and recreational uses while protecting the ecological 
functions of a unique landscape. H.R. 2259 is supported by a broad 
coalition of local businesses, community leaders and conservation 
groups and is fully supported by F.H. Stoltze Land & Lumber Co. H.R. 
2259 is a logical step in ensuring that this balance of historic uses 
and ecological values can continue for future generations.
    The North Fork valley is home to one of the most robust wildlife 
and aquatic habitats in the lower United States. Threatened and 
endangered species including grizzly bear, bull trout, Canada lynx 
along with ungulates, wolverine, fisher, wolves and mountain lion 
thrive in the North Fork. These wildlife populations have thrived in 
concert with responsible timber management, grazing and recreational 
uses of our Federal landsmanaged by the U.S. Forest Service.
    The unique balance of use and conservation in the North Fork of the 
Flathead River Valley has been recognized internationally as a 
successful model of landscape management. To that end, our neighbors to 
the north have committed to preservation of the trans-boundary North 
Fork Flathead River Valley by limiting mineral and geothermal 
development on the Canadian side of the border. H.R. 2259 will fulfill 
the commitment made in an international agreement to similarly limit 
development on the U.S. side of the border to ensure the ecological 
integrity and function of the entire watershed.
    It is important to recognize that H.R. 2259 specifically protects 
historic uses such as forest management, livestock management and 
recreational uses. Eliminating the potential impacts of development of 
mining and geothermal will help ensure the continued viability of these 
historic uses. The restrictions in this bill only apply to Federal 
lands and will not affect activities or rights of private or state 
interests.
    The scope of the bill is narrow and focused. The bill does not 
include wilderness designation, closure of access or roads, limitation 
on historic uses or infringement on existing rights, private or public.
    It is my understanding that the potential for mineral and 
geothermal development is very low to non-existent in the area and that 
consultation with these industries has indicated they have no objection 
to the proposed bill. The bill as proposed will NOT affect any existing 
leaseholder rights in the area. Additionally, I understand that if the 
bill is allowed to be marked up, Rep. Daines is committed to strengthen 
protections of rights of existing leaseholders.
    F.H. Stoltze Land & Lumber Co. is the oldest family owned sawmill 
and forest management company in Montana. We recently celebrated our 
100 year anniversary of operation in Montana. We believe strongly in 
the saying ``healthy forests make for healthy communities and healthy 
families''. The concept of Stewardship is central to our business and 
land management activities. We have proven and continue to demonstrate 
that active management of our natural resources is compatible with 
conservation goals, both on our own private timberlands and on those 
lands owned by other private and State interests. There is no reason we 
cannot balance use and conservation on our Federal lands as well. 
Balancing the needs for stewardship management and conservation has 
been an essential part of our 100 years of success as a company. H.R. 
2259 is fully consistent with this balance that has ensured our long 
term success and the Montana way of life.
    For the last 12 months, I have been a participant in a citizen 
driven collaborative effort called the Whitefish Range Partnership to 
help develop a forest plan revision proposal for the U.S. Forest 
Service managed lands in the North Fork area. This broad collaborative 
includes representatives of conservation groups, wilderness advocates, 
timber managers, motorized and non-motorized recreation, North Fork 
residents, commercial recreation, local government and local business. 
This group spent endless hours discussing various topics, including the 
language included in H.R. 2259. This larger collaborative group has 
come to tentative consensus agreement to support the language in S. 255 
and echoed in H.R. 2259 and will likely make final consensus agreement 
this next week at our next meeting. This is further indication of the 
broad based support for the proposed language.
    H.R. 2259 is an essential step in the stewardship of the natural 
resources on Federal lands in the North Fork Valley. Balance requires 
understanding of benefits and risks. In this situation, the benefits of 
protecting the North Fork Valley from potential impacts from new mining 
and geothermal development far outweigh the risk associated with lost 
opportunity. The collaborative support for H.R. 2259 is indicative of 
the wise use and balance needed to meet the needs of our local 
communities while ensuring ecological integrity and function for future 
generations.
    Please fully consider the benefits of H.R. 2259 and I encourage the 
committee to allow further deliberation and mark up of this important 
bill. Thank you for the opportunity to provide testimony and I look 
forward to monitoring the progress of this legislation.
            Sincerely,
                                     Paul R. McKenzie C.F.,
                                        Lands and Resource Manager.
                                 ______
                                 
       Letter Submitted for the Record by Montana Trout Unlimited
                          Main Office, PO Box 7186,
                                       Missoula, MT. 59807,
                                                   October 1, 2013.
The Honorable Doc Hastings,
Chairman,
Committee on Natural Resources,
 U.S. House of Representatives
Washington, DC 20515.

The Honorable Peter A. DeFazio,
Ranking Member,
Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC 20515.

RE:  H.R. 2259--North Fork Watershed Protection Act

    Dear Chairman Hastings and Ranking Member DeFazio:

    We write on behalf of Trout Unlimited and its 3,600 members in 
Montana to sincerely thank you for scheduling a hearing on H.R. 2259, 
the North Fork Watershed Protection Act of 2013.
    Trout Unlimited strongly supports the North Fork Watershed 
Protection Act, and we thank Rep. Daines for his leadership on this 
important legislation. The bill would withdraw U.S. Forest Service land 
in the North Fork of the Flathead River's watershed from future mineral 
leasing activities. The North Fork of the Flathead is one of Montana's 
most special places to hunt and fish. The eastern half of the valley is 
comprised of Glacier National Park, the watershed provides critical 
habitat for bull trout and cutthroat trout, and hunting is a 
cornerstone of the region's heritage and culture. World-class mule 
deer, elk and moose hunting opportunities, angling for native trout and 
the natural wonders of Glacier National Park attract visitors from 
across the country. This valley is truly one of the most wildlife-rich 
regions in the continental United States, and we believe that we should 
keep it as it is so that future generations will be able to experience 
this unique and special place.
    The North Fork Watershed Protection Act is an important step in 
ensuring that traditional land uses such as timber and outdoor 
recreation are protected in this valley. Oil, gas and hard rock mineral 
extraction in the North Fork would forever change this extraordinary 
place and pose a serious threat to water and air quality, trout 
populations, and big game habitat. That means big business in Montana, 
where hunters and anglers contribute $1 billion annually to the State 
economy. Moreover, Glacier National Park borders the withdrawal area 
and mineral extraction would negatively impact the economic engine 
created by 2 million tourists that spend over $150 million each year to 
experience the scenery, clean water and wildlife of Glacier National 
Park.
    The act also satisfies a Memorandum of Understanding between the 
State of Montana and the Canadian Province of British Columbia, under 
which British Columbia has already moved to withdraw its portion of the 
watershed from mineral development.
    A final reason we support H.R. 2259 is because it is a 
collaborative, bi-partisan solution. Montana's entire Congressional 
delegation is working together to pass legislation that will protect 
this watershed from the threat of oil and gas development, and the act 
enjoys broad support locally and throughout our State. Moreover, 
several oil and gas leaseholders have voluntarily relinquished over 
200,000 acres of leases in the watershed. We understand our need for 
fossil fuels and hard rock minerals, and we believe that part of 
responsible development is recognizing that some places are too special 
to be industrialized--Montanans from all walks of life agree that the 
North Fork is one of these places.
    Today there is a unique and timely opportunity to enact a model of 
collaborative conservation that will protect the North Fork of the 
Flathead and Glacier National Park and preserve our sporting traditions 
for future generations. H.R. 2259 is an essential piece of legislation 
to complete this legacy.
            Sincerely,
                                               Doug Haacke,
                                                          Chairman,
                                           Montana Trout Unlimited.
                                 ______
                                 
   Letter Submitted for the Record by the Montana Wildlife Federation
                                     P.O. Box 1175,
                                     Helena, Montana 59624,
                                                   October 3, 2013.
The Honorable Rob Bishop,
Chairman,
U.S. House of Representatives,
Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

The Honorable Raul M. Grijalva,
Ranking Member,
U.S. House of Representatives,
Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

RE:  The North Fork Watershed Protection Act (H.R. 2259)

    Dear Chairman Bishop and Ranking Member Grijalva:

    The Montana Wildlife Federation (MWF) is writing to thank you for 
holding a hearing on the North Fork of the Watershed Protection Act 
(H.R. 2259) and also to express our support for this important piece of 
legislation.
    Founded in 1936, MWF is Montana's oldest and largest hunter and 
angler-based conservation group. We are comprised of over 5,000 
hunters, anglers, landowners and other conservationists who share a 
mission to protect and enhance Montana's public wildlife, lands, 
waters, and fair chase hunting and fishing heritage. MWF strongly 
supports H.R. 2259 and we appreciate Congressman Daines's leadership to 
advance this important legislation.
    The North Fork of the Flathead valley is a special place and a 
cornerstone of Montana's natural heritage. Flanked by Glacier National 
Park to the east, the Whitefish Range to the west and cut by the North 
Fork of the Flathead River, this valley is a sportsmen's paradise as 
well as an economic driver for the region. The region abounds with 
wildlife: moose, elk, deer, grizzly bears, black bears, wolverines, 
eagles, bull trout and Westslope cutthroat trout are just a sampling of 
the wildlife inhabit the North Fork. Anglers can cast flies to native 
trout, hunters have ample room to roam on Forest Service lands that 
comprise the withdrawal area, and 2 million tourists flock to region 
every year, contributing over $150 million to the local economy. Put 
simply, in a State with many special places, the North Fork is near the 
top of the list.
    MWF supports responsible energy development in places where oil and 
gas drilling and hard rock mining are compatible with the conservation 
of fish and wildlife habitat. However, the North Fork of the Flathead 
is a place that deserves to be set aside for future generations. For 
this reason, protecting the North Fork of the Flathead has been a 
fixture of MWF's work for over three decades.
    In 1982, the Forest Service leased lands in the North Fork for oil 
and gas development, sparking a controversy that we finally have an 
opportunity to resolve by passing H.R. 2259. Today there is a broad 
consensus among Montanans that protecting the North Fork is the right 
thing to do. Our entire bipartisan Congressional delegation supports 
legislation to withdraw Forest Service lands from oil, gas and hard 
rock mineral leasing and numerous business owners, sportsmen and women, 
municipal governments, organizations, local chambers of commerce and 
conservationists have all endorsed the North Fork Watershed Protection 
Act. Additionally, several oil and gas companies have voluntarily 
relinquished over 200,000 acres of leases.
    Last, enacting H.R. 2259 will fulfill Montana's agreement with 
British Columbia to prevent mining in the trans-boundary North Fork of 
the Flathead watershed. In 2010, British Columbia banned development in 
their portion of the watershed and it is time for us to hold up our end 
of the agreement.
    Protecting the North Fork of the Flathead is an example of diverse 
interests coming together and uniting around a solution that will 
benefit future generations. Passing H.R. 2259 is the final step in a 
three decade effort to conserve this extraordinary place and MWF is 
hopeful that Congress will help us complete this work.
            Sincerely,
                                             Skip Kowalski,
                            President, Montana Wildlife Federation.
                                 ______
                                 
        Letter Submitted for the Record by the Outdoor Alliance
                                                   October 2, 2013.
RE:  North Fork Watershed Protection Act

    Dear Congressman Daines,

    Outdoor Alliance is a coalition of five national, member-based 
organizations that includes Access Fund, American Canoe Association, 
American Whitewater, International Mountain Bicycling Association, and 
Winter Wildlands Alliance. We write in support of your bill, H.R. 2259, 
the North Fork Watershed Protection Act. Many of our members and 
supporters know the North Fork Flathead watershed first hand, and we 
appreciate your efforts to protect this treasured landscape.
    The Flathead is one of Montana's few Wild and Scenic Rivers and an 
important resource for the human powered outdoor recreation community. 
Any development, especially mineral, ought to take other values of the 
landscape into consideration. H.R. 2259 achieves this end, effectively 
limiting development and providing the watershed with the protection it 
deserves. Furthermore, we recognize and support your bill's provision 
to preserve recreation access.
    Thank you for your efforts on behalf of the clean water, clean air, 
abundant wildlife and spectacular recreation in the North Fork 
watershed.
            Best regards,
        Brady Robinson, 
        Executive Director, 
        Access Fund.                  Michael Van Abel, 
                                      Executive Director, 
                                      International Mountain Bicycling 
                                      Association.
        Wade Blackwood, 
        Executive Director, 
        American Canoe Association.   Mark Menlove, 
                                      Executive Director, 
                                      Winter Wildlands Alliance.
        Mark Singleton, 
        Executive Director, 
        American Whitewater.          Adam Cramer, 
                                      Policy Architect, 
                                      Outdoor Alliance.
                                 ______
                                 
       Letter Submitted for the Record by The Nature Conservancy
                                32 S. Ewing Street,
                                           Helena, MT 59601
TO: House Committee on Natural Resources, Subcommittee on Public Lands 
        and Environmental Regulation.
    Dear members of the committee,

    The Nature Conservancy wishes to go on record in favor of H.R. 
2259: the North Fork Watershed Protection Act of 2013.
    At a time when so many issues seem to divide upon partisan lines, 
the North Fork Watershed Protection Act is a shining example of 
bipartisan cooperation to ensure clean water for many generations to 
come. The North Fork of the Flathead River isn't just a sparkling 
natural treasure; it is the lifeblood of a huge segment of northwestern 
Montana's economy. Flathead Lake, alone, brings millions of dollars a 
year to Montana's tourism economy. People from across the United States 
and around the world fish the pristine waters, float the rapids, and 
are refreshed and renewed simply watching its calming flow. People 
count on it for clean drinking water for many miles downstream.
    Americans have demonstrated their commitment by supporting 
protection of this precious waterway. This act ensures that the 
investment the public has already made in the river will endure for 
generations.
    We applaud the bipartisan supporters of this legislation for 
recognizing the importance of preserving the clean water and 
opportunities for recreation that the North Fork provides, not simply 
today, but as a legacy we are leaving to the generations to come.
    We also thank Congressman Daines for sponsoring this legislation, 
and we look forward to working with him on other common sense 
conservation solutions down the road.
            Respectfully,
                                               Richard Jeo,
                                                    State Director.
                                 ______
                                 
              Prepared Statement of The Wilderness Society

         H.R. 2259--North Fork Watershed Protection Act of 2013

    The Wilderness Society (TWS), representing over 600,000 members and 
supporters from across the United States, would like to go on the 
record as enthusiastically supporting H.R. 2259, the ``North Fork 
Watershed Protection Act of 2013'' introduced by Congressman Steve 
Daines of Montana. Glacier National Park, as well as many of the 
national forest lands addressed in this bill, are of national 
significance and H.R. 2259's passage would benefit many Americans from 
all walks of life as well as future generations. In addition, passage 
of this bill ensures that the United States ``acts by example'' and 
fully engages in the coordinated, partnership approach requested by the 
province of British Columbia when they agreed in 2011 to take action to 
protect the Canadian side of the North Fork Flathead from coal, oil and 
gas, and mining development.
    Also important is that this bill has almost no active opposition, 
as to our knowledge, no organized group, relevant elected official, 
Montana newspaper, or affected constituency has spoken out against H.R. 
2259 or its Senate companion legislation, S. 233 (introduced by 
Senators Baucus and Tester, and which The Wilderness Society also 
enthusiastically supports). Instead, over the past several years there 
has been an impressive outpouring of diverse and formal support from 
local businesses, civic groups, Chambers of Commerce, City Councils, 
sportsmen and conservation groups, and others. From the Montana Logging 
Association and Citizens for Balanced Use to the North Fork Landowners 
Association and Glacier Raft Company, divergent interests have come 
together behind this bill.
    This bill will help protect the recreation and natural assets that 
support the growing local and regional economy in this part of the 
State. Consider that in a 4/5/2010 letter to the Montana delegation, 
the Kalispell Chamber of Commerce praised this legislation (the Senate 
version) as ``being good for business'' further stating, ``The Chamber 
wishes to ensure that Glacier Park, the North Fork River Valley, and 
Flathead Lake remain as economically productive as they are today. We 
think that oil and gas development in the Whitefish Range would be 
inconsistent with our interest to see the entire watershed protected 
from upstream (Canadian) pollution.''
    Though only a single page in length, this bill is nonetheless 
significant in two notable ways. First, it provides an important 
example of bipartisan cooperation, as it represents the first Montana 
focused public lands bill in decades where the entire State's 
delegation, regardless of party, has ``been in agreement and working to 
do the right thing for Montanans,'' as Congressman Daines put it when 
he introduced H.R. 2259. Second, it is worth noting that major players 
in the oil and gas industry have already made important business 
decisions regarding protection of the North Fork Flathead watershed 
based on support for and assumed passage of this legislation. During 
2011-2012, Conoco Phillips, Chevron, and Exxon Mobil subsidiary XTO 
Energy all voluntary agreed to relinquish their valid leases in the 
watershed, covering an area of almost 200,000 acres.
    Indeed, over the past 8 years, Congress has passed similar Federal 
legislation withdrawing sensitive national forest and/or BLM lands from 
new oil and gas leasing, mineral entry, and other forms of energy 
development for several other places. This includes 2005 bi-partisan 
legislation that withdrew the Valle Vidal area in northern New Mexico, 
2006 legislation for Montana's Rocky Mountain Front that was first 
introduced by then Senator Burns (R) but then moved by Senator Baucus 
(D), and most recently legislation introduced in 2008 (passed in 2009) 
by Republican Senator Barrasso of Wyoming (co-sponsored by Senator 
Enzi) that withdrew 1.2 million acres of national forest in the Wyoming 
Range.
    TWS enthusiastically supports H.R. 2259 and sincerely thanks 
Congressman Daines for his dedication to protecting his nationally 
important watershed next to Glacier National Park and in the heart of 
the nationally significant Crown of the Continent Ecosystem. We equally 
thank the Congressman and Montana's two Senators for their combined 
leadership and effective coordination on this important matter. We urge 
swift passage of the North Fork Flathead Watershed Protection Act as it 
will serve Montana and the Nation well for decades to come.
                                 ______
                                 
    Mr. Daines. The first stakeholders, including the Montana 
Logging Association, the Citizens for Balanced Use, a multiple-
use organization, the North Fork Landowners Association, the 
Glacier Raft Company, Trout Unlimited, Ducks Unlimited, 
ConocoPhillips, XTO Energy, Chevron, and the Wilderness 
Society, they are all supporting this bill. In fact, we cannot 
list a single group that has organized opposition to this bill. 
I can say this: That list of supporters does not often agree on 
much, but we agree on this.
    In addition to protecting our way of life and supporting 
the local community in the Flathead Valley, H.R. 2259 upholds 
an international agreement we have already made with Canada. In 
February 2010, the province of British Columbia and the State 
of Montana signed an MOU to preclude mineral extraction along 
the Flathead.
    British Columbia completed prohibition of mineral 
development along the Flathead River in 2011. H.R. 2259 is 
necessary to uphold the United States' end of that bargain.
    Mr. Chairman, I am happy my colleagues can learn about the 
importance of this legislation today. I urge support of this 
legislation. I look forward to working together to get it 
passed.
    Mr. Bishop. Thank you.
    Now, Mr. McClintock, you may be last, but you are certainly 
not least in this pantheon of bills that we have. I would like 
to recognize you for your bill, 3888, that deals with salvage 
timber.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. M<SUP>c</SUP>Clintock. Thank you, Mr. Chairman. I want 
to thank you for holding this hearing today and for the speedy 
consideration of H.R. 3188.
    It is estimated that up to 1 billion board feet of fire-
killed timber can still be salvaged out of the forests that 
have been devastated by the Yosemite Rim Fire, but it requires 
immediate action. As time passes, the value of this dead timber 
declines, until after a year or so it becomes unsalvageable.
    The Reading Fire in Lassen occurred more than 1 year ago. 
The Forest Service has just gotten around to selling the 
salvage rights last month. In the year that the Forest Service 
has taken to plow through the endless environmental reviews, 
all of the trees under 18 inches in diameter, which is most of 
them, have become worthless. After a year's delay for 
bureaucratic paperwork, extreme environmental groups will often 
file suits to run out the clock, and the Ninth Circuit Court of 
Appeals has become infamous for blocking salvage operations.
    We have no time to waste in the aftermath of the Yosemite 
Rim Fire, which destroyed more than 400 square miles of forest 
in the Stanislaus National Forest and the Yosemite National 
Park. It is the largest fire ever recorded in the Sierra Nevada 
mountains.
    The situation is particularly urgent because of the early 
infestation of bark beetles, which have already been observed 
attacking the dead trees. As they do so, the commercial value 
of those trees drops by half.
    Four hundred miles of roads are now in jeopardy. If nearby 
trees are not removed before winter, we can expect dead trees 
to begin toppling, risking lives and closing access. Although 
the Forest Service has expedited a salvage sale on road and 
utility rights-of-way as part of the immediate emergency 
measures, current law otherwise only allows a categorical 
exemption for just 250 acres. That is enough to protect just 10 
miles of road.
    Now, earlier today we heard the Ranking Member Mr. DeFazio 
say that the sequester is delaying the U.S.--or pardon me, the 
shutdown is delaying the U.S. Forest Service review of salvage. 
What he didn't explain was that process takes a year or more, 
and by the time the normal environmental review of salvage 
operations has been completed, a year from now, what was once 
forestland will have already begun converting to brushland, and 
by the following year reforestation will become infinitely more 
difficult and expensive, especially if access has been lost due 
to the impassability of roads. By that time only the very 
biggest of the trees will still be salvageable.
    Within 2 years, 5 to 8 feet of brush will have built up, 
and the big trees will begin toppling on this tinder. You 
couldn't possibly build a more perfect fire than that: dry 
tinder at the bottom and large, dry logs at top.
    If we want to stop the conversion of this forestland to 
brushland, the dead timber has to come out. If we take it out 
now, we can actually sell salvage rights, providing revenue to 
the Treasury that could then be used for reforestation. If we 
go through the normal environmental reviews and litigation, the 
timber will be worthless, and instead of someone paying us to 
remove the timber, we will have to pay someone else to do so. 
The price tag for that will be breathtaking. We will then have 
to remove the accumulated brush to give seedlings a chance to 
survive, again, another very expensive proposition.
    This legislation simply waives the environmental review 
process for salvage operations on land where the environment 
has already been incinerated, and allows the government to be 
paid for the removal of already dead timber rather than having 
the government pay somebody else.
    There is a radical body of opinion that says, well, just 
leave it alone, and the forest will grow back. Well, indeed it 
will, but certainly not in our lifetimes. Nature gives brush 
first claim to the land, and it will be decades before the 
forest is able to fight its way back to reclaim that land.
    This measure has bipartisan precedent. It is the same 
approach as offered by Democratic Senator Tom Daschle a few 
years ago to salvage beetle-killed timber in the Black Hills 
National Forest.
    Finally, salvaging this timber would also throw an economic 
lifeline to communities that have already been devastated by 
this fire, as local mills could be brought to full employment 
for the first time in many years.
    Time is not our friend. We can act now and restore the 
forest, or we can dawdle until restoration becomes cost 
prohibitive.
    Thank you, and I yield back.
    Mr. Bishop. Thank you.
    I appreciate the Members who are here and those who are not 
here for presenting the bills before us.
    We are now going to turn to the second panel, which is some 
of the expert testimony. I would invite Bill Neikirk, who will 
talk about the Mill Springs Battlefield--from the Mill Springs 
Battlefield Association to come up to the microphones; Morris 
Vogel, who is the President of the Lower East Side Tenement 
Museum. I was going to say, we have two good German names 
there, but then we come up with Pedro Segarra, who is the Mayor 
of the city of Hartford. And you changed the pattern right 
there. Also invite John Anderson, who is a Councilman from 
White Fish, Montana; and Tom Partin, who is the President of 
the American Forest Resource Council. If they would join us at 
the panel to give testimony on individual bills.
    What we will do is go bill by bill and, after each 
presentation, ask if there are questions pertaining to that 
particular piece of legislation.
    So we will start with--and I will urge all of you, because 
we would like to be done fairly soon here, you have 5 minutes 
to make your presentations. We appreciate your time and effort 
to come here to do that. I want you to use the time wisely, but 
once the 5 minutes are up, we want you to stop at that time, 
and then we will open up for questions afterwards.
    If you have not been here before, your written testimony is 
already part of the record. This should be additional oral 
testimony to that. And you will have the time clock in front of 
you, which will start timing down. If you see the yellow light 
come on, that means you have 1 minute left. Please stop when it 
goes red again.
    So we will first turn to Mr. Neikirk from the Mill Springs 
Battlefield Association. If you would give testimony on House 
bill 298. Mr. Neikirk.

    STATEMENT OF WILLIAM R. NEIKIRK, FOUNDER, MILL SPRINGS 
                    BATTLEFIELD ASSOCIATION

    Mr. Neikirk. Thank you, sir. I appreciate this opportunity 
to be here before the committee today. The Mill Springs 
Battlefield is a national historic landmark. It is located on 
both sides of Lake Cumberland in Pulaski and Wayne Counties, 
Kentucky. Mill Springs Battlefield Association is a 501(c)(3) 
nonprofit corporation which was founded in 1992 by me and 20 
other concerned individuals for the purpose of preserving, 
protecting, maintaining and interpreting the Mill Springs 
Battlefield.
    The significance of the Mill Springs Battlefield 
nationally, the Mill Springs battle was fought on January 19, 
1862. It resulted in a decisive Union victory that ultimately 
drove the Confederates from Kentucky and enabled the Federal 
advance into Middle Tennessee in February 1862. The defeat of 
the Confederates at this battle helped secure Kentucky for the 
Union, a vital achievement, and was the first major Union 
victory of the war, following the disastrous defeat at First 
Manassas on July 21, 1861.
    The defeat of Confederate General Felix K. Zollicoffer, who 
died during this battle, was the first of many victories for 
Union General George H. Thomas, who, at the end of the war, was 
the third highest-ranking Union general.
    In 1992, the National Park Service identified Mill Springs 
Battlefield as one of the 25 most endangered battlefields. 
Under the guidance of the American Battlefield Protection 
Program, the protected areas of the battlefield have been able 
to grow from \1/2\ acre to over 600 acres. To be on this list, 
the battle outcome had to have a significant outcome on the war 
itself, the land had not changed since the war, and it was in 
danger of being developed. The National Park Service American 
Battlefield Protection Program again this year in August 2013 
put Mill Springs on that most endangered battlefield list as a 
category 1.
    Today the Mill Springs Battlefield Association is comprised 
of a 15-member board of directors whose purpose is to preserve 
and interpret the battlefield for future generations of 
Americans. The board owns and administers over 600 acres of the 
battlefield land, along with a 10,000-square-foot visitor 
center built in 2006, which is located adjacent to the Mill 
Springs National Cemetery.
    Our proposal--in recognition of the National Park Service's 
ability and expertise in generating tourism is asking this 
committee to support Congressman Hal Rogers' House bill 298, 
which directs the Secretary of the Interior to conduct a 
special resource study to evaluate the significance of the Mill 
Springs Battlefield and the feasibility of its addition into 
the National Park Service as part of the Cumberland Gap 
National Park. Why Cumberland Gap? The same troops that fought 
at Mill Springs fought at the Battle of Cumberland Gap 1 month 
before that.
    Mill Springs is unique in that we are not asking the Park 
Service to take over undeveloped battlefield land. In contrast, 
we are offering the National Park Service 600 acres with miles 
of well-kept interpretive trails, a marked driving tour, a 
visitors center museum.
    MSBA has spent over $12 million to preserve and interpret 
the battlefield for future generations. The Mill Springs 
Battlefield Association will continue as a fringe group in 
support of the battlefield. Our dedication to preserve and 
protect the battlefield will not change when this becomes a 
national park. Thank you all.
    [The prepared statement of Mr. Neikirk follows:]
    Prepared Statement of William R. Neikirk, Founder, Mill Springs 
                        Battlefield Association

                                H.R. 298

                              introduction
    The Mill Springs Battlefield, a National Historic Landmark, is 
located on both sides of Lake Cumberland in Pulaski and Wayne counties, 
Kentucky. The Mill Springs Battlefield Association, a 501(c)3 non-
profit corporation was founded in 1992 by Association President William 
R. Neikirk and 20 other concerned individuals for the purpose of 
preserving, protecting, maintaining and interpreting the Mill Springs 
Battlefield.
        significance of the mill springs battlefield, nationally
    The Battle of Mill Springs, fought on January 19, 1862, resulted in 
a decisive Union victory that ultimately drove the Confederates from 
Kentucky and enabled the Federal advance into Middle Tennessee in 
February 1862.
    The defeat of the Confederates at this battle helped secure 
Kentucky for the Union, a vital achievement, and was the first major 
Union victory of the war following the disastrous defeat at First 
Manassas on July 21, 1861. The defeat of Confederate Brigadier General 
Felix K. Zollicoffer, who died during the battle, was a first of many 
victories for Union General George H. Thomas.
    In 1992, the National Park Service identified Mill Springs 
Battlefield as one of the 25 most endangered battlefields. Under the 
guidance of the American Battlefield Protection Program (ABPP), the 
protected area of the battlefield has been able to grow from \1/2\ acre 
to over 600 acres.
    The National Park Service American Battlefield Protection Program 
published a Draft update to the Civil War Sites Advisory Commission on 
the Nation's Civil War Battlefields, August 2013. The report states the 
Mill Springs Battlefield of Kentucky condition as ``portions altered, 
most essential features remain. Previous CWSAC priority 1, new priority 
1.'' (See NPS publication Civil War Battlefields Update, August 2013).
                     mill springs battlefield today
    Today the Mill Springs Battlefield Association is comprised of a 
15-member board of directors, whose main purpose is to preserve and 
interpret the battlefield for future generations of Americans. The 
board owns and administers over 600 acres of battlefield land, along 
with a 10,000 square foot visitor's center built in 2006, which is 
located adjacent to the Mill Springs National Cemetery.
                                proposal
    The Mill Springs Battlefield Association, in recognition of the 
National Park Service's ability and expertise to generate tourism, is 
asking this committee to support Congressman Harold Rogers' H.R. 298, 
which would direct the Secretary of the Interior to conduct a special 
resource study to evaluate the significance of the Mill Springs 
Battlefield located in Pulaski and Wayne Counties, Kentucky, and the 
feasibility of its addition to the National Park System as part of the 
Cumberland Gap National Park.
    MSBA is unique in that we are not asking the Park Service to take 
over undeveloped battlefield land. In contrast, we are offering the NPS 
600 acres with miles of well-kept interpretive trails, a marked driving 
tour, and a visitor's center/museum. MSBA has spent $12 million to 
preserve and interpret the battlefield for future generations. The Mill 
Springs Battlefield Association will continue as a ``friends group'' in 
support of the battlefield. Our dedication to preserving and protecting 
the battlefield will not change when this becomes a National Park.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate your testimony and 
explanation of the bill, which is about authorizing a study of 
this area.
    Do any of the Members have questions on this particular 
piece of legislation? If not, I thank you so much. You are 
welcome to stay there as long as you want to, but if you need 
to return back or anything, you are free to do that.
    We will turn now to Mr. Vogel, talking about the Lower East 
Side Tenement Museum. Welcome. Happy to have you here. Same 
rules. You have 5 minutes to present the testimony about this 
particular act.

   STATEMENT OF MORRIS J. VOGEL, PRESIDENT, LOWER EAST SIDE 
                        TENEMENT MUSEUM

    Mr. Vogel. Thank you, Mr. Chairman and members of the 
committee, for allowing me to speak on behalf of H.R. 1846. 
This legislation would expand the boundaries of our current 
National Park Service-affiliated site to include a recently 
purchased building two doors away.
    It is my privilege to serve as President of the Tenement 
Museum, which since 1988 has been presenting the stories of 
immigrants who brought their dreams to the United States, made 
their homes on New York's Lower East Side, built lives, 
established families, earned livelihoods, and lived the 
struggles common to many newcomers in difficult settings.
    In the case of the immigrants' whose lives we present to 
200,000 visitors a year, that setting was an 1863 tenement at 
97 Orchard Street purpose built to house the poor when that 
neighborhood, Mr. Chairman, was Kleine Deutschland, the largest 
concentration of German speakers in the history of this 
country.
    They lived in 325-square-foot apartments, as many as 8 or 
10 or 12 to a 3-room home, without indoor toilets, without 
heat, water or utilities. Seven thousand people lived in that 
building before the city of New York condemned it as unfit for 
human occupancy in 1935.
    The museum uses that tenement to tell the stories of 
immigrants from Ireland and Italy, Poland and Greece, Austria, 
Russia, Germany and Lithuania. We use it to help visitors who 
come from across the United States and around the world 
understand how this Nation evolved, how people of many 
different backgrounds became the American people.
    Their children and grandchildren have moved out of the 
neighborhood for the most part. Their descendants have 
continued to play vital roles in shaping our common destiny.
    Earlier this week I visited the 9/11 memorial, our neighbor 
in downtown New York. There, among the nearly 3,000 names 
etched into the footprints of the towers, I found Frank 
Reisman, the great-great-grandson of Nathalie Gumpertz, who, as 
a single mother born in East Prussia, raised three children at 
97 Orchard Street. Even more meaningfully, I found among those 
names individuals from more than 90 nations, who, like our 
tenement residents, brought their dreams to this land of 
promise.
    So many of those names identify individuals who joined our 
common destiny from the new immigrant waves of recent decades; 
from China, the Caribbean, Africa, Central America, South Asia. 
The museum can't tell their stories at 97 Orchard Street 
because that building closed before those immigrant waves 
arrived.
    Our recently acquired building at 103 Orchard Street, which 
dates from 1888 and escaped condemnation because it met the 
city's evolving life and safety standards, will allow us to 
broaden the story we tell. We began documenting Puerto Rican 
and Chinese families who lived in the building. We will be 
using the facts of their lives in the homes in which they 
actually lived to provide an account of the largest Puerto 
Rican community on the American mainland and the largest 
Chinatown in the Western Hemisphere.
    We have documented in that building as well a family of 
Holocaust survivors allowed into the United States under this 
country's very first Refugee Act.
    Taken individually, those stories will allow us to respond 
to the Park Service's injunction to tell America's untold 
stories. Taken together, which is how we will present them, 
those stories tell about the people we have become.
    I welcome your support to recognize the property that will 
let us undertake this historical presentation as an affiliated 
site of the National Park Service.
    Thank you, Mr. Chairman and members of the committee, for 
your time.
    Mr. Bishop. Thank you.
    [The prepared statement of Mr. Vogel follows:]
   Prepared Statement of Morris J. Vogel, President, Lower East Side 
                            Tenement Museum

                               H.R. 1846

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today on behalf of H.R. 1846, the 
Lower East Side Tenement National Historic Site Amendments Act.
    The Lower East Side Tenement Museum was founded in 1988; for 25 
years now it has preserved and interpreted the history of immigration 
through the personal experiences of the generations of newcomers who 
settled in and built lives on Manhattan's Lower East Side, America's 
iconic immigrant neighborhood. The Museum forges emotional connections 
between visitors and immigrants past and present through tours of its 
historic building at 97 Orchard Street, which was declared a National 
Historic Landmark in 1994. The historic site became an affiliated site 
of the National Park System (NPS) in 1998 in Pub. L. 105-378 and is 
part of the National Parks of New York Harbor, which includes the 
Statue of Liberty, Ellis Island, and Castle Clinton.
    The Museum now serves 200,000 visitors per year, including 40,000 
school children. Visitors explore recreated apartments and hear the 
stories of real families from over 20 nations who lived in the building 
from 1863 until 1935, when the city of New York condemned the building 
as unfit for human occupancy. The Museum has transformed this everyday 
tenement into a National Historic Site, its worn hallways and tired 
homes a monument to how imaginative historic preservation can summon 
the ghosts of the past to explain America's most cherished ideals. The 
Museum helps visitors explore how the tenement's immigrant residents 
worked, raised families, kept house, built communities, accommodated to 
America's promise, and built this wonderful country.
    The Museum purchased 103 Orchard Street, an 1888 tenement building, 
in 2007 and renovated its lower floors as a visitor and education 
center. Unlike the Museum's first historic structure, 103 Orchard 
Street did not close to residents in mid-century, and so provided homes 
to more recent immigrant waves. The Museum is now developing an exhibit 
to present stories of Jewish Holocaust survivors, post-1965 Chinese 
families, and 1950s Puerto Rican migrants. Together, these will extend 
the Museum's immersive historic interpretations beyond 1935, where they 
now end, into the present.
    This project is a direct response to former NPS Director Jon 
Jarvis's ``Call to Action'' to tell America's untold stories. The 
exhibit would be the first at a National Park Service site to interpret 
the history of Holocaust survivors rebuilding lives in America. It 
would also be one of the few telling the stories of Puerto Rican 
migrants to the mainland and post-1965 Chinese immigrants. The 
interpretation differs from ethnic museums in that it presents the 
larger narrative of how Americans came to be the people they are today; 
in presenting these three distinct cultural narratives side by side for 
the first time, the Museum will provide a powerful lens on how 
Americans moved beyond the race-based immigration quota laws of the 
1920s. The new exhibit will provide the setting for a powerful 
narrative reflecting the experiences of contemporary Americans in the 
diverse communities that now constitute much of the Nation.
    House bill 1846 expands the boundaries of the National Park Service 
affiliated site at 97 Orchard Street to include this newer tenement 
building. Including 103 Orchard Street is a direct response to the 
Department of the Interior's 2006 General Management Plan for the site, 
which recognized the need for visitor orientation, administrative 
facilities, and additional exhibit space. It determined that any 
boundary adjustment include significant features related to the primary 
purpose of the site, address operational issues including access, or 
protect resources critical to the site's mission. It also required 
legislation to adjust the site's boundaries.
    These new exhibits are directly related to the Museum's mission and 
allow visitors to see how immigration has continued to evolve into the 
present. We estimate the expansion would allow it to accommodate 50,000 
additional visitors annually, including 12,000 school students. 
Furthermore, these exhibits will be fully ADA accessible which the 
majority of the original exhibits are not.
    This legislation will secure a partnership between the new space 
and the National Parks of New York Harbor. NPS would be able to assist 
this site with education workshops, tours for New York City school 
children, and exhibition construction and preservation, just as it has 
done at the original site. This designation would help preserve 
America's iconic immigrant neighborhood. It is critical to provide the 
Tenement Museum with the resources it needs to continue to educate our 
children and tell the important stories of our past immigrant 
experience. The immigration story is America's story; New York's Lower 
East Side has been a portal to freedom for countless generations of new 
Americans.
    The Lower East Side Tenement Museum has worked for 25 years to 
enhance appreciation for the profound role immigration has played and 
continues to play in shaping this country. Today we ask that you 
support H.R. 1846 and expand the affiliated site boundaries to include 
this second historic building and help ensure the Tenement Museum's 
success for years to come.
                                 ______
                                 
    Mr. Bishop. I appreciate your testimony and coming here 
today. You actually had me on Kleine Deutschland when you got 
to that point there.
    Are there any other questions on this particular piece of 
legislation? If not, once again, we thank you for the 
testimony. Thank you for explaining it. We appreciate your 
attendance here with us today.
    Mr. Vogel. Thank you.
    Mr. Bishop. Let me turn to the mayor. We welcome you again.
    Mr. Segarra. Thank you.
    Mr. Bishop. As I said, you had German names, German names, 
and then you broke the pattern right here. But we thank you. We 
turn to you for testimony on H.R. 1259. And same rules. I 
appreciate it. You are recognized.

    STATEMENT OF PEDRO E. SEGARRA, MAYOR, CITY OF HARTFORD, 
                          CONNECTICUT

    Mr. Segarra. Thank you, Chairman Bishop. And it is indeed a 
pleasure to be here again to speak in support of House bill 
1259. Thank you, Ranking Member Mr. Grijalva and other members 
of the committee.
    It is a pleasure to be here on behalf of the city of 
Hartford in support of House bill 1259, the designation of the 
Coltsville Historic District as a national park. I want to 
thank Congressman John Larson and Senators Blumenthal and 
Murphy for their tireless support of this critical and 
important initiative.
    This effort, which also has the broad support of the city's 
business community, institutions and organizations, is critical 
to the revitalization of Connecticut's capital city and will 
become a centerpiece of the city's effort to increase its focus 
on heritage tourism. It would also stand as a model for future 
innovation.
    The Colt manufacturing facility and surrounding structures 
played a critical, if not essential, role in the national 
defense, defining the direction of the United States during a 
time of great exploration and innovation. It not only changed 
the face of national and international business and commerce, 
but also enhanced and further promoted the spirit of American 
business ingenuity and the role in the local community.
    It is symbolic that we are now again presented with a 
monumental decision that, if approved, will help to shape and 
encourage an ongoing renaissance in the city of Hartford and 
further promote the historic and necessary investment that 
Governor Dannel Malloy has made to restore funding designed to 
promote Connecticut's culture and tourism destinations.
    The city of Hartford, the State of Connecticut and 
collaborative and associated public and private entities are 
deeply invested in the Coltsville neighborhood. The city has 
already rebuilt two schools and improved housing stock in the 
immediate area, and has committed almost $3 million in matching 
funds to improve the surrounding streets in ways that will 
redefine space, improve visuals, increase safety, and enhance 
the overall vibrancy of the area.
    We also stand ready to assist with other developments and 
elements in the greater scope and definition as we add this to 
America's first and arguably the most preeminent industrial 
zone.
    A commitment has also been made by Riverfront Recapture and 
the Capital Region Education Council to preserve and maintain 
and manage their properties in accordance with the National 
Park Service and Historic Preservation Guide.
    A national park at Coltsville will only require the Park 
Service to manage only 10,000 square feet designated in the 
East Armory. All other areas will be interpreted externally, or 
an agreement with the National Park Service will be established 
during the evaluation period. In other words, if anything shuts 
down, Congressman Bishop, we can manage this on our own.
    It is important to briefly recognize the number of jobs 
this effort will create and the overall impact to the economy. 
Not only will the trades benefit through an intense 
construction effort, but long-term job growth across the region 
and in the entire job spectrum. Not only does it benefit the 
leisure and hospitality sector, but also those critical 
indirect and secondary job markets.
    So far, with the investments we have made, 1,000 jobs have 
been added, and an additional $175 million has been brought to 
the local economy. If we get the designation, we estimate that 
an additional 1,000 jobs and an additional $150 million will 
come to the local economy.
    I couldn't finish also without mentioning to you that it is 
the home of vintage baseball. Congressman Larson wanted, and I 
also want, to extend an invitation to you and members of the 
committee to come see vintage baseball. It is civility at its 
best in sportsmanship.
    I want to thank you for your consideration as we move 
forward with this resolution not only because its recognition 
is past due, but because of many of the positive outcomes that 
will come from recognizing Coltsville as a national park.
    [The prepared statement of Mr. Segarra follows:]
   Prepared Statement of Pedro E. Segarra, Mayor, City of Hartford, 
                              Connecticut

           H.R. 1259--Coltsville National Historical Park Act

    Distinguished members of the committee,
    On behalf of the city of Hartford, I appear before you today in 
support of H.R. 1259, the designation of the Coltsville Historic 
District as a National Park. I want to thank Congressman John Larson 
and Senators Lieberman and Blumenthal for their tireless support of 
this critical and important initiative. This effort, which also has the 
broad support of the city's business community, institutions, and 
organizations, is critical to the revitalization of Connecticut's 
Capital City, and will become a centerpiece of the city's effort to 
increase its focus on heritage tourism. It will also stand as model for 
future innovation.
    The Colt Manufacturing facility, and surrounding structures, played 
a critical--if not essential--role in our national defense, defining 
the direction of the United States during a time of great exploration 
and innovation. It not only changed the face of national and 
international business and commerce, but also enhanced and further 
promoted the spirit of American business ingenuity, and its role in 
local community. It is symbolic that we are now again presented with a 
monumental decision that, if approved, will help to shape and encourage 
an on-going renaissance in the city of Hartford and further promote the 
historic and necessary investment that Governor Dannel Malloy has made 
to restore funding designed to promote Connecticut's culture and 
tourism destinations.
    The city of Hartford, State of Connecticut, and the collaborative 
of associated public and private entities, is deeply invested in the 
Coltsville neighborhood. The city has already rebuilt two schools and 
improved housing stock in the immediate area, and has committed almost 
$3 million in matching funds to improve surrounding streets in ways 
that will redefine space, improve visuals, increase safety and enhance 
the overall vibrancy of the area. We also stand ready to assist with 
other elements as greater scope and definition are added to the 
revitalization of one of America's first, and arguably most preeminent, 
industrial zones. A commitment has also been made by local businesses, 
property owners, and managers, such as the Colt Gateway, Riverfront 
Recapture and the Capitol Region Education Council, to preserve, 
maintain and manage their properties in accordance with the National 
Park Service and Historic Preservation Guide. A National Park at 
Coltsville will only require the Park Service to manage the 10,000 
square feet designated in the East Armory. All other areas will be 
interpreted externally or an agreement with the National Parks Service 
will be established during the evaluation period outlined in the 
legislation.
    It is important to briefly recognize the number of jobs this effort 
will create and the overall impact to the economy. Not only will the 
trades benefit through an intense construction effort, but long term 
job growth for the region across the entire job spectrum; not only in 
direct benefits to the leisure and hospitality sector, but also those 
critical indirect and secondary job markets that will be added and 
supported as well. With an intense focus and commitment in these areas, 
the region has already seen over 1,000 new jobs created and the 
infusion of $175 million into the regional economy. This designation, 
critical to the further restoration of Colt Manufacturing, has been 
independently estimated to generate an additional $150 million for the 
regional economy and create 1,000 additional jobs over the next 5 
years. If no further development occurs, it will only yield $30 million 
and 229 jobs.
    I thank you for your time and consideration and do hope that you 
will move this resolution forward, not only because this recognition is 
long past due, but because of the many positive outcomes that will no 
doubt result from Coltsville being designated as a National Park.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate you, Mr. Mayor, for 
being here again.
    Are there any questions for this particular witness?
    Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman.
    Mr. Segarra, I want to commend you and Mr. Larson and the 
others for preparing a good piece of legislation. I think this 
will work well. I certainly appreciate the benefits that 
heritage tourism and recreation bring to a community and to an 
entire region. We certainly see that in New Jersey.
    And one of the things I like about the Coltsville 
presentation is it complements and in no way detracts from the 
Paterson Great Falls National Historical Park, the site of the 
beginning of the industrial revolution in America, and the site 
of the invention of the Colt revolver, and the first place 
where interchangeable-part manufacturing was undertaken, which 
was then developed so highly at Coltsville.
    In fact, just for the record, it was March 1836 that Samuel 
Colt started the Patent Arms Manufacturing Company in Paterson, 
New Jersey, and production of the pocket model Paterson 
revolver began in 1837. And in 1848, Colt started the Colt's 
Patent Firearms Manufacturing Company in Hartford; in other 
words, a dozen years later.
    So I think they complement each other well, and I commend 
you for putting together a good proposal.
    Mr. Segarra. Thank you.
    Mr. Bishop. Thank you.
    Any other questions?
    Then we have--Mr. LaMalfa. Go ahead. Could I add one thing 
before you do that, Mr. LaMalfa? I appreciate it.
    And I also want to thank you for talking about the baseball 
field, because Paterson didn't include their ballpark in their 
park. They screwed it up.
    Mr. LaMalfa.
    Mr. Holt. We tried.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    I am excited to hear about this as well, as a longtime fan 
of Colt products here, the 1911 semiauto pistol, and AR-15, and 
going all the way back to the previous history in the 
beginning, the founding of America, and of the importance it 
was for the defending and taming of the West. It is a great 
history here, so I am excited that this is moving forward in 
Connecticut.
    And you did mention that only 10,000 square feet would be 
subject to the National Park Service, and the rest would be 
autonomous to the local area?
    Mr. Segarra. That is correct. We have made significant 
investments in restoring this park. We have built two schools. 
So the park is----
    Mr. LaMalfa. How close are the schools to the----
    Mr. Segarra. The schools are right within the region. It is 
over 300 acres, but the park that would be the national park is 
only 10,000 square feet. There is an armory portion to this, 
but there is also Armsmere, which is the old Colt mansion; and 
there is a park, which was basically the park for the workers. 
There is also housing, the Potsdam Cottages.
    So there are a lot of amenities within this district, but 
the National Park request that we are making is for the 10,000-
feet museum portion, which will represent the history of all 
these different assets.
    Mr. LaMalfa. So the rest of the park would not be subject 
to Park Service barricades and things like that? You would be 
able to control that yourself, right?
    Mr. Segarra. That is correct.
    And I also failed to mention that in addition to baseball, 
something very important happened right within the proximity of 
this land, and that is that the first written constitution, the 
Magna Carta, was drafted right there. So not only did we draft 
the first written constitution, we also developed there the 
means, the manufacturing means, to build us this great country. 
So I think asking for 10,000 square feet in return is a small 
thing to ask.
    Mr. LaMalfa. Great. Great. OK. I would be excited to visit 
that someday here, catch a baseball game and see the 
Constitution, and especially enjoy the Second Amendment aspects 
of that----
    Mr. Segarra. Absolutely.
    Mr. LaMalfa [continuing]. On the site there. So I think it 
is a great bill and will be happy to support it when it is 
time.
    Mr. Segarra. Thank you, sir.
    Mr. LaMalfa. Thank you.
    Mr. Bishop. Thank you very much. I appreciate it. Thank you 
for being here, Mr. Mayor.
    Mr. Segarra. Thank you.
    Mr. Bishop. We will now turn to John Anderson, the 
Councilman from White Fish, Montana, if you would like to talk 
about Mr. Daines' legislation.

 STATEMENT OF JOHN ANDERSON, CITY COUNCILOR, WHITEFISH, MONTANA

    Mr. Anderson. Thank you, Chairman Bishop, Ranking Member 
Grijalva, members of the subcommittee, and, of course, 
Congressman Daines. Thank you very much for inviting me to 
speak on this bill, H.R. 2259, the North Fork Watershed 
Protection Act.
    My name is John Anderson, and I am a City Councilor from 
White Fish, Montana. In White Fish, my wife and I are raising 
two young boys, and if all goes well, when I get done 
testifying here, I plan to spend the weekend hunting with my 
oldest boy. On Monday, he finished his hunter safety courses, 
so this will be his first trip, and we plan to hunt these same 
lands that are the subject of this bill. In addition to the 
deer and elk that we will be chasing, we hope to see moose, 
wolverines even, mountain goats, and with any luck we will run 
across a grizzly bear from a distance.
    One of the important aspects of these lands is, similar to 
my family, generations are able to enjoy the recreation there. 
It binds communities together, and it binds families together 
throughout Montana.
    An additional aspect of this bill is the continuation of 
existing recreational activities as well as natural resource 
management, such as livestock and forest management. And that 
is particularly important to me. Prior to going to law school 
at the University of Montana, I ran a logging company. I had 
little more than a chainsaw and a team of draft horses, and I 
made my living in the woods. And this bill allows this part of 
Montana to continue to enjoy its logging heritage.
    From my perspective this bill benefits the local economy as 
well as the local taxpayers. During the great recession, I was 
Chairman of the Board of the White Fish Chamber of Commerce, 
and I saw firsthand the difficulties of those times within my 
community. My friends lost their jobs, their businesses, many 
of them got divorced and suffered other tragedies.
    The city of White Fish itself experienced some very 
difficult budgetary times, but thanks to a mayor, city council 
and a talented city manager in Chuck Stearns, as well as his 
dedicated city staff, the city of White Fish was able to 
balance their budget, and we have not raised property tax rates 
in 4 years.
    As a local official, my focus, similar to Mayor Segarra's, 
I suspect, is the blocking and tackling of local government. We 
deal with fixing sewer lines, filling potholes and balancing 
the budget, and that, of course, is the most important thing we 
do in a local government.
    This bill helps us balance that budget. It protects our 
watershed, where we get our drinking water from. Our primary 
source of water is the mountain streams in Haskill Basin, which 
is just north of White Fish. We also draw from White Fish Lake, 
which is adjacent to our town and actually part of the city of 
White Fish. If these lands are subject to heavy extractive 
industries, our costs of treating that water will go up. We 
will find ourselves drawing more and more from the lake. And 
the cost of treating drinking water from that lake is about 
two-and-a-half times that of treating drinking water straight 
from those mountain streams.
    I hate to think about the decisions that we will have to 
make and the costs that we will have to pass on to our 
taxpayers should heavy mining and extractive industries take 
place there. As a matter of fact, on Monday on our council 
agenda is an item to consider the water usage fees. This is a 
very real issue, very pertinent and very timely to us in the 
local community of White Fish.
    That is why this bill makes sense. As Congressman Daines 
mentioned, it enjoys broad, diverse support. The industries, 
from the energy sector, such as ConocoPhillips and Chevron 
support it. The forest products industries supports it, Plum 
Creek and Stolze Lumber included. Stolze Lumber, as Congressman 
Daines mentioned, is one of Montana's oldest family owned 
lumber companies, a stone's throw away from these lands.
    Some of the other businesses that support this include the 
outfitters and guide services that have used these lands for 
decades, as well as the Glacier National Park concessionaire.
    I want to thank you for your time, and I would be happy to 
answer any questions that you might have.
    Mr. Bishop. Thank you.
    [The prepared statement of Mr. Anderson follows:]
Prepared Statement of John Anderson, City Councilor, Whitefish, Montana

        H.R. 2259--North Fork Watershed Protection Act of 2013.

    Chairman Hastings, Ranking Member DeFazio, members of the 
subcommittee, thank you very much for considering this important piece 
of legislation, H.R. 2259: The North Fork Watershed Protection Act of 
2013. My name is John Anderson. I am from Whitefish, Montana, where I 
am a city councilor and where my wife and I are raising two young boys.
    When I return to Montana after testifying today, I will spend the 
weekend hunting with my oldest son on the same lands that are the 
subject of this bill. It is his first hunting season, so this will be 
his first time hunting rather than merely accompanying me. We hope to 
see not only the deer and elk we will be stalking, but also moose, 
mountain goats, wolves, wolverines, black bears, grizzly bears, and 
bighorn sheep, all of which are found here in one of our Nation's most 
robust wildlife habitats. This bill will allow local hunters and 
anglers to enjoy these same lands that bind together not only my 
family, but also families and communities and throughout the State of 
Montana.
    This bill also provides for the continuation of recreational, 
livestock, and forest management activities currently allowed on these 
lands. This is particularly important both to me and to our local 
economy. Before attending law school, I owned a logging company and 
made my living with little more than a chainsaw and a team of draft 
horses. Thanks to this bill, the area's deep logging heritage can 
continue.
    From my perspective, this bill benefits not only the local economy, 
but also the local taxpayers. As Chairman of the Whitefish Chamber of 
Commerce during the Great Recession, I witnessed first hand the effects 
of unpredictability on the local economy. Many of my friends lost their 
houses, their businesses, and their sense of optimism. Some divorced 
and many suffered other personal tragedies. The city of Whitefish faced 
harsh budgetary prospects. Thanks to the mayor and city council, a 
talented city manager in Chuck Stearns, and a dedicated city staff, 
Whitefish passed balanced budgets and has not raised property tax rates 
for the last 4 years. We have been able to build reserves, stabilize 
services for our residents, and clear the path for continued success.
    As a local official, my focus is on the ``blocking and tackling'' 
of government. Our city council agendas are filled with issues such as 
repairing sewer lines, filling pot holes, and plowing snow. But perhaps 
the most basic job of local government is balancing the budget. H.R. 
2259 helps us do that. It protects a significant portion of our 
watershed, obtained directly from mountain streams in Haskill Basin 
that run through the lands that are preserved by this bill. If these 
lands are not safeguarded, and water quality in turn suffers, Whitefish 
will be faced with spending more money to treat water obtained from 
Whitefish Lake or other sources. Treating water from the lake costs 
nearly 2.5 times as much as treating water from the mountain streams. 
Fortunately, the land above Whitefish Lake is also protected by this 
bill. Should this land be mined or subject to heavy extraction 
activity, the local taxpayers may face rate and tax increases they can 
scarcely imagine.
    That is why this bill makes sense. It enjoys especially broad, 
local support. A varied cross section of industries, business groups, 
local governments, hunting and fishing organizations, conservation 
groups, and the State of Montana have publicized their support. 
Additionally, the entire Montana Congressional Delegation unanimously 
supports this bill.
    Industry supporters include energy companies such as ConocoPhillips 
and Chevron and forest product companies such as Plum Creek and Stolze 
Land and Lumber, the latter of which is headquartered in nearby 
Columbia Falls, Montana, and is one of the Nation's oldest family owned 
forest product companies. Our area's largest private employer, 
Kalispell Regional Medical Center, also supports this bill, as does our 
world-class ski resort, Whitefish Mountain Resort. Additionally, local 
chambers of commerce and numerous small businesses support this bill. 
The small businesses range from long-standing guide services that make 
their living on these lands to the concessionaire in Glacier National 
Park, which is adjacent to these lands. The area's largest tribal 
government, the Confederated Salish and Kootenai Tribes, also supports 
this bill, as do the cities of Whitefish and Kalispell as well as local 
county governments.
    In the U.S. Senate, this bill received unanimous support from the 
Senate Energy and Natural Resources Committee without any opposition. I 
ask that you also unanimously support passage of this bill.
    As I mentioned previously, the State of Montana supports this bill. 
On February 19, 2010, Montana and the Province of British Columbia 
signed a Memorandum of Understanding to preclude mining, oil and gas 
development, and coalbed methane extraction throughout the 
transboundary Flathead region on State and provincial lands in this 
area. Virtually the entire watershed in British Columbia is provincial 
property, and the Province of British Columbia has since legislated a 
mining ban on those lands. On the United States side of the border, 
some 90 percent of the North Fork watershed is federally owned. I now 
ask you to provide the same support to my community and my State as our 
neighbors to the north have received from their government.
    A significant benefit of this bill is that it protects private 
property rights. It does not affect current leases on these Federal 
lands. Section 3 explicitly provides that the withdrawal of Federal 
land is subject to existing rights. Several major energy companies, 
including ConocoPhillips, Chevron, Andarko, Pioneer, Allen, and Kirms, 
have voluntarily relinquished their existing leases on these lands. To 
date, approximately 80 percent of current leased acreage--more than 
180,000 acres--has already been returned to the Department of the 
Interior, free of charge to the American taxpayer.
    In closing, I again urge you to unanimously support passage of this 
important bill. Its importance to my local community is evidenced by 
its local support. This comes from the people themselves.
    That concludes my prepared remarks. Thank you for your attention 
and for inviting me to speak. I would be happy to answer any questions 
you may have.
                                 ______
                                 
    Mr. Bishop. Are there questions for this particular 
witness?
    Mr. Daines. I do, Mr. Chairman.
    Mr. Bishop. Mr. Daines, you are recognized.
    Mr. Daines. All right. Thank you.
    Mr. Anderson, thanks for being here. Congratulations to 
your 12-year-old son passing hunter safety. Good luck.
    Mr. Anderson. Thank you.
    Mr. Daines. I remember my first hunt in Montana, and it is 
something you never forget. So enjoy your time with your son 
this weekend.
    Given you are a representative of the city of White Fish, I 
would like to focus on how important this bill is to your 
community. To my knowledge, there are three streams in the 
withdrawal area, the first, second and third creeks that are 
part of that water supply and the watershed for the city of 
White Fish. I understand the city has also already had to shut 
off the third creek due to some street runoff pollution. If the 
water doesn't flow from these creeks, White Fish, as you 
mentioned in your testimony, must get its water from White Fish 
Lake, which is more expensive; is that correct?
    Mr. Anderson. That is correct.
    Mr. Daines. And I think you said it was two-and-a-half 
times more expensive to get it from the lake than from the 
streams.
    You also mentioned that if the water quality in the 
tributaries and the city water supply are not protected, the 
city is going to have to increase taxes, potentially. How would 
a tax increase affect Montana families and how might it impact 
the city and county coffers?
    Mr. Anderson. Well, speaking as somebody who lives there 
and would be directly affected by those taxes, I think it would 
without a doubt have a detrimental effect on our local economy. 
That money that we would like to go to private businesses would 
have to go to the city to pay for things like cleaning the 
water. I think that money is probably better spent in our 
community otherwise.
    Mr. Daines. You also mentioned, Mr. Anderson, how H.R. 2259 
is important to maintaining our hunting and our outdoor 
recreation heritage in Montana. Do you see H.R. 2259 harming 
those historic uses in the area in any way?
    Mr. Anderson. No, I do not. As a matter of fact, I think it 
helps to support those continued uses.
    Mr. Daines. Thanks.
    You also mentioned that private property rights are 
important to you. Some may wonder about the right to produce on 
the existing leases that have not yet been relinquished. Will 
H.R. 2259 harm private property rights or the ability for these 
energy companies to produce?
    Mr. Anderson. My understanding is this bill has no effect 
on existing private property rights.
    Mr. Daines. It is also my understanding that if this bill 
is marked up in committee, we are going to include an amendment 
to explicitly prohibit the bill's impact on the ability for 
that suspension to be lifted. A similar amendment was adopted 
in the markup of Senator Baucus' bill in the Senate Energy and 
Natural Resources Committee. So we will move that forward. And 
I plan on offering and including that amendment.
    Mr. Anderson. Good.
    Mr. Daines. I have no more questions, Mr. Chairman.
    Mr. Bishop. Thank you.
    Are there--Mr. Holt?
    Mr. Holt. Thank you.
    First of all, I want to commend the author of this bill and 
those who have worked on it, the councilor and others. I was 
beginning to despair that we would ever see legislation from 
the State that had the endorsement of industry and those who 
want to protect the environment over the long term and both 
parties. It is remarkable, but my question is am I correct that 
this has some urgency because of the agreement that has been 
reached upstream in Canada that gives the opportunity to 
actually protect this area?
    Mr. Anderson. Yes. That agreement is now over 3 years old, 
and most of the lands on the Canadian side of the border in 
this watershed are provincially owned. And Canada, or British 
Columbia specifically, has enacted legislation to fulfill its 
part of the MOU. But on the southern side of the boundary, 
roughly 90 percent of these lands are federally owned, and so 
that is why I am here today and so thankful that Congressman 
Daines and Senator Baucus and Tester have introduced this bill.
    Mr. Holt. Well, thank you. I am pleased to see this for a 
variety of reasons. And, again, I would like to commend my 
colleague Mr. Daines for his part in putting together a bill 
with such broad support.
    Mr. Daines. Thank you.
    Mr. Anderson. And also a very brief one, you will notice.
    Mr. Bishop. Thank you.
    Are there any other questions? If not, councilman, we 
appreciate you being here with us.
    We now turn to Mr. Partin of the American Forest Reserve 
Council to--I am sorry--American Forest Resource Council----
    Mr. Partin. Right.
    Mr. Bishop [continuing]. Makes a difference--to discuss 
H.R. 3188 with us. Sir, you are recognized.

 STATEMENT OF TOM PARTIN, PRESIDENT, AMERICAN FOREST RESOURCE 
                            COUNCIL

    Mr. Partin. Thank you. Good morning, Chairman Bishop, 
Ranking Member Grijalva and members of the subcommittee, and 
especially Mr. McClintock, for inviting me here today to speak 
on H.R. 3188. My name is Tom Partin. I am President of the 
American Forest Resource Council, and we are based in Portland, 
Oregon.
    I am here today, as I mentioned, to testify on H.R. 3188, a 
bill to expedite salvage and rehabilitation activities on lands 
inversely impacted by the 2013 Yosemite Rim Fire in California.
    The American Forest Resource Council represents the forest 
products industry in five Western States. We advocate for 
sustainable forest management on our public forests, which will 
help provide healthy forests, a vibrant forest products 
industry, and healthy rural communities and counties.
    Unfortunately, our Federal forests are far from being 
managed today in a sustainable manner. They are overcrowded, 
riddled with insects and disease, and, as we have just 
witnessed on the Yosemite Rim Fire, a tinderbox ready to 
explode and destroy a quarter of a million acres in timber.
    This committee has on several occasions discussed with the 
Forest Service and BLM what actions need to be taken to prevent 
those catastrophic wildfires, and I encourage and applaud you 
to keep prompting these agencies to better manage their lands 
and find a new path forward.
    I am not here today to further those discussions, rather I 
am here to promote H.R. 3188, as I mentioned, that will 
immediately address the disastrous conditions that we are left 
with following the Yosemite Rim Fire.
    With the fire finally extinguished, we were left with as 
much as a billion board feet of charred timber and denuded 
watersheds, soon to be choked with ash, burn debris and soil 
coming off the hillsides from rains and snow.
    Disasters of this magnitude call for actions equal in 
scale. Waiting for months or even years to analyze all of the 
on-the-ground conditions before developing a plan, like we 
usually do when we have such large fires, is just not 
acceptable, and the horrific conditions left in the fire's path 
calls for immediate action.
    H.R. 3188 allows for this immediate action by the Forest 
Service, BLM and National Park Service to promptly plan and 
implement salvage timber sales of dead, damaged or downed 
timber resulting from that wildfire, without doing time-
consuming NEPA or other lengthy planning efforts. Salvage 
timber sales prepared under this bill will also not be subject 
to administrative review or judicial review by any court that 
can take months or years to resolve.
    Members of the committee, we need to quickly capture the 
value of this dead timber before it deteriorates in the coming 
months and put those dollars toward a massive regeneration and 
restoration program like none we have tackled in the past. As a 
sawmill manager, I know how quickly burnt timber deteriorates 
from blue stain, checking and insect borings. For example, a 
standing burnt tree today may have a value of $1,000. Twelve 
months from now, it may only be worth one-third of that value. 
Time is money when it comes to restoring a burnt forest.
    The Forest Service, BLM and Park Service have no reserve 
funds for planting burnt forests or doing much of their 
rehabilitation. Those dollars for replanting only come from the 
sale of salvaged trees from that burn. The more value that 
these agencies get for the sale of their burnt timber, the more 
acres of valuable watersheds can be restored.
    Finally, sawmills that can access wood from the Rim Fire 
located in Sonora, Chinese Camp, Lincoln and Terra Bella 
desperately need the wood now for continued operations and need 
the forest replanted for a long-term sustainable forest for the 
decades to come.
    For every 1 million board feet of timber harvested, 
approximately 18 jobs of direct or indirect nature are created. 
This would be a boon for many of our rural California counties 
with double-digit unemployment, as well as reestablishing 
young, green, growing forests.
    The salvage of burnt trees on private land in California 
has an expedited process to capture the value under the 
California Forest Practices Act. In these cases only a 
notification of salvage work is needed, not a full-blown timber 
harvest plan. H.R. 3188 would bring those expedited features to 
the public lands consumed by the Rim Fire by only requiring 
that the agencies plan and implement projects put forth by 
professional foresters on their staff, and those projects must 
at least comply with the standards put forth in the California 
Forest Practices Act.
    As I said before, extreme events call for extreme actions, 
and I strongly urge you to support H.R. 3188 for the rapid 
restoration of our forests, our watersheds and rural 
communities, where many jobs will be provided. Thank you very 
much for accepting my testimony.
    Mr. Bishop. Thank you for coming here and giving testimony.
    [The prepared statement of Mr. Partin follows:]
 Prepared Statement of Tom Partin, President, American Forest Resource 
                                Council

                               H.R. 3188

  the impact of catastrophic wildfires on watersheds, such as the rim 
                    fire, stanislaus national forest
    The Forest Service is hamstrung nationwide with the aftermath of 
catastrophic wildfire. Particularly in the West and specifically in the 
Sierra Nevada Mountains of California, the number, size and intensity 
of wildfires are increasing. Just in the last 25 years, the high 
severity burned acres has increased from 21 percent to 33 percent of 
total acres burned. The fire behavior, particularly over the past year, 
has reached a new level. The Rim Fire expanded 35,000 acres on Day 4 
and then an additional 50,000 acres on Day 5 and was burning in every 
direction throwing embers up to a mile. There's never been anything 
like it and it's, in large part, because of the ever-increasing tree 
density on the national forests coupled with long, dry fire seasons. 
Today, in the California Region on the national forests, productive 
forest lands have 266 trees/acre on a landscape that can only support 
about 40-100 trees/acre. The Forest Service mechanical thinning and 
fuels reduction program only removes 7 percent of annual growth. The 
Forests are getting denser and denser and denser. It's no surprise that 
we are seeing fire behavior like never before.
    Following a catastrophic wildfire, the Forest Service has short 
term burned area emergency rehabilitation (BAER) authority that is by 
definition part of the wildfire ``emergency''. These short term 
activities (water barring dozer lines, rehabilitating other 
suppression-related activities on the landscape, putting hay bales 
across streams to try to reduce the sediment transport so that 
drainages don't gully over the winter months and next spring, . . .) 
are very limited in scope.
    The longer term work of restoring the denuded watersheds is left to 
the Forest Service to figure out how to accomplish using normal NEPA 
procedures, ESA processes, and paying for it out of their normal 
appropriations (there is no special money for longer term watershed 
restoration).
    The priorities of the Rim Fire are:

    (1) Roadside hazard tree removal on about 400 miles of Forest 
            Service system road inside the burn perimeter. This work is 
            needed for public and administrative safety and to keep the 
            road system open to perform the rehab and restoration work. 
            If the hazard trees are not removed, there will be 
            literally thousands of trees that fall across the roads 
            during the coming winter and close the roads.
    (2) Because of the complexity of National Environmental Policy Act 
            (NEPA)/Endangered Species Act (ESA) processes and 
            procedures, it generally takes the Forest Service, 
            California Region about 10-12 months to complete an 
            Environmental Impact Statement and Decision on what actions 
            to take to maintain the integrity of the road system and 
            restore the denuded watersheds.
    (3) Twelve months from now, brush will have already sprouted and 
            the moderate-high severity burned acres on what was 
            productive forest land will be well on their way to type 
            converting to brushfields. If no salvage, site preparation 
            and planting of seedlings occur within 12-20 months on 
            these lands, they will be brushfields for many, many 
            decades to come (likely until the next wildfire burns the 
            same acres again). Over the next 5-8 years, standing dead 
            trees will rot off and fall over onto brush that could be 
            5-10' high or higher.
    (4) The opportunity to save most of the existing road system is 
            rapidly diminishing as winter approaches. Forest Service 
            models predict that stream runoff could be 4\1/2\ times 
            greater than normal and the runoff will be mud and debris. 
            None of the existing culverts in the road system were 
            designed for these types of events. There's a high 
            probability that many culverts will plug, pond and blowout 
            sending thousands of cubic yards of dirt down the stream 
            channels and closing the roads for a long time to come. 
            Closed roads mean no access to perform rehabilitation or 
            restoration activities, even if planned and NEPA-cleared.

    Much of the existing road system has inside ditches; in just 2 
weeks during the fire, dry ravel off the cut banks already filled miles 
of these ditches. On the fill slopes following the fire, dry ravel is 
eroding the fill slopes and exposing the pavement and crushed aggregate 
base on the mainline roads.
    These are just indicators of a catastrophe that is likely to happen 
during rain events this winter.
    The importance of rapid restoration of the denuded watersheds 
cannot be overstated. Activities begin with salvaging merchantable dead 
trees that will make lumber. The revenue from these trees generally can 
support cutting and piling of small trees and brush to help prepare the 
productive forest lands for planting of seedlings.
    Without rapid deployment of the salvage activity, the brush will 
quickly sprout and totally occupy the growing space. Replacing the 
brush with tree seedlings that will survive is an expensive process. 
Further, rapid salvage is necessary because the value of the 
merchantable trees rapidly declines from beetles, wood borers, and 
other insects. As the value declines, the opportunity for revenue from 
the salvage operation to pay for preparing the site for tree planting 
is lost.
    Reforestation on acreage the Forest Service deems important to 
watershed restoration has to occur within 12-20 months. This will 
enhance the opportunity to return the watershed to a ``forest'' rather 
than a brush field.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   The Rim Fire, Stanislaus National Forest, Vegetation Burn Severity 
                                  Map 
                          (September 26, 2013)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            Stanislaus National Forest Fire History Map

                                 ______
                                 
    Mr. Bishop. Are there questions?
    Mr. McClintock, I am assuming?
    Mr. McClintock. Absolutely. Thank you, Mr. Chairman.
    Mr. Partin, I first want to thank you very much for coming 
out on very short notice to provide testimony for this hearing. 
As you know, time is of the essence on this.
    The first question I would have for you is what do you say 
to those that say, well, if we just leave it alone, it is all 
going to grow back?
    Mr. Partin. Well, we will have growth coming back, but in 
the meantime we are going to have a considerable amount of 
erosion. The growth we will get back will not be a conifer 
stand of trees, it will be brush. It will take decades to get 
trees regrowing on these sites, and in the meantime we are 
going to have some disastrous conditions. We are going to have 
harm to our watersheds. Our municipal watersheds that depend on 
water for drinking are going to get impacted. We don't have the 
time. We need to take immediate action.
    Mr. McClintock. So if we listen to that advice, basically 
what we are doing is consigning what was once forestland to 
become brushland for the next several decades?
    Mr. Partin. Absolutely. There are a tremendous amount of 
examples of this on fires that have happened in California over 
the decades, where we do not have conifer stands established; 
we have brushfields. We are not going to get the value out of 
those forests for the long term, and we just have poor 
conditions.
    Mr. McClintock. So that 400 square miles of incinerated 
forest--of course, not all of it is incinerated, but much of it 
is. And the fire was severe, rated severe, I believe, at about 
60 percent of that area. If we just leave it alone, that forest 
is not coming back in our lifetimes.
    Mr. Partin. It will not come back in our lifetime. And we 
have witnessed this time and time again. Case in point, up in 
Oregon the 2002 Biscuit Fire had very little salvage done. It 
is mostly a brush field right now. We do not have a forest 
coming back. It is going to take time to get trees established 
to compete with the brush, to get a forest back.
    And, again, as I say, the important thing is we have to get 
in there and manage those watersheds, or we are going to have 
some extreme events with soils in the creeks going down to the 
rivers and impacting our drinking water.
    Mr. McClintock. What is the effect of going through the 
normal NEPA process? We heard the Ranking Member say, well, we 
have got to reopen the Government--which we all agree we need 
to reopen the Government, and that is a great issue that is 
raging right now--but if we simply resumed the normal process 
for salvage sales, what is the prognosis for the Sierra Nevada?
    Mr. Partin. The normal NEPA process, I think, as you 
pointed out earlier, takes about a year to go through to either 
do an EIS, environmental impact statement, or an environmental 
analysis. Twelve months is a long time. On top of that, almost 
every one of our salvage sales are appealed by environmental 
groups, taking at least another 6 months to a year. You are 
left with 2 years after a burn, and almost all of the value at 
that point is gone. So having an expedited process, at least in 
this case, is very important. We have some unique circumstances 
out there right now that need some immediate attention.
    Mr. McClintock. Now, when we put this dead timber up for 
salvage sale, you pay us to take it out; do you not?
    Mr. Partin. Absolutely.
    Mr. McClintock. And can you give us some example per acre 
of a typical salvage sale if it occurred in a timely manner 
where the trees actually retain their commercial value?
    Mr. Partin. Well, let us just take an example of if someone 
bought the timber for $200 per thousand, and there are 10,000 
board feet per acre. That would be $2,000 taken off of each 
acre in value.
    Mr. McClintock. So that would be $2,000 going directly to 
the Federal Treasury that could then be spent on reforestation 
of that acreage?
    Mr. Partin. I think that is the important part. We don't 
have the dollars in hand, the Forest Service, BLM or Park 
Service, to do that replanting and rehabilitation. They need 
cash from someplace else.
    Mr. McClintock. We wait a year, we are already pretty much 
past the harvest season going into the next winter, so it will 
be about a year and a half to 2 years if we follow the normal 
process. How much is that timber going to be worth after 2 
years for salvage?
    Mr. Partin. I have spent my entire career either as a 
forester, or logging manager, or sawmill manager and watching 
the deterioration of fallen salvage, and it is a huge impact. 
You lose at least half of the value during the first year, and 
it can be more than that on small trees. Small trees 
deteriorate more quickly.
    Mr. McClintock. So after a year the most we could expect is 
to take $1,000 per acre out in salvage, and after 2 years 
pretty much nothing?
    Mr. Partin. There would be a little value after 2 years, 
but only in the larger trees that don't have the checking or 
deterioration simply because of the size and there is so much 
mass inside. But we would lose over half of the value.
    Mr. McClintock. And after that, if we want to get that dead 
timber out of the forest, and it has been ordered to do 
reforestation, we would have to pay somebody to come in and 
haul it out because it then has no value.
    Mr. Partin. It has no value. The long-term impacts, you 
have a heavy fuel loading, standing snags all over the place, 
brush growing underneath, as you mentioned. These larger trees 
will tip over in time, and then you have even worse fire 
conditions in decades to come.
    Mr. McClintock. Thank you.
    Mr. Bishop. Thank you.
    Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman.
    And without objection, I would like to enter two letters of 
opposition to the legislation, H.R. 3188, one representing 
Sierra Club Wilderness Society, Defenders of Wildlife and Earth 
Justice; and the other, Outdoor Alliance, representing various 
recreation advocacy groups, if there is no objection, Mr. 
Chairman.
    Mr. Bishop. Without objection.
    Mr. Grijalva. Thank you.
    If I may, Mr. Partin, one question, or for my own 
clarification here. In July 1985, Congress established an 
emergency salvage timber sale program. According to a GAO 
report from 1997, the elimination of the appeals associated 
with the salvage riders, as it came to be called, had little 
impact on the amount of timber sold and salvaged in the salvage 
sales.
    Has something fundamentally changed in those since that 
study that it is now necessary to eliminate administrative 
review for the Rim Fire?
    Mr. Partin. I think a lot of things have happened since 
1985, particularly----
    Mr. Grijalva. 1995.
    Mr. Partin. Pardon me?
    Mr. Grijalva. 1995.
    Mr. Partin. 1995? Particularly when it comes to the length 
of analysis needed for a lot of these projects, what the 
agencies have to go forward in preparing their NEPA work, their 
EISs, their EAs. As I mentioned, it can take up to a year.
    We don't have a year out here. These are extreme conditions 
in this particular area. I think it calls for extreme action. 
It calls for getting in there now, generating some funds that 
you can get from the salvage of this wood to put back into the 
ground, to help replant some trees, to help reclaim these 
watersheds. We don't have time, and this is a unique 
circumstance.
    Mr. Grijalva. And just last, Mr. Partin, does the Resource 
Council or yourself, do you support logging in Yosemite 
National Park?
    Mr. Partin. I think there are places where a national park 
can benefit from taking material out. We have a lot of people 
visit these parks. We do not want to have a dangerous 
situation. We want to have a green forest. And what we can do 
to make their presence in these national parks a good 
experience for them, I think we need to do some work there.
    Mr. Grijalva. I think, Mr. Partin, there a lot of reasons, 
but the iconic nature of the park that we are talking about, 
that the opposition to elimination of NEPA, Clean Water Act, 
the concern is that it is a precedent, number one, and because 
it is an iconic area, that the issue of expeditedness is an 
open question, but the point of eliminating, I think that is 
where there is a great deal of concern.
    I yield back, Mr. Chairman.
    Mr. Bishop. Thank you.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you again, Mr. Chairman.
    Mr. Partin, when we contrast, I will call it the response 
time on private land versus this process you have to go through 
on public land, how quickly are private landowners able to get 
on, recover timber that has value so that--again, we have all 
heard about how it works well to be able to make money off of 
what you are recovering instead of having to come out of either 
a private person's profit or, in public land, on a Treasury 
that is already empty. What is that response time, contrasting 
the two----
    Mr. Partin. Well, as I mentioned, under the California 
Forest Practices Act, when private landowners have a burn of 
any kind of magnitude, all they have to do is provide a 
notification to the forestry department they are going to take 
these actions. Again, all of the actions have to comply with 
the California Forest Practices Act, but there is immediacy and 
an urgency to get out there, oftentimes within weeks or a month 
or two after the fire has burned. So you are looking at a quick 
response time on private lands to capture the value, to get 
their lands back in production and get a new stand established.
    Mr. LaMalfa. Which means you have a property that is not 
subject to the erosion problems, wildlife are going to be 
returning, the trees will be growing, you can fly over it 
within X amount of years, and it will look like a pretty good 
stand of forest once again, yes?
    Mr. Partin. Absolutely. You will have trees established. 
You will not have the brush fields. And it is important to 
recognize getting out and maintaining these forests, you get to 
maintain the roads, you get to prevent the massive erosion that 
can occur on these unstable slopes, and there is a lot of 
environmental pluses for taking the immediate action, capturing 
the value, getting trees replanted, make sure we preserve our 
infrastructure.
    Mr. LaMalfa. So what have you seen in the past where there 
have been land swaps where public land has gone into private 
ownership? Has the land somehow become different on the way it 
regrows trees or the way it affects the environment when a 
private person replants it as opposed to--is there some kind of 
magic trick here that because it is public property, that 
recovering the land, recovering the value, getting it 
replanted, or instead having to go through a year and a half, 2 
years worth of hassle, why is it different on public land than 
private land? Is there something different about the soil or 
the air? What is the problem?
    Mr. Partin. Again, there is nothing different about the 
soil. There is nothing different about the trees. The lands are 
side by side. What is different is the time it takes to 
analyze, do the NEPA work, do the environmental impact 
statements to actually get to a project, and then you have the 
possibility----
    Mr. LaMalfa. So if the American public understood what is 
going on with the ability to recover land quickly on the 
private level, and their public assets are languishing for 2 
years, and then they don't have the money anymore to do it. I 
can think of instances up in Trinity County and Shasta County 
in northern California where a fire has gone through and 
devastated--actually very close to the town of Weaverville and 
not far from Redding, et cetera, putting them in peril, but 
then just a few years later, because these areas weren't 
managed, recovered, reforested, that they become brush fields; 
all the dead timber, all the snags, they become this tinderbox 
for another fire just 7 years later.
    Do you think if the American public understood all these 
different things, that they would think that this NEPA process 
is efficient, especially a jewel like the Yosemite area, where 
people come from around the world to visit? What do you think 
they would think of that?
    Mr. Partin. I would think they would think our rules are 
broken, and we need to do something to take immediate action.
    I would like to just say one thing. In 1973, I worked for 
the Forest Service, and I actually fought a fire inside the Rim 
Fire, it is called the Granite Fire, next to Cherry Creek 
Reservoir. Again, we are having reburns of these areas that 
haven't been salvaged. It devastates the landscape. We return 
to them time and time again.
    Something has to change to, number one, get the value off 
these lands in a timely manner, to go back and reestablish 
growth, and to make sure we preserve our amenities out there 
such----
    Mr. LaMalfa. Quickly. I am running out of time. I 
appreciate it.
    The Ranking Member mentioned a 1995 congressional piece of 
legislation that was to expedite salvage, and mentioned that a 
survey or a report done on that showed very few acres have 
actually been recovered because of this bill to expedite the 
process. Do you know much about that bill, or do know why it 
isn't working? Because if we are not getting the acres under 
the law intentionally done by the Congress to do so, I guess 
there is something wrong with the breadth of that law, right?
    Mr. Partin. Yes. I don't know exactly that law. If it were 
the section 318 salvage rider, there was an immediate volume 
put up that had some timber sales moving forward in that year 
or 2 years. Since then it is out of date.
    As I say, we have a lot of rules and regulations that take 
time under NEPA, EIS and EA to get a project moving forward, 
and then it could be impacted by litigation in the courts, 
taking another year. It is a bad process. And there was the 
FERRA bill passed in the House in 2005. Some of you might 
remember that, the Forest Emergency Recovery and Restoration 
Act. We have been trying to address this issue for many years, 
decades. We haven't an answer, we haven't a solution; hence, we 
are in this limbo land. This bill would at least get us beyond 
that for this project.
    Mr. LaMalfa. Thank you. My time is up, Mr. Chairman. I 
yield back.
    Mr. Bishop. Are there any other questions?
    Before I do, I recognize Mr. Huffman.
    Lest I forget again here, we appreciate all of you being 
here. We would remind you that the record is still open. You 
may be asked to respond to written questions. If they come to 
you, we would ask you do that in a relatively short period of 
time.
    Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chair, and thanks to the 
witnesses for their testimony.
    This is an incredibly broad bill. It covers a broad area of 
land, a lot of acreage that includes forestland, National Park 
Service land. Ninety-two percent of the area, I am told, that 
burned in Yosemite National Park is designated as wilderness. 
We have all sorts of various protected categories that apply to 
certain parts of this land, and yet this bill would basically 
mandate, or at least permit, salvage logging without any normal 
administrative procedures or judicial review, safeguards in 
every part of it.
    And so my question for you, Mr. Partin, is salvage logging 
appropriate everywhere?
    Mr. Partin. I think the projects that would be developed by 
the professionals in the Forest Service, BLM and the National 
Park Service would look at where salvage is appropriate. I 
think they have the expertise to know if we can't get into 
wilderness areas, we can't get into some areas, those wouldn't 
be entered. But we have a tremendous amount of general forested 
areas that either need some help, need some rehabilitation, 
need some work done to make sure we have safety for our folks 
entering the forest, and I think those are the experts that 
really need to work to develop these projects.
    Mr. Huffman. How will we know that they will apply the kind 
of rigor that you just indicated if we are waiving all normal 
procedures and judicial review?
    Mr. Partin. I think you have to look at it as these are 
professional folks, much like doctors, much like other 
professionals, that have a lot of history, that have a lot of 
experience, that are going to go forward and present 
professional projects. This is----
    Mr. Huffman. Would you agree, sir, that there are instances 
where salvage logging is not appropriate; where if it is not 
done right, you could actually worsen some of the things that 
you have mentioned in your testimony, things like erosion, 
water quality; that if it is not done right, there is even some 
science to suggest you could create greater fire-safety 
impacts? Would you agree with those propositions, that there 
are actually some studies from the Forest Service and others 
that suggest that improperly done, salvage timber operations 
can make things worse?
    Mr. Partin. Well, I am not sure it would make it worse for 
safety aspects, because what we are left with out there is a 
tremendous amount of hazard. As far as could salvage done 
incorrectly on soils or on slopes have a negative impact? Yes, 
it could. I----
    Mr. Huffman. Again, if done incorrectly, if impacts are 
created, let us say water quality impacts for the city and 
county of San Francisco, who pays for that mitigation if there 
is no NEPA process, if there are no safeguards in place to 
address the issue of mitigation under this bill? Taxpayers?
    Mr. Partin. I think the taxpayers would, much like they are 
going to pay for the problems we are having right out there 
that were naturally caused by this fire. We have got 250,000 
acres of a problem right now, and somebody has to address it. 
We don't have the money----
    Mr. Huffman. I appreciate that.
    Mr. Partin. We don't have the money----
    Mr. Huffman. I appreciate that. There is also a maxim about 
making sure that the cure is not worse than the disease, and 
proper procedures and safeguards are an important part of 
ensuring that.
    You have mentioned municipal water supply quality as one of 
the factors in support of this very open-ended salvage logging 
proposal. There is a very large municipal water supply we are 
talking about, the city and county of San Francisco. Has 
anybody asked the San Francisco PUC if they think open-ended 
salvage logging in their watershed is a good idea? That might 
be one of the many empty chairs that we would like to have 
filled so we could get some information. The other would be the 
Park Service, whether they think some additional logging is 
appropriate.
    I would note a very compelling part of your testimony, sir, 
is about the need for the roadside hazards to be addressed. I 
think we could all agree that we don't want trees falling on 
roads all over watersheds; however, I have some information 
informally that those trees have been removed in Yosemite 
National Park already, again, one of many, many pieces of 
information that we would have to inform this debate if we had 
some of the empty chairs filled by folks from the Park Service, 
from the Forest Service and other authorities that are missing 
from this debate.
    There is a lot that needs to be said about this bill. There 
is not a lot of time, unfortunately, but I would suggest that a 
bill that waives every environmental law in this entire very 
important public area, including wilderness laws, roadless 
laws, endangered species, NEPA, is not going to pass, and I 
don't think anybody seriously believes that it will. There are 
pieces of this that we could be working on in a cooperative 
way, and my hope is that eventually we will have a more 
practical discussion where maybe we can find common ground.
    And I yield back.
    Mr. Amodei. [Presiding.] Thank you.
    Anything else on this panel.
    Mr. Daines. Yes, Mr. Chairman?
    Mr. Amodei. Mr. Daines.
    Mr. Daines. I yield my time to Mr. McClintock.
    Mr. McClintock. I thank the gentleman for yielding.
    Mr. Partin, first of all, doesn't the bill direct the U.S. 
Forest Service and the National Park Service to develop plans 
according to their own best judgment?
    Mr. Partin. Absolutely.
    Mr. McClintock. So all of the concerns over protection of 
watersheds, what kind of temporary egress would be required to 
move this dead timber out, all of that would be subject to the 
restrictions imposed by the U.S. Forest Service and the 
National Park Service, correct?
    Mr. Partin. Absolutely.
    Mr. McClintock. Is there anything in this bill that 
attempts to micromanage them or to override their judgment in 
any respect?
    Mr. Partin. No. As I mentioned earlier, I think it is the 
professionals within each agency that would be doing the work. 
They have boundaries they have to work within, and they would 
be followed.
    Mr. McClintock. And they also have procedures that are well 
established that this bill does not affect; is that correct?
    Mr. Partin. Absolutely.
    Mr. McClintock. This bill simply waives the more-than-year 
review process that makes salvage pretty much impractical.
    Mr. Partin. Waives the NEPA requirements for the long-term 
study and also the judicial review, which can take months or 
years as well. We are trying to expedite this, get it to a 
process that takes a couple of months rather than a couple 
years, capture our value, and get some stands reestablished.
    Mr. McClintock. But all of the professional foresters in 
their judgment, all of the biologists in their best judgment, 
all of the folks that manage these things for the U.S. Forest 
Service and the U.S. Park Service would be developing the plans 
for the salvage operations; is that correct?
    Mr. Partin. Absolutely. You would have teams from all walks 
within the Forest Service, wildlife, streams, watershed, 
timber, developing these plans with their best knowledge to put 
something forward that would work.
    Mr. McClintock. Could you speculate on the damage that we 
can expect if we simply do nothing for the next year?
    Mr. Partin. Well, we mentioned watersheds and water 
supplies, and I think we have to look no further than what 
happened to the Denver municipal watershed in the Hayman Fire. 
We had a reservoir that collected water for that city that was 
almost half filled with silt during the early 2000s fire that 
hit in that Denver watershed. These are examples, many 
examples, of what can and will happen if we don't get out there 
and take some aggressive action.
    Mr. McClintock. Now, if we do allow this to go to 
brushland, and we have the progression of events that can 
normally be expected through the policy of benign neglect, we 
are going to have 5 to 8 feet of brush in the next couple of 
years covered by large timber-killed treefalls; is that 
correct?
    Mr. Partin. Brush is a very aggressive pioneer species. It 
comes in following a fire, does very well. It will outcompete 
the conifer trees. Unless the conifers are reestablished 
quickly, we will have brush fields. We will have a lot of large 
dead trees as a canopy. Eventually they fall down and create a 
tremendous fuel loading for future fires.
    Mr. McClintock. That is how you build a fire in a 
fireplace. You put in lots of dry timber, and then you put the 
logs on top, and that is what we can expect.
    Now, from this fire I have seen estimates of just 
horrendous erosion and runoff as a result of expected rains 
just this year; is that correct?
    Mr. Partin. That is correct, and I witnessed firsthand the 
amount of erosion and runoffs from these fires once you have 
large events, whether it is heavy rain or snow. We are coming 
into the fall and winter season. We are going to get these 
runoffs. If we don't have something to hold this water back----
    Mr. McClintock. So we can expect that this year through 
benign neglect, and then if there is another fire a few years 
from now, with all the brush and stacked dead timber that will 
be created by benign neglect, we can expect that again in the 
next few years.
    Mr. Partin. In the decades to come. As I mentioned, I was 
on the Granite Fire in 1973 within this area. I assume the 
conditions were not taken care of, they burned heavily, and we 
need to stop this process.
    Mr. McClintock. Now, when you say that the conifers can't 
compete with the brush, that means that about the only way that 
we are going to get the region reforested within our lifetimes 
is to go in there and do it ourselves, right?
    Mr. Partin. Well, absolutely. You have got an area of 
250,000 acres that has been burned. We don't have a seed source 
naturally out there to redevelop, to reestablish these conifer 
trees. If we are going to get a conifer stand established, we 
have to go out and plant them, and we have to put the dollars 
up to get those young trees going.
    Mr. McClintock. Now, can we plant them with the dead timber 
that is there now?
    Mr. Partin. We can, but, again, we are----
    Mr. McClintock. But then we don't have the money to do it.
    Mr. Partin [continuing]. Playing with fire, anticipating 
other fires to happen in the future, which we have seen, 
destroying the young stands that we are planting right now. So 
the best alternative, let us get those trees off, those dead 
trees now; let us establish a new stand, have a healthy forest 
for the future.
    Mr. McClintock. Great. Thank you.
    I thank the gentleman for yielding.
    Mr. Amodei. Anything else for this panel?
    Mr. Grijalva. A second round, sir.
    Mr. Amodei. You have something?
    Mr. Grijalva. Yes. Thank you. Thank you very much.
    Just a quick follow-up, Mr. Partin. When we were discussing 
discretion right now from Mr. McClintock's question about that 
the professional land managers would have discretion as to what 
happened, and so this bill does nothing to that discretion. The 
assumption is that if it was, as Mr. Huffman said, an area in 
which salvage would do more harm than good, then that 
discretion would lay there in the legislation. It would be that 
permissive.
    So, but as I read it, and it gets to the portion about--it 
says very specifically that with respect to affected Yosemite 
National Park and Bureau of Land Management lands, that 
professional ``shall promptly plan and implement''--implement--
``salvage timber sales.'' That is a ``shall'' not a ``may.'' 
Would you think it should be a ``may''?
    Mr. Partin. I think it is ``shall,'' but I think it is also 
important to look at the professionals developing this that 
will--shall put a project out there, and those professionals 
will decide where it is appropriate and where not.
    Mr. Grijalva. But it is still required to have a prompt 
salvage sale?
    Mr. Partin. Yes.
    Mr. Grijalva. It kind of defeats the ``shall/may,'' huh?
    Anyway, the other point and the comparison, private 
property, expedited process, salvage, you use the California 
model, all they would have to do is the notice of intent, and 
we go forward.
    I think there is a marked difference. These are public 
lands, they are a shared asset of the American taxpayer, and 
the administrative reviews that are in place are to protect 
that asset. I mean, we are not talking about my personal land 
that I can do what I want with. We are talking about a shared 
asset of millions and millions of shareholders in it, and those 
reviews are there for that overall protection of that asset, 
and that is the biggest difference, and they are there for that 
reason.
    I just think that the ``shall/may'' is really--that there 
is only one option, and that is to salvage and sell; that there 
is no real discretion left to that professional staff that you 
indicated are so capable on those public lands.
    I yield back.
    Mr. Partin. If I may, this is not a unique approach. Tribal 
lands that are managed, tribal forestlands expedite their 
salvage. Lands owned by the State Department of Natural 
Resources in Washington State last year had a huge fire. Within 
a few weeks they were back managing, salvaging the lands that 
had burned. It is an exercise----
    Mr. Amodei. Mr. Partin, I appreciate your response, but 
your time comes through the person that is questioning you, and 
Mr. Grijalva has yielded back. However, the next person is Mr. 
LaMalfa. If you would like him to answer the question, maybe--
--
    Mr. LaMalfa. Mr. Partin, please continue on your line 
there, and I will have another question or two after that.
    Mr. Partin. I was just mentioning other landowners, tribal 
landowners, State landowners go through an exercise very 
similar to what is in this bill to look at moving salvage 
forward quickly; to get replanting, rehabilitation done on the 
land so they have a forest to manage for the long term. It is 
not just unique to what is in this bill.
    Mr. LaMalfa. Let me follow up on this note. First, we are 
hearing about an asset, whether it is a public asset. I think 
any American that would see what is going on would say their 
asset is being poorly handled, poorly protected because it is 
so subject to a refire just a few years later.
    So all you hear from the opposition are ways to obstruct. I 
have yet to hear a method that I would be open to for future 
legislation to say how do we follow a prescription for speedy 
salvage, because I liken this to a patient who has suffered an 
accident, has to be hurried to the emergency room, is bleeding 
out, and yet you run into somebody that has to sign you up on a 
Web site first before you can receive treatment, thereby losing 
the patient. In this case here you are losing the opportunity 
to salvage something that you would have positive value for 
instead of negative value 2 years from now.
    I have never heard yet a way for somebody that would like 
to work with those who think that expedited salvage would be a 
way to go. We just hear NEPA, judicial review, ways to obstruct 
and stop.
    What do we learn--I would like to hear from you, what do we 
learn from each NEPA, each EIS, each one of these lawsuits that 
we don't already know from multiple go-rounds of this in the 
past? The bill Mr. McClintock is working on, this isn't the 
first time this has happened with a fire like this on a public 
land, yet for years and years and years, haven't we ever 
established a precedent that says, wow, we have had a fire on a 
public land. That means we are going to have to go and salvage 
some trees. Yes, there might be a stream here; we will probably 
want to stay away from the stream 100 feet. There might be some 
old growth; maybe we will stay away from that. There might be 
an owl nest over here; we will figure out how to work around 
that. But there is a whole bunch of acres in between.
    It is like we are reinventing the wheel every single time, 
with new lawsuits, new obstruction, a new NEPA process. What do 
we learn from these processes and these lawsuits that we don't 
already know and we can't apply a prescription for?
    Mr. Partin. I don't think we learn a lot. As you mentioned, 
each of the criteria on each forest are known by the 
professionals. They go through a good system to develop the 
plan. It should go forward.
    But I would like to go back to the FERRA bill that I think 
it was 2005 or 2006, and one of the parts of that called for 
establishing up front some criteria on how to salvage once the 
fire gets established on each forest. And I would highly 
recommend the committee look at this, revisit it to get some 
kind of game plan for when we have these large fires and 
catastrophic events, because, as you mentioned, we go back to 
square one every time. It is the same NEPA process, lengthy 
EIS, lengthy EA, court battle taking as much as 2 or 3 years, 
and we never get past that.
    I do think there is a better way of doing it. We have a 
tremendous value and asset out there we need to manage, and I 
think it really behooves us to look at a better way of doing 
business.
    Mr. LaMalfa. Yes. It would seem a template for this like we 
have templates for other emergency measures in the country, how 
you respond, would make a lot of sense.
    So let me again come back to the treatment of private land, 
you know, fairly immediately. Now, do they have any of the 
problems after the treatment with water quality threats or some 
of the other concerns that the opposition always brings up that 
might affect? Don't they have to follow a prescription that 
would be quite similar?
    Mr. Partin. Well, yes. Like I say, these actions and 
projects have to follow the California Forest Practices Act.
    Mr. LaMalfa. So they are following--already established in 
our State a practice act whether it is private, and it always 
seems to work out, right? It doesn't affect water quality 
because they have a wide zone of----
    Mr. Partin. We have buffers. We have measures put in place 
to protect the resources. It is a matter of getting the value 
out, getting stands reestablished, making sure we have green 
forests for the future.
    Mr. LaMalfa. So you would be working with the Forest 
Service, you would be working with the Department of the 
Interior, you would be working with national parks on these--
the people that have expertise that are already supposed to 
know their region, know their zone?
    Mr. Partin. Exactly.
    Mr. LaMalfa. You say, do this here, do that there, you 
would probably be fine.
    Mr. Partin. Exactly.
    Mr. LaMalfa. And so if we could follow that private pattern 
here, we would be saving and replanting and reforesting much 
sooner than we do now, correct?
    Mr. Partin. Absolutely. We would be bypassing the lengthy 
NEPA, the court injunctions, and get right to doing the salvage 
work and reestablishing a stand of trees out there.
    Mr. LaMalfa. I just don't understand the obstructionism. 
But thank you for your testimony.
    Mr. Partin. Certainly.
    Mr. Amodei. Thank you very much for your testimony. This 
panel is dismissed.
    Mr. Amodei. The next panel is Pat Whitten, County Manager 
of Storey County; Kristin McMillan, President of Las Vegas 
Chamber of Commerce; John Lee, Mayor of city of North Las 
Vegas; and Steve Ross, Councilman from the city of Las Vegas.
    We want to thank the Silver State panel for your patience. 
We saved the best for last.
    Mr. Whitten, we are going to go ahead and start out with 
you.
    For all the witnesses, good to see you all. I see Mr. 
Horsford, my colleague from the old days, is here, as is His 
Honor, the Mayor of the city of Las Vegas, and I guess Kristin 
is here for South Las Vegas. Isn't that how you refer to Las 
Vegas and North Las Vegas is South Las Vegas?
    Anyhow, Mr. Whitten, if you would proceed, you have 5 
minutes.

STATEMENT OF PAT WHITTEN, COUNTY MANAGER, STOREY COUNTY, NEVADA

    Mr. Whitten. Thank you, Mr. Acting Chairman, Ranking Member 
Grijalva, and distinguished members of the subcommittee. And 
again, once again, specifically thank you, Congressman Amodei, 
for inviting me here today. I appreciate the honor and the 
opportunity to testify before you on H.R. 1167, the Restoring 
Storey County Act as introduced by Congressman Amodei.
    I am Pat Whitten. I serve as the County Manager for the 
Storey County Commission in Nevada, and joining me to the back 
today is Commissioner Marshall McBride, Vice Chairman of the 
Storey County Board of Commissioners.
    Last April the Board of County Commissioners resolved to 
support H.R. 1167 by unanimous vote. Storey County is the 
smallest of 17 counties in the State of Nevada, and our history 
dates back to 1864, when miners discovered substantial amounts 
of underground gold and also the country's first major silver 
deposits. During these boom days historians say almost 25,000 
people lived in the area.
    After the decline of mining in the late 1800s, life became 
very quiet on the Comstock. Today we are a popular oldtown 
tourist destination with some small-scale mining also taking 
place.
    Virginia City and Gold Hill are located about 30 miles 
between our State capital and Reno. As far back as 1864, people 
have bought, sold, and/or built both commercial and residential 
buildings. Under normal circumstances this would pose no issues 
or concerns; however, errors occurring throughout our history 
creates detrimental impact on approximately 75 percent of the 
parcels in Virginia City and 100 percent of the parcels in Gold 
Hill.
    In 1867, the General Land Office survey of the Virginia 
City town site was approved, but subsequent required actions 
were never completed, and no Federal patent was ever issued. 
Without this patent proper ownership of surface rights fall 
under question as to who actually owns the land where our homes 
and businesses are located. This creates a situation where 
residents might be considered to be trespassing on Federal 
Government lands and also clouded title issues where 
individuals buying or selling real property cannot because of 
difficulty in obtaining standard title insurance. I want to 
stress that our issues lie only with resolving surface rights 
and do not involve any subsurface mineral rights whatsoever.
    On the Federal Government side, the Bureau of Land 
Management has the task of dealing with the fallout from these 
historic events. For almost 20 years we have patiently worked 
together seeking solutions. I want to state that at all levels 
of their organization, BLM has not only been good to work with, 
they have been great to work with, but like any government, 
they are bound by the laws of the land. Simply said, BLM cannot 
rectify this problem without authorization from Congress. 
Citizens wishing to obtain clear surface title rights would 
have to petition Congress as separate individuals.
    So BLM encouraged us to turn to our congressional 
Representatives for long-term solutions, and we were fortunate 
that Congressman Amodei was already familiar with our problems. 
Congressman Amodei has developed a simplified, streamlined 
approach to cure this issue. It, in essence, is give any 
interest the U.S. Government has in surface rights regarding 
the impacted properties to the local government for proper 
reparation and release to the respective lawful owners.
    There are approximately 1,285 parcels over 1,705 acres 
covered by our request. H.R. 1167 would rectify in one single 
act issues that have prevailed for over a century and a half. 
This approach is also tremendously cost-efficient. Last year a 
BLM spokeswoman for their Nevada field office said, and I 
quote, trying to figure out how many properties may be in 
trespass and revolving discrepancies on a case-by-case basis 
would be a monumental task. She goes on to say, these issues 
extend back to the mid-1800s, and finding solutions would be at 
a cost of probably millions of dollars and several years, end 
quote.
    And that is why we are here today, to speak in full support 
of H.R. 1167. It is a logical, simple act that will restore 
property rights to Storey County citizens as the rightful 
owner.
    Mr. Chairman, committee members, and especially committee 
staff as well, who have been great to work with, we urge you to 
support and help us with H.R. 1167.
    I would be happy to answer any questions. Thank you.
    Mr. Amodei. Thank you, Mr. Whitten.
    [The prepared statement of Mr. Whitten follows:]
   Prepared Statement of Pat Whitten, County Manager, Storey County, 
                                 Nevada

                 H.R. 1167--Restoring Storey County Act

    Mr. Chairman, Ranking Member Grijalva, and distinguished members of 
the Subcommittee on Public Lands and Environmental Regulation, thank 
you for the honor and opportunity to testify before you today in 
support of H.R. 1167, the Restoring Storey County Act, introduced by 
Congressman Mark Amodei.
    I am Pat Whitten. I serve as the appointed County Manager for the 
local governing board of Storey County Commissioners in Nevada, and 
joining me today is Commissioner Marshall McBride, Vice Chairman of the 
Storey County Board of Commissioners. The Board of County Commissioners 
resolved to support H.R. 1167 by unanimous vote on April 2, 2013.
    Storey County is the smallest of 17 counties in the State of 
Nevada. Our history is rich and dates back to the days preceding our 
admission into the Union as America's 36th State in 1864. In the late 
1850s, Virginia City and the surrounding areas began its origin and 
boom when miners discovered substantial amounts of underground gold, 
and also the Country's first major silver deposits. Monies gained from 
the gold and silver mines are said to have financed the Union's efforts 
during the Civil War and built San Francisco.
    After the decline of mining in the late 1800s, there were a handful 
of brief upturns, but overall, life became very quiet on the Comstock. 
Fast forward to the dawning of the 1960s when two parallel events 
converged to bring us into our modern day history. First, on July 4, 
1961, the National Park Service granted our request and established the 
Comstock Historic District as one of the Nation's largest historic 
districts ever designated. This was truly monumental in preserving and 
protecting the Comstock's mining heritage and history. At almost the 
same time, NBC aired a television series known as Bonanza. Running for 
14 seasons and continuing in syndication today, Virginia City quickly 
became re-discovered as the town the Cartwrights rode into before they 
trekked back to the Ponderosa Ranch on the shores of Lake Tahoe. From 
our town's perspective, it was a dream come true and today, almost 2 
million visitors from around the world come to Virginia City to walk 
our streets and boardwalks where the Cartwrights once roamed.
    Virginia City and Gold Hill are located about 30 mountain miles in 
between our State capitol, and Reno. As far back as 1864, people have 
bought, sold, leased, rented, improved and/or built buildings for both 
commercial and residential purposes within the Virginia City and 
adjacent Gold Hill communities. Under normal circumstances, this would 
pose no issue or concern. However, errors and omissions throughout our 
history creates severe detrimental impact on approximately 75 percent 
of the land parcels in Virginia City and almost 100 percent of those in 
Gold Hill.
    In 1867, the General Land Office Survey of the Virginia City 
Townsite was approved. Unfortunately, subsequent requisite actions were 
never completed and no Federal patent was ever issued for the townsites 
of Virginia and Gold Hill. Without issuance of such patent, proper 
ownership of surface rights within the townsites fell and continue to 
fall under question as to who actually owns the land upon which many of 
our citizens have purchased in good faith, and paid taxes on for 
decades. Not only does this create a situation where hundreds of 
residents might be considered to be trespassing on Federal Government 
land, the end result is what is typically termed as a clouded title 
issue where individuals wishing to buy or sell real property cannot 
because of insurmountable challenges in obtaining standard title 
insurance. This occurs when local and national land title underwriters 
move in and out of the market based on their risk comfort levels 
regarding true ownership of the property. This frequently occurs and 
results in a substantially reduced field of perspective insurers. It is 
critical to note that our issues lie only with ascertaining and 
resolving surface rights and do not involve any sub-surface mineral 
rights.
    As predominant trustees of Federal Lands in Nevada, the Bureau of 
Land Management has the unenviable task of dealing with the 
repercussions from these historic events. Over the last two decades, 
they have proactively worked with our local government officials to 
develop both short and long term solutions. I want to stress that at 
all levels of their organization, BLM has not only been good to work 
with . . . they've been GREAT. But, like any Federal, State or local 
government; they are bound by their own policies and of course, the law 
of the land. Simply stated, BLM cannot rectify this problem without 
authorization from Congress. Individuals wishing to fully and clearly 
obtain unclouded surface title rights would have to petition Congress 
separately under a large scale series of mini ``Land Acts''. Within 
their respective levels of authority, they have encouraged us to 
continue to find permanent solutions to clarify and rectify property 
ownership issues. We therefore turned to our Congressional 
Representatives and were fortunate to capture the interests of 
Congressman Amodei who was familiar with our problem based on his 
background as a Nevada State Senator and lawyer. Congressman Amodei has 
developed a simplified, streamlined approach to cure this centuries-old 
issue. It is, in essence:

  Give any interest the U.S. Government has in surface rights regarding 
    the impacted properties to the local government for proper 
    reparation and release to the respective lawful owners.

    Storey County has drafted its own simplified process to pass 
through any ownership rights via quit claim deed to the estimated 1,285 
individual property owners on a low-to-no cost basis. Approximately 
1,705 acres are constituted in our request and we have asked for 
inclusion of 40 additional acres in the contiguous community of Mark 
Twain covering 4 additional residential parcels that have been impacted 
due to conflicting surveys. H.R. 1167 would rectify and enable, in one 
single act, issues that have prevailed for over a century and a half. 
This approach is immeasurably cost efficient. In fact, a BLM 
spokeswoman from their Nevada State Field Office was quoted as saying:

  Trying to figure out how many properties may be in trespass and 
    resolving discrepancies on a case-by-case basis would be a 
    monumental task. These issues extend back to the mid-1800s, and 
    finding solutions would be at a cost of probably millions of 
    dollars and several years. (1)

    And that is why Commissioner McBride and I have traveled here today 
. . . to speak in full support of H.R. 1167 and ask for your support as 
well. It is a logical, simple act that will once and for all restore 
property rights to the people of Storey County as the rightful owners 
and end over a century and a half of confusion and frustration.
    Mr. Chairman and Congressmen; we thank you for your time and 
interest and urge this committee to support H.R. 1167, the Restoring 
Storey County Act. I am happy to answer any questions you might have or 
provide additional information.
                                 ______
                                 
    Mr. Amodei. Ms. McMillan, welcome to low altitude, and 
please proceed with your testimony.

  STATEMENT OF KRISTIN McMILLAN, CEO AND PRESIDENT, LAS VEGAS 
                   METRO CHAMBER OF COMMERCE

    Ms. McMillan. Mr. Chairman, Ranking Member, and 
subcommittee, thank you very much for the opportunity to 
testify here today in support of H.R. 2015.
    Mr. Chairman, I might start out by saying that we are now 
the Las Vegas Metro Chamber of Commerce, so I am happy to 
report that we represent both north and south as part of one 
big, happy partnership.
    Mr. Amodei. Thank you for including the people to the south 
of North Las Vegas in your efforts.
    Ms. McMillan. I want to first thank Congressman Horsford 
for introducing this legislation, and also Congressman Amodei, 
and Congresswoman Titus and Congressman Heck for cosponsoring 
this bill. We also want to thank Congressman Amodei for 
sponsoring H.R. 1167 and H.R. 1633. These bills are important 
to our State's economic development as well.
    So it is an honor for me to speak here today on behalf of 
over 5,500 employers in southern Nevada that comprise the Las 
Vegas Metro Chamber of Commerce. This represents close to a 
quarter of a million employees in southern Nevada. These are 
businesses in diverse industries, of diverse size. Over 85 
percent of our businesses are small businesses. And for over 
100 years the mission of the Las Vegas Chamber of Commerce has 
been to promote a strong, healthy, and diversified economy, and 
over those 100 years, we have grown to be not only the largest 
business association in the State of Nevada, but also the third 
largest Metro Chamber in the United States.
    And I have only been here for about 2\1/2\ years in this 
position. I was one of those 5,500 members of the business 
community 2 years ago. I have been in Las Vegas for 24 years. I 
have been in business all that period of time. I was CEO of a 
company there. I was a volunteer Chairman of the Chamber of 
Commerce at one point in time. And while in private industry I 
did firsthand witness the devastation that we experienced that 
was delivered as a result of the recession, and as I was asked 
to step up into this role, I can say that I took it on with a 
commitment, a proud commitment, to be able to work with other 
organizations in the Las Vegas community as well as our local 
governments to help rebuild our economy. And I think it is our 
job to singularly focus on creating and maintaining good jobs 
in our community.
    Now, we are making some progress, but Las Vegas still, 
unfortunately, has an unemployment rate among the highest in 
the country. It is currently at 9.7 percent, and, as recently 
reported, we have only been able to recover about a third of 
the jobs that we lost during the recession.
    So our job--and I am looking to my colleagues as well--is 
to look at every viable opportunity to rebuild our economy and 
to put people back to work. And this is one of those 
opportunities. H.R. 2015 presents a very unique and balanced 
opportunity whereby the preservation of our past can be an 
economic driver of the future, an opportunity to create jobs 
and expand our community.
    Congressman Horsford, you highlighted in a very good way 
many of the benefits of this legislation. I am not going to 
repeat those. I just want to focus and highlight a couple of 
the areas.
    First of all, preservation of natural history. This has 
been referred to as mammoth heaven. This is an opportunity to 
protect unique ice age fossils, enabling public education for 
generations to come and scientific research. We know that there 
have been geologists from the University of Arizona as well as 
archaeologists from California that have been studying these 
fossil beds for many, many years, and it has taken them a 
while, but they have developed a case for preservation and 
curation of these important natural resources.
    The second thing is it creates economic opportunities for 
our core industry in Nevada, and that is tourism. This site is 
located, as you know, in close proximity to one of the world's 
most popular tourist destinations, that being Las Vegas. Almost 
40 million people visited southern Nevada last year. That 
generated about a $45 billion economic impact in southern 
Nevada, supporting about 400,000 jobs, or about 47 percent of 
our workforce locally. So tourism remains and will continue to 
be a major driver in our community. We are continually looking 
for ways to capitalize on ways to diversify within that core 
industry, and particularly when it comes to job creation.
    I might add that international tourism has become a 
significant focus for southern Nevada, as it has in other areas 
of the country. You probably know that inbound travel into the 
United States is the number one service export. The U.S. Travel 
Association in 2012 reported that nearly half of the 
international visitors to Las Vegas sought out nearby areas of 
historical or ecological significance to visit, such as Grand 
Canyon, Hoover Dam, Death Valley, Zion, Bryce Canyon. So this 
is going to add to the mix of those opportunities to diversify 
within the tourism sector and really points out that the 
popularity of ecotourism is really on the rise.
    In that vein, this bill also enables us to plan for our 
future, because it provides for land for flood protection in 
preparation of the proposed Southern Nevada Supplemental 
Airport, which, of course, is designed to accommodate an 
increase in travel.
    In terms of general economic development, my colleagues 
will testify more to that area, but the creation of economic or 
commercial zones, development zones will enable the local 
communities, who will take upon themselves to determine the 
best uses of this land, of this Federal land, for jobs and for 
economic creation opportunities.
    It also provides, very importantly, land to UNLV, the 
University of Nevada-Las Vegas, as well as the Community 
College of Southern Nevada to expand their influence and their 
reach within our community.
    I want to take just a moment to reiterate the broad 
community support that Congressman Horsford talked about. Many 
community organizations have been at the forefront of 
championing this designation. Long-time community leaders Helen 
Mortenson and Thalia Dondero have tirelessly dedicated their 
efforts to educate our community through the Las Vegas Ice Age 
Park Foundation. Also thanks to another community group, The 
Protection of Tule Springs, that is just another example of a 
community organization that has come forward with tireless 
support for this initiative.
    The designation has the support, as you know, of State 
government, of local governments, the Las Vegas Paiute Tribe, 
Nellis Air Force Base, and even the local utilities in southern 
Nevada support preservation of the utility corridors for 
economic development and renewable energy components associated 
with the bill.
    The bill is widely supported because it makes sense. It 
strikes the right balance among preservation, education and 
economic development, and presents a very unique and balanced 
opportunity where the preservation of our past can be an 
economic driver of our future.
    So, in conclusion, we would ask for and appreciate your 
support in a vote on this legislation. Thank you very much, Mr. 
Chairman, members of the subcommittee, for your time, for your 
consideration, and for the honor of testifying in front of this 
subcommittee.
    Mr. Amodei. Thank you.
    [The prepared statement of Ms. McMillan follows:]
 Prepared Statement of Kristin McMillan, CEO and President, Las Vegas 
                       Metro Chamber of Commerce

 H.R. 2015--Las Vegas Valley Public Land and Tule Springs Fossil Beds 
                     National Monument Act of 2013

    Chairman Bishop, Ranking Member Grijalva, members of the 
subcommittee, thank you for the opportunity to be here today. It is an 
honor for me to speak to you on behalf of the Las Vegas Metro Chamber 
of Commerce's 5,500 member businesses representing diverse sectors 
within the economy and who employ more than 230,000 employees in 
southern Nevada. 85 percent of our members are small businesses.
    Founded in the early days of Las Vegas, the Metro Chamber has a 
strong legacy of protecting and strengthening the southern Nevada 
business community, helping its member businesses grow and thrive, and 
providing a voice for those employers and employees in local, State and 
Federal Government for over 100 years. Today, the Las Vegas Metro 
Chamber of Commerce is one of the largest metropolitan chambers of 
commerce in the United States.
    The Las Vegas Metro Chamber of Commerce is committed to serving and 
supporting the entire Las Vegas metropolitan area. Its mission is to 
promote a strong and diversified economy that will attract new 
businesses and industries, enable existing businesses to expand, and 
create good jobs and opportunities for all who call southern Nevada 
home.
    As a member-based organization focused on regional policy issues, I 
appreciate the opportunity to testify in support of H.R. 2015, the Las 
Vegas Valley Public Land and Tule Springs Fossil Beds National Monument 
Act. I want to thank Congressman Horsford for introducing this 
legislation and Congressman Amodei, Congresswoman Titus and Congressman 
Heck for co-sponsoring this bill. I thank each of Nevada's House 
Members for their bi-partisan efforts to introduce this bill and to 
build support for this important land bill that will not only benefit 
southern Nevada but the entire southwest region.
    Land bills such as H.R. 2015 are an important component to the 
success of a vibrant and diversified economy to regions such as 
southern Nevada. This is true for many metropolitan cities throughout 
the western portion of the United States. Our State currently has an 
unemployment rate of 9.5 percent, among the highest in the country. We 
at the Metro Chamber have a responsibility to our employers and their 
employees to support bills such as H.R. 2015 because it would give us 
the enabling legislation to bring needed positive change to our region. 
This bill represents a unique opportunity where the preservation of our 
past can be the economic driver of our future.
    For the Metro Chamber, this bill would accomplish several 
objectives: preservation of our irreplaceable natural history; 
expansion of educational opportunities for our children and scientists; 
utilization of land for research, Nellis Air Force Base and outdoor 
recreation; and creation of much needed jobs for our community. This 
bill is broadly supported by the entire State of Nevada, including the 
business community. The Nevada State Legislature passed a resolution in 
support of this designation earlier this year.
    I want to highlight just a few of the many benefits:
    First, this bill will preserve a significant area of natural 
history. The Las Vegas Valley has one of the largest collections of 
fossils from the Pleistocene Epoch Period, or the ice age, in the 
northern edge of our valley. Archaeologists and scientists have been 
exploring this area for almost a century because of the vast amounts of 
fossil remains in the area. To date, almost 10,000 fossils have been 
removed and stored in facilities in San Bernardino, California. Some 
experts suggest that these finds only represent 1 percent of the 
fossils that could be potentially located in the Las Vegas Upper Wash. 
The educational lessons that can be learned from these fossils are 
countless and priceless.
    The preservation value, educational benefits and economic benefit 
that would be gained has the potential to be an economic game changer 
for our eco-tourism industry in southern Nevada. For example, this bill 
will provide 1,211 acres for a park for off-roaders, which is part of 
10,000 acres allocated for recreation. The creation of this park has 
the potential to be a major tourism draw for off-road enthusiasts in 
the Southwest. This bill also provides additional acreage to the Red 
Rock National Conservation Area, which is a natural treasure in 
southern Nevada. Both of these provisions support economic development 
and preservation in their respective manner.
    Second, this designation would create economic opportunities. Las 
Vegas is often referred to as the Entertainment Capital of the World 
because of its spectacular hotels, fine dining and breathtaking shows. 
According to the Las Vegas Convention and Visitors Authority, almost 40 
million people visited southern Nevada last year and tourism generates 
a $45 billion economic impact in southern Nevada, which in turn 
supports almost 400,000 jobs or about 47 percent of the local 
workforce. Tourism remains the driver of our economy and we are 
continually looking for ways to capitalize on this core industry, 
particularly when it comes to job creation.
    Third, this bill will help economic development in our metropolitan 
area. While the bill will preserve some Federal land, it also gives 
Bureau of Land Management land back to the community for developmental 
purposes. The city of Las Vegas would receive 660 acres and the city of 
North Las Vegas would receive 645 acres for commercial development 
purposes. These additional lands would allow for the cities of Las 
Vegas and North Las Vegas to recruit new businesses to come to their 
communities and facilitate the expansion of existing businesses. This 
will result in new jobs for our region, additional revenue to the local 
tax base and the expansion of economic diversification efforts.
    Fundamentally, this bill allows us to plan for our future because 
it would provide Clark County with 2,320 acres near Primm, Nevada for 
flood protection in preparation of the proposed Southern Nevada 
Supplemental Airport.
    The Metro Chamber is also a strong advocate for higher education in 
Nevada and supports the provisions of the bill that would provide 
acreage to the University of Nevada, Las Vegas (UNLV), College of 
Southern Nevada and Great Basin College in Northern Nevada. This 
provision will allow UNLV to create a new regional campus to further 
serve the needs of our community. Currently, UNLV's main campus has 335 
acres, which services more than 28,000 students and 3,100 faculty and 
staff. The additional parcels would allow them to expand educational 
opportunities for the students in our state, create new programs and 
recruit new faculty to our state's largest public institution of higher 
education.
    The Metro Chamber is also a partner in supporting the men and women 
serving in our military and works closely with the leadership at Nellis 
Air Force Base. This legislation recognizes and protects the important 
role that Nellis Air Force Base plays in our national security 
interests through the provisions regarding the military over flights. 
Nellis Air Force Base is an important part of our community and we need 
to help preserve their ability to continue their military objectives. 
We believe this bill preserves the mission of Nellis Air Force Base, 
while balancing the efforts between preservation, economic development 
and military needs.
    The bill designates a qualified electric utility corridor with a 
400-foot right of way for the construction of a high-voltage 
transmission facility and a 100-foot right of way for the construction 
of a buried water conveyance pipeline. The local utilities in southern 
Nevada support the preserving of the utility corridor for economic 
development and renewable energy components associated with the bill.
    In addition to the support of our employers and their families, the 
designation of this area as a national monument has the support of 
local government entities such as the city of Las Vegas, city of North 
Las Vegas, Clark County and the Las Vegas Paiute Tribe and shows the 
broad support that this bill has in our community.
    Many community organizations have been at the forefront of 
championing this designation. Long-time community leaders Thalia 
Dondero and Helen Mortensen have tirelessly dedicated their efforts to 
educate our community about this important treasure in southern Nevada 
through the Las Vegas Ice Age Park Foundation. This group has actively 
advocated for the passage of this legislation because of the historical 
preservation value, the curating of the fossils and educational 
research opportunities associated with this site.
    As we continue to rebuild our economy and tackle the many 
challenges ahead, now, more than ever, your support of H.R. 2015 
matters a great deal to the people of southern Nevada. If we can secure 
the designation of this area for a national monument, we will preserve 
fragile parts of our world's natural history, while providing a 
catalyst to create jobs, put people to work while sparking the fire for 
innovation and interest in the minds of students. Your interest, your 
vision and your commitment matter to the residents of southern Nevada. 
Thank you for your time and consideration, and for the honor of 
testifying in front of the subcommittee. Thank you, Mr. Chairman and 
members of the subcommittee.
                                 ______
                                 
    Mr. Amodei. Your Honor.

     STATEMENT OF JOHN LEE, MAYOR, CITY OF NORTH LAS VEGAS

    Mr. Lee. Co-Chair Amodei, Cochair Horsford, friends, for 
the record my name is John Lee, and I am the Mayor of the city 
of North Las Vegas. I appreciate the opportunity to testify 
today in support of H.R. 2015 and the Las Vegas Valley Public 
Land and Tule Springs Fossil Beds National Monument Act of 
2013.
    The legislation before us today enjoys the bipartisan 
support of the entire Nevada congressional delegation. I would 
like to thank Representative Steven Horsford, my Congressman 
and former colleague in the legislature, for his leadership on 
this legislation. I would also like to thank Senator Majority 
Leader Harry Reid and Dean Heller for all their hard work in 
crafting what I believe is the most significant public lands 
legislation in southern Nevada for over a decade.
    H.R. 2015 designates over 22,000 acres of Federal land in 
the northern part of Las Vegas Valley as a national monument. A 
significant portion of this acreage lies within the city of 
North Las Vegas. The city has worked closely for the past 
several years with Clark County, the city of Las Vegas, Nellis 
Air Force Base, local conservation groups and business 
communities to develop a consensus boundary for the monument 
that balances our desire for resource protection and our future 
plans for economic development.
    H.R. 2015 not only establishes a unique urban national 
monument, the bill creates opportunities for job creation and 
economic development. As policymakers I am sure you hear the 
buzz words in almost every hearing; however, H.R. 2015 provides 
critical economic development opportunities for our city.
    The bill includes over 1,300 acres set aside for job-
creation zones to be used by the city of North Las Vegas and 
Las Vegas. Additionally, the urban national monument 
established by H.R. 2015 will provide a tremendous benefit to 
our tourist-dependent region. Our national parks attract over 
350 million domestic and international visitors each year. We 
believe this new monument will appeal to a percentage of the 
40-million-plus visitors southern Nevada hosts each year, in 
addition to attracting new visitors to our region. Our 
financially struggling communities could benefit from the fact 
that national park units typically generate at least $10 for 
nearby gateway communities for every dollar invested.
    North Las Vegas has struggled financially. One of our ZIP 
codes is nationally ranked as one of the top 10 for worst rates 
of home foreclosures. As the new Mayor of North Las Vegas, I 
believe H.R. 2015 is a gigantic step in the right direction 
toward our region's economic recovery. I believe the 
establishment of the Tule Springs Fossil Beds National Monument 
will serve the dual purpose of protecting nationally 
significant paleontology resources and promoting economic 
development and tourism in North Las Vegas.
    North Las Vegas is a diverse minority-majority city largely 
comprised of a vibrant Hispanic community, and the monument 
will be a place for our schoolchildren to visit and learn 
firsthand about our Nation's and Nevada's natural history. The 
location of the monument on the border of a large Hispanic 
community provides one possible exclusion to the National Park 
Service's widely publicized effort to attract more minorities. 
The Service's commissioned report found that only 1 in 10 of 
its visitors are Hispanic, the Nation's fastest-growing 
demographic group. H.R. 2015 establishes an urban national 
monument that can act as a gateway for attracting 
nontraditional visitors to our national parks.
    While the national monument is clearly a focal point of 
H.R. 2015, there are several other provisions of the 
legislation as important to the future growth and development 
to the city of North Las Vegas. Section 4 of the bill conveys 
645 acres of BLM land to the city for economic development 
purposes. The land is adjacent to the proposed UNLV North 
Campus, and a conveyance would allow the city to master-plan 
develop this area to provide ancillary services that support 
the mission of this new campus.
    Section 8 of the bill expands the Southern Nevada Public 
Lands Management Act disposal boundary for BLM-managed lands in 
North Las Vegas. The city intends to nominate these parcels for 
sale for the industrial development at a future BLM auction and 
thereby increase our local tax base by converting Federal lands 
into private ownership. We anticipate that hundreds of jobs 
will be created as a result of this industrial development.
    North Las Vegas is home of Nellis Air Force Base, and the 
city is proud to be home of many airmen and civilians who work 
at the base. The city has gone to great lengths to work with 
Nellis to develop joint land-use plans to allow for responsible 
development by the city while protecting the base from 
encroachment that would threaten its training mission. The city 
supports the provisions of the bill addressing military 
overflights, the transfer of BLM land to the Air Force to 
protect the important mission of Nellis.
    H.R. 2015 also creates an economic opportunity by 
establishing the Nellis Dunes Off-Highway Vehicle Recreation 
Area for outdoor enthusiasts. The city supports Clark County's 
effort to establish the Nellis Dunes area on BLM land on the 
northeast side of Las Vegas Valley. Our community is in 
desperate need of these dedicated areas for this type of 
recreational activity. Since the city would be responsible for 
providing certain utility services to this area, we are pleased 
that the legislation provides for a memorandum of understanding 
between the city and Clark County before any economic 
development may occur in this recreation area.
    Mr. Chairman, like many other communities, the city of 
North Las Vegas has had its share of challenges over the past 4 
years. As we focus on the future, I believe the establishment 
of the Tule Springs Fossil Beds National Monument will bring a 
tremendous benefit to North Las Vegas. H.R. 2015 is a critical 
piece of legislation that will protect an area that is 
currently subject to vandalism and unauthorized road vehicle 
use. It will provide a new destination for our visitors of 
southern Nevada, and will provide North Las Vegas residents 
with the sense of pride shared by all communities and are 
fortunate enough to have the National Park Service as our 
neighbor. I urge you to support this important piece of 
legislation, and thank you for giving me the opportunity to 
testify.
    On a personal note I would like to thank both you gentlemen 
for what you are doing for our community and for our State. You 
are definitely a tribute to the things that we taught you in 
the Nevada Senate, and you are edifying that education, and I 
am very proud to call you friends and great Nevadans.
    Thank you, Mr. Chairman.
    Mr. Amodei. Well, thank you very much, Your Honor.
    [The prepared statement of Mr. Lee follows:]
 Prepared Statement of John Lee, Mayor, City of North Las Vegas, Nevada

 H.R. 2015--Las Vegas Valley Public Land and Tule Springs Fossil Beds 
                     National Monument Act of 2013

    Chairman Bishop, Ranking Member Grijalva, and members of the 
committee, my name is John Lee, and I am the Mayor of the city of North 
Las Vegas. I appreciate the opportunity to testify today in support of 
H.R. 2015, the Las Vegas Valley Public Land and Tule Springs Fossil 
Beds National Monument Act of 2013.
    The legislation before us today enjoys the bipartisan support of 
the entire Nevada congressional delegation. I would like to thank Rep. 
Steven Horsford, my Congressman and former colleague in the Nevada 
Legislature, for his leadership on this legislation. I would also like 
to thank Senate Majority Leader Harry Reid and Senator Dean Heller for 
all of their hard work in crafting what I believe to be the most 
significant public land legislation for southern Nevada in over a 
decade.
    H.R. 2015 designates over 22,000 acres of Federal land in the 
northern part of the Las Vegas Valley as a national monument. A 
significant portion of this acreage lies within the city of North Las 
Vegas. The city has worked closely for the past several years with 
Clark County, the city of Las Vegas, Nellis Air Force Base, NV Energy, 
local conservation groups, and the business community to develop a 
consensus boundary for the monument that balances our desire for 
resource protection with our future plans for economic development.
    H.R. 2015 not only establishes a unique urban national monument, 
the bill creates opportunities for job creation and economic 
development. As policymakers, I am sure you hear these buzz words in 
almost every hearing; however, H.R. 2015 provides critical economic 
development opportunities for our city. The bill includes over 1,300 
acres set aside for job creation zones to be used by the city of North 
Las Vegas and Las Vegas.
    Additionally, the urban national monument established by H.R. 2015 
will provide a tremendous benefit to the tourist dependent region. Our 
national parks attract over 350 million domestic and international 
visitors each year. We believe this new monument will appeal to a 
percentage of the 40 million-plus visitors southern Nevada hosts each 
year, in addition to attracting new visitors to our region. Our 
financially struggling community could benefit from the fact that 
national park units typically generate at least $10 for nearby gateway 
communities for every dollar invested. North Las Vegas has struggled 
financially, one of our zip codes is nationally ranked as one of the 
top 10 for worst rates of home foreclosures, and as the new Mayor of 
North Las Vegas, I believe H.R. 2015 is a gigantic step in the right 
direction toward are regions economic recovery.
    I believe the establishment of the Tule Springs Fossil Beds 
National Monument will serve the dual purpose of protecting nationally 
significant paleontological resources and promoting economic 
development and tourism in North Las Vegas. North Las Vegas is a 
diverse minority-majority city largely comprised of a vibrant Hispanic 
community, and the monument will provide a place for our school 
children to visit and learn first hand about our Nations and Nevada's 
natural history. The location of the monument on the boarder of a large 
Hispanic community provides one possible solution to the National Park 
Service's widely publicized efforts attract more minorities. The 
Service's commissioned reports found only 1 in 10 of its visitors are 
Hispanic--the Nation's fastest-growing demographic group. H.R. 2015 
establishes a urban national monument that can act as a gateway for 
attracting nontraditional visitors into our national parks.
    While the national monument is clearly the focal point of H.R. 
2015, there are several other provisions of this legislation as 
important to the future growth and development of the city of North Las 
Vegas. Section 4 of the bill conveys 645 acres of BLM land to the city 
for economic development purposes. The land is adjacent to the proposed 
UNLV North Campus, and the conveyance would allow the city to master 
plan and develop this area to provide ancillary services that support 
the mission of the new campus. Section 8 of the bill expands the 
Southern Nevada Public Land Management Act disposal boundary for BLM-
managed lands in North Las Vegas. The city intends to nominate these 
parcels for sale for industrial development at a future BLM auction. 
and thereby increase our local tax base by converting Federal land into 
private ownership. We anticipate that hundreds of jobs will be created 
as a result of this industrial development.
    North Las Vegas is the home of Nellis Air Force Base, and the city 
is proud to be the home of many airmen and civilians who work on the 
base. The city has gone to great lengths to work with Nellis to develop 
joint land use plans that allow for responsible development by the city 
while protecting the base from encroachment that could threaten its 
training mission. The city supports the provisions in the bill 
addressing military overflights and the transfer of BLM land to the Air 
Force to protect the important mission of Nellis.
    H.R. 2015 also creates economic opportunities by establishing the 
Nellis Dunes Off-Highway Vehicle Recreation Area for outdoor 
enthusiasts. The city supports Clark County's effort to establish the 
Nellis Dunes Area on BLM land on the northeast side of the Las Vegas 
Valley. Our community is in desperate need of a dedicated area for this 
type of recreational activity. Since the city would be responsible for 
providing certain utility services to this area, we are pleased that 
the legislation provides for a Memorandum of Understanding between the 
city and Clark County before any economic development may occur near 
the recreation area.
    Mr. Chairman, like many communities, the city of North Las Vegas 
has had its share of challenges over the past 4 years. As we focus on 
the future, I believe the establishment of the Tule Springs Fossil Beds 
National Monument will bring tremendous benefits to North Las Vegas. 
H.R. 2015 is a critical piece of legislation that will protect an area 
that is currently subject to vandalism and unauthorized off-road 
vehicle use. It will provide a new destination for visitors to southern 
Nevada, and it will provide North Las Vegas residents with the sense of 
pride shared by all communities that are fortunate enough to have the 
National Park Service as a neighbor.
    I urge your support for this important legislation, and I thank you 
for giving me the opportunity to testify today.
                                 ______
                                 
    Mr. Amodei. That is the good news. The bad news is for the 
Councilman from the city of North Henderson, between Kristin 
and John, they used all of your time, so----
    Mr. Ross. I recognize that, Mr. Chairman.
    Mr. Amodei. But on behalf of the city of Las Vegas, please 
proceed, Mr. Ross.

 STATEMENT OF STEVE ROSS, COUNCILMAN, CITY OF LAS VEGAS, WARD 6

    Mr. Ross. Thank you very much. I appreciate it.
    Good afternoon, Mr. Chairman, Ranking Member, and members 
of the committee. I am Las Vegas City Councilman Steve Ross, 
representing Ward 6 in the great Northwest, and fortunately my 
border borders a great deal of North Las Vegas, as you can 
tell.
    I am here today, of course, as we are here today, of 
course, to support and persuade you to support the Las Vegas 
Valley Public Land and Tule Springs Fossil Beds National 
Monument Act of 2013. I appreciate the opportunity to be here. 
It is actually quite an honor, because you are both Congressmen 
from Nevada, and my Congressman is sitting right there, 
Congressman Horsford. So, again, I want to echo what the mayor 
had said: Thank you for your service to our State.
    I also want to recognize the comments from Congressman Heck 
and Congresswoman Titus for their continued support of what we 
are trying to accomplish.
    And, Congressman Horsford, you probably remember when we 
were kids going out to Tule Springs Park and what it has turned 
into today, so it is just awesome to be here. This is a real 
home run for Nevada.
    Some key points I want to make, though, and you have heard 
them before, but I want you to hear them again. This bill has 
huge community support. It will create jobs, and it will 
conserve and preserve this very important resource we have in 
the desert. You have already heard it, and it is rare for an 
elected official to have the privilege to work on legislation 
that is being supported by so many organizations, especially in 
the southern Nevada community: NV Energy; Nellis Air Force 
Base; the Las Vegas Metro Chamber; elementary and high school 
educators; area colleges and universities, including University 
of Nevada-Las Vegas; the Public Lands Institute; and, of 
course, environmental and conservation groups. Representatives 
from these organizations, among others, are working closely 
with a group of concerned citizens that have developed public 
support for this bill. Ms. McMillan mentioned them. They are 
The Protectors of Tule Springs.
    The Board of Clark County Commissioners, the Las Vegas City 
Council, the North Las Vegas City Council, the Nevada State 
Legislature, and the Tribal Council of the Las Vegas Paiute 
Tribe unanimously passed resolutions urging Congress to pass 
legislation creating a national monument, and for the record, 
and with your permission, Mr. Chairman, I would like to submit 
those letters of support.
    Mr. Amodei. That is fine.
    [The letters and resolution submitted by Mr. Ross follows:]
    Letter Submitted for the Record by the City of Las Vegas, Nevada
                                495 S. Main Street,
                                  Las Vegas, Nevada, 89101,
                                                September 30, 2013.
The Honorable Rob Bishop,
Chairman,
U.S. House of Representatives,
Committee on Natural Resources,
Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

The Honorable Raul Grijalva,
Ranking Member,
U.S. House of Representatives,
Committee on Natural Resources,
Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva,

    On behalf of the city of Las Vegas, I write to whole-heartedly 
support the Las Vegas Valley Public Land and Tule Springs Fossil Beds 
National Monument Act of 2013 ( S. 974/H.R. 2015). We worked closely 
with the Nevada Congressional Delegation to designate the Tule Springs 
area as a National Monument in the 112th Congress, and we look forward 
to moving the bill forward in this Congress.
    As you may know, this legislation enjoys broad support in southern 
Nevada and would result in many mutually beneficial outcomes. The city 
of Las Vegas supports swift passage of S. 974/H.R. 2015 as it is 
imperative to protect paleontological and sensitive plant resources. We 
also believe that the legislation would create opportunities for 
economic development and job creation while providing for responsible 
urban development of adjacent lands, and allowing for necessary 
infrastructure to service existing developed areas.
    Again, we strongly support S. 974/H.R. 2015 and look forward to its 
successful passage.
            Respectfully,
                                               Steven Ross,
                                                   City Councilman,
                                 City of Las Vegas, Nevada, Ward 6.
                                 ______
                                 
 Letter Submitted for the Record by the City of Las Vegas and the City 
                       of North Las Vegas, Nevada
                                                      July 9, 2012.
The Honorable Mark E. Amodei,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Amodei:

    We are writing to express our support for H.R. 6072, the Las Vegas 
Valley Public Land and Tule Springs Fossil Beds National Monument Act 
of 2012. We believe this legislation reflects a well-balanced approach 
to public land management policy in the northern part of the valley, 
and we urge you to cosponsor this important measure.
    The legislation facilitates important economic development goals 
for the Cities by making surplus Federal land available for commercial 
development in accordance with local land use plans. The Cities expect 
the release of these lands to create thousands of jobs over the next 
decade.
    The legislation would achieve important conservation goals by 
establishing the Tule Springs Fossil Beds National Monument. Located at 
the northern edge of the Las Vegas Valley and within the boundaries of 
the Cities of North Las Vegas and Las Vegas (the ``Cities'') are the 
Tule Springs National Register Historic Site and an area known as the 
Upper Las Vegas Wash, a unique natural drainage channel that carries 
storm water from the surrounding mountains toward Lake Mead. Found 
within these areas are significant paleontological sites containing 
numerous fossils demonstrative of the Pleistocene Ice Age that span 
geologic history from 7,000 to nearly 200,000 years ago. These areas 
also contain endangered and imperiled plants such as the Merriam's and 
Las Vegas Bearpoppy and the Las Vegas Buckwheat, as well as important 
habitat for threatened species such as the desert tortoise and 
burrowing owls.
    Recognizing the significance of these areas, the mayors and city 
councils of the Cities unanimously passed a resolution, in 
collaboration with the Clark County Commission and the Tribal Council 
of the Southern Nevada Paiute Tribe, requesting that Congress designate 
the area surrounding Tule Springs and the Upper Las Vegas Wash a unit 
of the National Park Service. We believe a national monument is the 
appropriate designation.
    Due to the large number and variety of resources that are available 
for study and viewing within the area it is expected that the national 
monument would attract visitors from all over the world with a wide 
range of interests, including educational, scientific, cultural and 
recreational. The Cities have worked closely over the last 4 years with 
the Nevada Congressional Delegation and a broad range of stakeholders, 
including the U.S. Air Force, conservation groups, and NV Energy, to 
develop a boundary for the national monument that balances conservation 
and resource protection with the future growth needs of the Cities.
    The Cities appreciate all you do for southern Nevada, and we urge 
you to cosponsor this important public lands legislation for the 
benefit of current and future generations of Las Vegas Valley residents 
and visitors.
            Sincerely,
                                 Carolyn G. Goodman, Mayor,
                                                 City of Las Vegas.
                                         Shari Buck, Mayor,
                                           City of North Las Vegas.
                                 ______
                                 
Letter Submitted for the Record by the City of Las Vegas, City of North 
                        Las Vegas and NV Energy
                                                    March 28, 2011.
The Honorable Harry Reid,
U.S. Senate,
Washington, D.C. 20510.

    Dear Senator Reid:

    The cities of North Las Vegas and Las Vegas, in collaboration with 
NY Energy, have met to discuss the creation of a unit of the National 
Park Service in the area surrounding the Upper Las Vegas Wash. All 
parties are in complete agreement on (1) the need for legislation to 
make the area surrounding Tule Springs and the Upper Las Vegas Wash a 
unit of the National Park Service, and (2) that there is a proposal for 
a transmission corridor across the northern part of the valley linking 
NY Energy's Northwest Substation and the Harry Allen Generating 
Station, and legislation should accommodate a transmission/utilities 
corridor that would adhere to all applicable local, State and Federal 
regulations.
    Legislation making these unique and significant areas a unit of the 
National Park Service will result in mutually beneficial outcomes, 
including:

  <bullet> Protect paleontological and sensitive plant resources,
  <bullet> Create opportunities for economic development and job 
        creation by attracting national and international visitors from 
        a wide range of interests including educational, scientific, 
        cultural and natural resources,
  <bullet> Provide for responsible and orderly urban development of 
        adjacent lands,
  <bullet> Allow for necessary infrastructure to service existing 
        developed areas and future development

    We would like to lend our support to moving forward with 
legislation designating the area a unit of the National Park Service.
    Thank you for your continued support of this important project.
            Sincerely,
                                      Shari L. Buck, Mayor,
                                           City of North Las Vegas.
                                   Oscar B. Goodman, Mayor,
                                                 City of Las Vegas.
                                        Michael W. Yackira,
                   President and Chief Executive Officer NY Energy.
                                 ______
                                 
Letter Submitted for the Record by the City of Las Vegas, City of North 
                  Las Vegas and Las Vegas Paiute Tribe
                                                  December 21, 2011
    To the editor:

    Earlier this mouth, more than 100 economists, including three Nobel 
Laureates, signed a letter to President Barack Obama urging Federal 
support to establish new protected areas such as national parks, 
wilderness areas and national monuments, particularly in the western 
part of the United States. Their reason: these projects have a 
substantial impact on economic growth and job creation.
    In southern Nevada, we have reaped tremendous economic and quality 
of life benefits from federally protected lands. Imagine how much 
benefit our residents and visitors get out of such public wonderlands 
as Lake Mead National Recreation Area, the Red Rock Conservation Area, 
and Mount Charleston and Lee Canyon in the Toiyabe Forest. We have 
another national treasure that has the same potential to be a major 
local and national attraclion--the proposed Tule Springs National 
Monument that encompasses the length or the entire northern section of 
the Las Vegas Wash.
    Not only is this site tilled with potential recreational benefit, 
out this section of the Las Vegas Wash is also internationally 
recognized as one of the most significant fossil bed sites in North 
America depicting life in the Ice Age, a period covering more than 
200,000 years of climate change and biological adaptation. Fossils from 
prehistoric camels, woolly mammoths, giant sloths, lions and other 
animals have been unearthed at the site, along with fossils 
representing an abundance of marine and plant life
    Recently, 1,500 members of the Vertebrate Paleontological Society 
held their annual meeting in Las Vegas precisely because of its 
proximity to this incredible site. As reported in the Review-Journal, 
one participant neatly summed up the need for the area's protection: 
``It's a world-class fossil site. You can actually see how ecosystems 
have transitioned from warm climates to cold climates and back again 
through several ice ages.''
    As the elected leaders of our respective local and tribal 
governmental entities, we are urging our congressional delegation to 
come together and act quickly to establish this National Monument and 
to provide the resources to turn it into a world class visitor site. 
The economic and quality of life benefits are tremendous.
    As the economists' letter points out: ``Today, one of the 
competitive strengths of the West is the unique combination of wide-
open spaces, scenic vistas and recreational opportunities alongside 
vibrant, growing communities that are connected to larger markets via 
the Internet, highways and commercial air service. Increasingly, 
entrepreneurs are basing their business location decisions on the 
quality of life in an area. Businesses are recruiting talented 
employees by promoting access to beautiful, nearby public lands. This 
is happening in western cities and rural areas alike.''
    By protesting and creating recreational opportunities in our 
canyons, rivers, deserts and mountains, we also establish a unique and 
compelling environment that plays a pivotal role in attracting and 
retaining people and businesses. Public lands, such as the proposed 
Tule Springs National Monument, support activities like hunting, 
fishing and hiking that improve our quality of life, attracting 
visitors and supporting economic growth.
    We encourage Senator Reid, Senator Heller, Congresswoman Berkley, 
Congressman Heck and Congressman Amodei to join together and move for a 
swift action. We have a golden opportunity to do something today that 
will have immediate impact and that will positively affect generations 
to come.
            Sincerely,
                                 Carolyn G. Goodman, Mayor,
                                                 City of Las Vegas.
                                      Shari L. Buck, Mayor,
                                           City of North Las Vegas.
                                  Tonia Means, Chairperson,
                                            Las Vegas Paiute Tribe.
                                 ______
                                 
 Letter Submitted for the Record by the City of Las Vegas and the City 
                           of North Las Vegas
                                                  November 19, 2010
Honorable Harry Reid,
U.S. Senate,
Washington, D.C. 20510-2803
    Dear Senator Reid:

    As you are aware, the mayors and city councils of the cities of 
North Las Vegas and Las Vegas unanimously passed a resolution, in 
collaboration with the Clark County Commission, and the Tribal Council 
of the Southern Nevada Paiute Tribe, requesting that Congress make the 
area surrounding Tule Springs and the Upper Las Vegas Wash a unit of 
the National Park Service, with a land management designation that is 
appropriate for the protection of the resources and that would be 
managed by the National Park Service.
    Due to the large number and variety of resources that are available 
for study and viewing within the area it is expected that the proposed 
National Park Service unit would attract visitors from a wide range of 
interests including educational, scientific, cultural and natural 
resources, and it is anticipated that visitors will be attracted from a 
broad geographical area; from local to international.
    The cities have, and continue to work diligently with all 
interested parties, including NV Energy, and are confident that 
resolution of all outstanding issues in regard to proposed legislation 
will be achieved in the near future.
    The cities look forward to the legislation that will make these 
unique and significant areas a unit of the National Park Service. We 
thank you for your support and appeal to you to advance the legislation 
that will ultimately establish this national park monument.
            Sincerely,
                            Honorable Shari L. Buck, Mayor,
                                           City of North Las Vegas.
                          Honorable Oscar B. Goodman, Mayor
                                                  City of Las Vegas
                                 ______
                                 
          Assembly Joint Resolution No. 1--Assemblyman Aizley
ASSEMBLY JOINT RESOLUTION--Expressing the support of the Nevada 
        Legislature for the designation of the Upper Las Vegas Wash as 
        a national monument.

        WHEREAS, The Upper Las Vegas Wash contains thousands of 
Pleistocene mammal fossils of national importance, including Columbian 
mammoth, ground sloth, American lion, camel and horse fossils; and
      WHEREAS, Since 1933, the Upper Las Vegas Wash has been valued by 
scientists because of the significant paleontological fossils 
demonstrative of the Pleistocene epoch, commonly referred to as the ice 
age, that are located in the area; and
      WHEREAS, In 2004, during the preparation of the Las Vegas Valley 
Disposal Boundary Final Environmental Impact Statement, the Bureau of 
Land Management identified sensitive biological, cultural and 
paleontological resources determined to be worthy of more evaluation 
with respect to the protective status of the resources; and
      WHEREAS, The harsh desert environment of the Upper Las Vegas Wash 
supports unique and imperiled plants, including the Las Vegas 
buckwheat, Merriam's bearpoppy, Las Vegas bearpoppy, the halfring 
milkvetch, Joshua trees and several species of cacti; and
      WHEREAS, The Upper Las Vegas Wash provides important habitat for 
the threatened desert tortoise, endemic poppy bees, kit foxes, 
burrowing owls and a variety of reptiles; and
      WHEREAS, In 2010, a National Park Service reconnaissance survey 
of the area determined that the area likely contains the largest 
continuous section of Pleistocene strata in the desert southwest; and
      WHEREAS, The Upper Las Vegas Wash is significant to the culture 
and history of the native and indigenous people of the area, including 
the Southern Paiute Tribe; and
      WHEREAS, Despite the findings and recommendations of the 
aforementioned Environmental Impact Statement and reconnaissance 
survey, the Upper Las Vegas Wash remains inadequately protected; and
      WHEREAS, Many irreplaceable fossil specimens in the Upper Las 
Vegas Wash have been lost to vandalism or theft; and
      WHEREAS, Designation of the Upper Las Vegas Wash site as a 
national monument would protect the unique resources of the area for 
present and future generations while allowing for public education and 
continued scientific research opportunities; now, therefore, be it
      RESOLVED BY THE ASSEMBLY AND SENATE OF THE STATE OF NEVADA, 
JOINTLY, That the members of the 77th Session of the Nevada Legislature 
hereby recognize that the Upper Las Vegas Wash contains unique, 
nationally important biological, cultural and paleontological 
resources; and be it further
      RESOLVED, That to conserve, protect, interpret and enhance for 
the benefit of present and future generations these unique and 
nationally important resources, the Nevada Legislature expresses its 
support for the designation of the Upper Las Vegas Wash site as a 
national monument; and be it further
      RESOLVED, That the Chief Clerk of the Assembly prepare and 
transmit a copy of this resolution to the Vice President of the United 
States as the presiding officer of the U.S. Senate, the Speaker of the 
House of Representatives, each member of the Nevada Congressional 
Delegation, the Governor and the Director of the State Department of 
Conservation and Natural Resources, and to the Director of the 
Department of Wildlife for distribution to the various conservation 
groups that have participated in the effort to designate the Upper Las 
Vegas Wash site as a national monument; and be it further
      RESOLVED, That this resolution becomes effective upon passage.
                                 ______
                                 
    Mr. Ross. We are all concerned about jobs. One of the 
reasons this bill has such committed support is because it 
creates opportunities for economic development and job 
creation. As government officials, it is important that we 
support policies that create jobs for our communities. The 
passage of this bill would attract national and international 
visitors from a wide range of interests, including educational, 
scientific, cultural, and natural resources. Las Vegas is one 
of the most recognized brands in the world. Last year we had 
nearly 40 million people come to Las Vegas.
    I would like to draw your attention to section 5 of the 
bill. This provision, known as the Las Vegas Job Creation Zone, 
will transfer land from the Bureau of Land Management to the 
city of Las Vegas to be made available for private development 
through competitive auction. This transfer of land from Federal 
control to private ownership will facilitate important economic 
goals for the city of Las Vegas by making surplus Federal land 
available for commercial development. The surplus land is 
ideally situated for development of a business and technology 
center that will support both Creech and Nellis Air Force 
Bases.
    Third, conserve and preserve this very important resource. 
The site is one of the most significant fossil beds in North 
America depicting life in the ice age. Fossils from prehistoric 
camels, mammoths, giant sloths, lions, and other animals and 
plants have been unearthed at this site. Thousands of 
Pleistocene-era fossils have been found in Tule Springs for 
examination and viewing. Fossils and fossilized pollen in the 
area nearly span 200,000 years of time, offering important 
insight into at least two ice ages and multiple warming and 
cooling periods of our planet.
    I have visited the site on a number of occasions and 
personally seen tusks bigger than me that came from ice age 
Columbian mammoths. This site should be set aside so other 
others can visit and learn from these resources. Tule Springs 
has allowed faculty from UNLV and other academic institutions 
to get students practical paleontological and geological 
experience. The site provides excellent educational 
opportunities within close proximity to our city and to the 
city of North Las Vegas for visiting school groups and the 
general public. This is a very unique situation for most fossil 
locations.
    Nevada is home to great institutions like the University of 
Nevada-Reno that is a national Tier 1 university, according to 
U.S. News and World Report. In southern Nevada the Desert 
Research Institute conducts cutting-edge applied research in 
air, land, life, and water quality across Nevada, the United 
States, and around the world.
    This isn't just about us here today. It is about conserving 
and preserving a valuable resource for generations to come. The 
creation of a national monument would add to our ability to 
preserve a place in history. For these reasons, broad community 
support, job creation, and conserving important resources, I am 
honored to be here today to present this to you and ask for 
your support of the Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act of 2013. Thank you.
    Mr. Amodei. Thank you very much, Mr. Councilman.
    [The prepared statement of Mr. Ross follows:]
   Prepared Statement of Steve Ross, Councilman, City of Las Vegas, 
                             Nevada, Ward 6

  H.R. 2015--Las Vegas Valley Pubic Land and Tule Springs Fossil Beds 
                     National Monument Act of 2013

    Good Morning Mr. Chairman, Ranking Member and members of the 
committee. For the record, my name is Steve Ross, City Councilman for 
the city of Las Vegas, Nevada, representing Council Ward 6
    I am here to support the Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act of 2013. Thank you for the 
opportunity to speak today about this important bill for our southern 
Nevada community. It's an honor to testify before two committee members 
from the State of Nevada, Congressman Mark Amodei and Congressman 
Steven Horsford.
    There are three key points I will make: (1) This bill has broad 
community support; (2) it will create jobs; and (3) conserve important 
resources.
    First, Broad Community Support. It is rare that an elected public 
official has the privilege of working on legislation that is being 
actively supported by all sectors of a community. In particular, there 
is active support from NV Energy, Nellis Air Force Base, Las Vegas 
Metropolitan Chamber of Commerce, elementary and high school educators, 
area colleges and universities, including the University of Nevada, Las 
Vegas, Public Lands Institute, and environmental and conservation 
groups. Representatives from these organizations, among others, are 
working closely with a group of concerned citizens and have developed 
public support for this bill.
    The Board of Clark County Commissioners, the Las Vegas City 
Council, the North Las Vegas City Council, the Nevada State 
Legislature, and the Tribal Council of the Las Vegas Paiute Tribe 
unanimously passed resolutions urging Congress to pass legislation 
creating a national monument. With your permission, I would like to 
submit their letters of support for the record.
    Second, Job Creation. One of the reasons this bill has such 
committed support is because it creates opportunities for economic 
development and job creation while providing for responsible urban 
development of adjacent lands, and allowing for necessary 
infrastructure to service existing developed areas. It would attract 
national and international visitors from a wide range of interests 
including educational, scientific, cultural and natural resources.
    I'd like to draw your attention to section 5. This provision, known 
as the ``Las Vegas Job Creation Zone'' will transfer land from the 
Bureau of Land Management to the city of Las Vegas to be made available 
for private development through competitive auction. The proceeds of 
the sale will stay with the Federal Government. This transfer of land 
from Federal control to private ownership will facilitate important 
economic goals for the city of Las Vegas by making surplus Federal land 
available for commercial development in accordance with local land use 
plans. The city expects the release of lands will create thousands of 
jobs over the next decade. This surplus land, supported by urban 
infrastructure and amenities, is ideally situated to provide 
development opportunities for businesses supporting Creech and Nellis 
Air Force Bases.
    Third, Conserve Important Resources. The site is one of the most 
significant fossil bed sites in North America depicting life in the ice 
age. Fossils from prehistoric camels, mammoths, giant sloths, lions and 
other animals and plants have been unearthed at this site. Thousands of 
Pleistocene-era fossils have been found in Tule Springs, and thousands 
remain for scientific excavation, examination and public viewing. 
Fossils and fossilized pollen in the area span nearly 200,000 years of 
time, offering important insight into at least two ice ages and 
multiple warming and cooling periods.
    I have visited this site on a number of occasions, and personally 
seen tusks bigger than me that came from ice age Columbian mammoths. 
This site should be set aside so others can visit and learn from these 
resources. Tule Springs has allowed faculty from UNLV and other 
academic institutions to get students practical paleontological and 
geological experience. The site provides excellent educational 
opportunities within close proximity to a large city for local 
students, visiting school groups and the general public. This is a 
unique situation for most fossil locations.
    For these reasons: Broad community support, job creation, and 
conserving important resources, I am honored to be here to ask you to 
support passage of the Las Vegas Valley Public Land and Tule Springs 
Fossil Beds National Monument Act of 2013.
    Thank you again for the opportunity to be here. I would be happy to 
answer any questions.
                                 ______
                                 
    Mr. Amodei. I also want to indicate for the record the 
presence of former Representative Jon Porter, whose presence 
here is unknown to either one of the committee members here, 
but evidently he was in the neighborhood, thought he would stop 
by; and also to recognize Storey County Commissioner Marshall 
McBride, the nemesis of my high school basketball career in the 
last century. It is good to see you, and I am glad that we are 
both still alive.
    Any questions for this panel, Mr. Ranking Member?
    Mr. Horsford. Thank you very much, Mr. Chairman. It is good 
to say that. I think we would get a lot done on behalf of 
public lands if you and I had these positions.
    Mr. Amodei. It is a Kodak moment. Somebody will be in here 
quickly to relieve us, I am sure.
    Mr. Horsford. I want to thank our representatives from 
Nevada, throughout the State of Nevada, for being here on a 
number of important public lands bills, and thank you for your 
leadership, because each of you have played an integral role 
over the months and years to get to this point, so we wouldn't 
be here without you. So I want to thank you very much for your 
efforts.
    And I do want to just ask a couple of questions for the 
record, and I would like to first start by asking each of the 
panel to share just how extensive the support again is for this 
bill, and how did the community come together around this 
proposal?
    The Chairman and I on this committee hear all the time the 
need to do these local-Federal partnerships between the private 
sector and the public sector, but getting it done and making it 
happen isn't as easy as it sounds. So can you share how the 
community was able to come together to bring the type of broad 
support that you have on the Tule Springs project?
    Mr. Ross. If I may, Mr. Chairman and Ranking Member, Las 
Vegas City Council, Steve Ross, again for the record. 
Congressman, it is interesting you ask that question because it 
was the community support; it was the group of people, the 
Protectors of Tule Springs, if you will, that actually was the 
driving force behind this. This didn't have to come from one of 
our offices. This came from the public. This came from the area 
of the city that I represent, and it is moving to know that we 
are here today because of that community support. And I think 
once it started gaining momentum, it certainly got all of our 
attention in our cities, certainly the Clark County Commission, 
and certainly with the Metro Chamber in regards to the 
opportunities that are there.
    More importantly, keep in mind that third point I made 
about preserving those artifacts; most significant, protecting 
that area. We have got youth groups that go out there and 
volunteer their time to pick up trash, to watch the desert, if 
you will, to make sure people aren't out there disturbing these 
artifacts.
    It is a home run for our State, both economically and at 
the same time protecting that treasure that exists underground 
out there.
    Thank you, Mr. Chairman.
    Mr. Horsford. Thank you very much.
    Mr. Lee. Also for your remembrance, the shooting range 14 
years ago was brought to fruition by one man walking up in my 
driveway and saying, we need a shooting range. And from there 
we have built one of the finest shooting ranges in America 
there.
    Congressman Horsford, in this particular case we had 
somebody who wanted to protect what she thought was one of the 
most valuable assets that she had ever seen in her life. Her 
name was Jill DeStefano. She started a group called The Friends 
of Tule Springs. It started with her and a friend, and pretty 
soon it just blossomed into the most interesting eclectic group 
of people I have ever seen. But they have been able to, as 
private citizens, drive the discussion on this, and we owe a 
big debt of gratitude to those wonderful females for seeing the 
future before we had an idea what was even available.
    Ms. McMillan. Well, I think it is important to recognize 
this didn't happen overnight. There was a lot of working and 
reworking, as Congressman Heck indicated to us earlier. But I 
think the unique circumstances here was there were a lot of 
groups with diverse interests who recognized the common ground, 
who recognized that there was more common ground here than 
there were differences, and I think Councilman Ross indicated 
what that common ground was. It was the preservation of a 
treasure that we have in our own backyard, something that we 
could preserve for not only our current children, but for 
future generations of our children balanced against what we are 
all here to advocate for, and that is jobs and economic 
opportunities for southern Nevada.
    So I think when these groups came together, even though 
they each had their diverse interests, they sat down over a 
period of 4 to 5 years, and they worked out those differences 
because of those areas of common ground. And I know the Metro 
Chamber of Commerce has been involved in those discussions for 
probably the last few years. We have been coming to Washington 
for the last couple years to advocate for this issue as one of 
our Federal priorities, and I think it is a testament to the 
positive result that can happen when you start breaking down 
those silos and start working together.
    Mr. Horsford. Thank you, Mr. Chairman. And I know 
Congressman Amodei and I both, having served on this committee, 
on a number of occasions have wanted to have the opportunity to 
show how partnerships can work and how our experience in Nevada 
demonstrates that. Private sector, public sector, local, State, 
Federal, and I am just honored and very proud that you all are 
able to exhibit that today. And I want to again commend you, 
and hopefully the Chairman of the overall committee and all the 
members of our Natural Resources Committee can use this as a 
model for how we, as the Federal representatives, can partner 
to do good things. Despite all of the partisanship and 
sometimes the gridlock, there are places where there is common 
ground and where we can get things done, and I think today is a 
perfect example. Thank you.
    Mr. Lee. Mr. Chairman, because there are so few of us here, 
and there is so many of us back here that care, might we be 
bold enough to ask you two who are working so closely with us 
if we could maybe get this to the hearing this year to the full 
committee?
    Mr. Amodei. Well, you sure can, which is what you are doing 
right now, my dear colleague.
    Mr. Lee. For a vote. I mean for a vote.
    Mr. Amodei. In case you are unaware of the procedures of 
the committee, we don't do subcommittee markups, so the next 
time you hear about this will be in markup before the whole 
committee, which is the stop before the floor.
    Mr. Lee. Will that be this year?
    Mr. Amodei. And, by the way, if you really want to ask 
somebody in position of authority, you should ask somebody a 
lot older than either one of the people looking back at you 
here right now.
    But I can assure you that you have done a nice job. Pat, 
you have done a nice job on it. This committee has 
historically--in the time that I have been here has the 
reputation for moving bills that should be moved, and that does 
include Nevada bills in the past, and I expect it to include 
these ones. But thank you for that, although, as you recall 
from your time, it is usually us that asks you the question, 
not the other way around.
    Mr. Lee. I was bold, I know.
    Mr. Amodei. Thank you very much. Pat, thank you for coming 
and bringing Marshall with you. Both good bills. I think you 
will see it reflected in markups later on this year, if I may 
be so bold as to have a prediction. But, of course, that is 
subject to other things going on which are a little bit above 
the pay grade of the folks floating around here.
    So with that, I want to thank everybody for their testimony 
and ask that all witnesses respond in writing to any written 
questions submitted by members of the subcommittee.
    Steve, I am going to submit one to you asking what it is 
that you and Mr. Horsford did in the desert when you were 
younger when you guys were hanging out out there.
    And if there is no further business, without objection, the 
subcommittee stands adjourned. Thank you.
    [Whereupon, at 12:50 p.m., the subcommittee was adjourned.]

             [Additional Material Submitted for the Record]

     Prepared Statements of the Forest Service, U.S. Department of 
                              Agriculture

              H.R. 1633--Small Lands Tracts Conveyance Act

    The Department opposes H.R. 1633.

    H.R. 1633 would provide States, units of local government, 
federally Recognized Indian tribes, and private land owners the 
opportunity to purchase up to 160 acres of National Forest System land 
or Federal lands if their property adjoins the Federal land. Eligible 
properties would include National Forest System lands or lands 
administered by the Bureau of Land Management that are located within 
the boundaries of an incorporated or unincorporated area with a 
population of at least 500 residents, with certain limitations that are 
provided in the legislation.
    The bill further requires the Forest Service and Bureau of Land 
Management (BLM) to develop procedures for a purchase request, 
evaluation of the request, and an appeals process. Purchasers would pay 
market value if the Federal property requested is bounded by only one 
landowner. A competitive process would be used to determine purchase 
price if there are two or more landowners. None of the proceeds from 
the sale would return to the Federal Government. Half of the proceeds 
from the sale would be distributed to the State where the Federal 
property is located, and the remaining proceeds would be distributed 
equally to those States with more than 33 percent of Federal land 
ownership. States could only use the proceeds to purchase additional 
eligible parcels, or to comply with Federal requirements under the 
Endangered Species Act of 1973, the Federal Water Pollution Control Act 
or National Environmental Policy Act of 1969.
    As a condition of the sale, the Regional Forester or the Director 
of the Bureau of Land Management would require the purchaser to comply 
with local land use ordinances and master zoning plans. All properties 
would be conveyed by quitclaim deed with all rights held by the United 
States included.
    Our first concern is that the language defining eligible properties 
may be overly broad. The definition of populated areas that include 
incorporated and unincorporated areas with a population of 500 
residents could be construed to include much of the area where NFS 
lands border non-Federal land. Even with exclusions provided for in the 
bill, areas such as those with endangered species habitat or areas with 
exceptional resources, trust lands held for the benefit of an Indian 
tribe or those lands that have an exceptional resource such as 
Wilderness or National Recreation Area, a large amount of the land 
along the Federal/non-Federal border would be eligible for transfer. 
After the property is transferred, the property along the new border 
would be eligible for transfer. This could result in a yearly expanding 
loss of the National Forest along it borders.
    The Department is also concerned with conveyance of National Forest 
System Lands without consideration. The proceeds from the sales would 
be distributed between the State where the sale occurred and all States 
where Federal Land ownership is greater than 33 percent of the total 
land area of the State. These funds could be used only to purchase 
additional land parcels or for the State to comply with Federal law. 
The benefits of the sale proceeds would go only to the States that 
receive the money, not the American public as a whole.
    H.R. 1633 specifies that market value will be established by an 
appraisal submitted by the applicant, subject to agency approval. 
Federal agencies are required to comply with the Uniform Appraisal 
Standards for Federal Acquisitions. Applicant appraisals not meeting 
these standards cannot be accepted. This could increase the time to 
achieve a compliant appraisal and the cost to the Federal Government 
because of requirements for a second appraisal. H.R. 1633 also imposes 
timelines for review of applications that would be difficult to meet in 
the best of circumstances. It would also require recipients of those 
proceeds to comply with certain Federal laws, with no means for 
ensuring compliance or enforcement.
    The Forest Service already has authority under the National Forest 
Townsite Act to sell up to 640 acres of National Forest System Land for 
fair market value to any qualifying county, city, or other governmental 
subdivision in the 11 contiguous Western States and Alaska. The lands 
would have to serve community objectives that outweigh the public 
objectives and values of retaining the lands in Federal ownership. 
These objectives include space for housing and for service industries, 
expansion of existing economic enterprises, new industries utilizing 
local resources and skills, public schools, public health facilities, 
community parks, and other recreation areas for local citizens.
    Other authorities are available to the Forest Service to sell or 
exchange NFS lands. Under the Small Tracts Act the Forest Service can 
sell lands, in part, to rectify innocent trespass problems. The Forest 
Service Facility Realignment and Enhancement Act of 2005 allows for the 
sale of unneeded administrative sites. Additionally, land exchanges are 
authorized under a number of authorities and are the primary mechanism 
for land disposition.
    A key component of all of these authorities is a determination that 
the exchange or sale of the Federal Land is within the public interest. 
H.R. 1633 has no requirement for determining that the conveyance would 
be in the public interest. Further, it would require the use of 
categorical exclusions which we do not support. The Service uses its 
planning process and the NEPA process to provide opportunities to 
consider environmental impacts, public engagement, and mitigation 
opportunities, as well as to ensure that unknown or unforeseen issues 
are not overlooked. Failure to use these planning processes can result 
in a failure to provide relevant and useful information to the public 
and the decisionmakers.
    The Department is also concerned with the effect of removing 
parcels out of Federal ownership on an ad hoc basis. This would make 
boundary management much more difficult and expensive as the boundaries 
could change every year. The fragmentation that would occur along the 
borders of NFS land would exacerbate insect and disease management 
challenges.
    Additionally, USDA is concerned that enactment of H.R. 1633 would 
exacerbate the spread of homes and communities into areas prone to 
wildfire magnifying or multiplying an already increasing management 
challenge. Studies indicate that about one-tenth of the land area 
occupied by housing and about one-third of all housing units in the 
conterminous United States are located in the Wildland Urban Interface 
(WUI). Almost certainly, enactment of H.R. 1633 would open up more 
``natural'' areas for development, complicating and making more costly 
suppression tactics when a fire occurs. Purchase of these lands could 
also lead to an increase in the number of fires, since, in general, the 
more houses and people, the more human-caused fire ignitions occur.

         H.R. 2259--North Fork Watershed Protection Act of 2013

    H.R. 2259 would, subject to valid existing rights, withdraw 
National Forest System (NFS) lands located in the North Fork and Middle 
Fork of Flathead River watersheds in the State of Montana which are 
primarily managed as part of the Flathead National Forest from 
location, entry and patent under the mining laws and from disposition 
under the mineral and geothermal leasing laws. H.R. 2259 would also 
withdrawal a small amount of land in the Kootenai National Forest. 
Currently there are 39 existing leases or claims in the North Fork 
comprising 56,117 acres and 18 existing leases or claims in the Middle 
Fork comprising 8,595 acres.
    While USDA supports H.R. 2259, I would like to clarify that 
although the Forest Service has surface management authority concerning 
mineral operations, the management of the Federal mineral estate falls 
within the jurisdiction of the Secretary of the Interior. We defer to 
the Department of the Interior on issues related to the status of the 
existing claims and leases.
    The Forest Service administers surface resources on nearly 193 
million acres of NFS lands located in 43 States and the Commonwealth of 
Puerto Rico. The Forest Plan for the Flathead National Forest blends 
areas of multiple uses in the North Fork and Middle Fork with areas of 
specific or limited uses elsewhere on the Forest. Under current law, 
NFS lands reserved from the public domain pursuant to the Creative Act 
of 1891, including those in H.R. 2259 are open to location, entry and 
patent under the United States Mining Laws unless those lands have 
subsequently been withdrawn from the application of the mining laws. 
This bill would withdraw approximately 362,000 acres from the operation 
of the locatable and leasable mineral laws subject to valid existing 
rights. This includes approximately 291,000 acres on the Flathead 
National Forest and approximately 5,000 acres on the Kootenai National 
Forest in the North Fork watershed and 66,000 acres in the Middle Fork 
watershed on the Flathead National Forest.
    The majority of North Fork and Middle Fork of the Flathead has low 
to moderate potential for the occurrence of locatable and leasable 
minerals. A portion of the Middle Fork does have an area of high 
potential for oil and gas occurrence. Much of the North Fork and Middle 
Fork was leased for oil and gas in the early 1980s. Subsequently, the 
Bureau of Land Management (BLM) and Forest Service were sued and BLM 
suspended the leases in 1985 to comply with a District Court ruling 
(Conner v. Burford, 605 F. Supp. 107 (D.Mont.1985)). Presently, there 
are no active locatable or leasable operations, including oil and gas, 
in the North Fork or Middle Fork.
    We recognize the bill would not affect the existing oil and gas 
leases because they would constitute valid existing rights. We also 
recognize the bill would not change the court's order in Conner v. 
Burford requiring the BLM and Forest Service to prepare an 
environmental impact statement (EIS) under the National Environmental 
Policy Act before authorizing any surface disturbing activities on the 
affected leases.
    The Flathead National Forest and Flathead County rely on the close 
proximity of local sources of aggregate to maintain roads economically 
and as a source of building materials. We are pleased this bill would 
not preclude the removal and use of mineral materials, such as 
aggregate. The ability to continue using those local mineral materials 
would allow us to more easily maintain local roads, thus reduce erosion 
related impacts to streams and lakes in the North Fork and Middle Fork 
drainages.
                                 ______
                                 
 Prepared Statements of the Bureau of Land Management, U.S. Department 
                            of the Interior

                 H.R. 1167--Restoring Storey County Act

    Thank you for inviting the Department of the Interior to provide 
testimony on H.R. 1167, the Restoring Storey County Act. This bill 
would direct the Bureau of Land Management (BLM) to convey 
approximately 890 acres of Federal surface estate in and around 
Virginia City, Nevada, to Storey County. The Department supports the 
goals of H.R. 1167, but opposes the bill's exemptions from existing 
laws, and suggests other modifications described below.
                               background
    Virginia City is a community of about 855 people in Storey County, 
Nevada, approximately 25 miles southeast of Reno. Virginia City and 
Storey County contain major portions of the historic Comstock Lode, one 
of the largest gold and silver discoveries in the world. Virginia City 
once boasted 15,000 residents and was one of the richest cities in 
North America in the early 1870s. Due to its economic wealth and 
importance for the development of the United States, including its 
association with notable people such as Mark Twain, as well as the 
preservation of many of its historic buildings and structures, Virginia 
City was designated a National Historic Landmark on July 4, 1961. 
Today, cultural heritage tourism contributes significantly to the local 
economy.
    Over 140 years ago, when thousands of people rushed to the area in 
search of gold and silver, title transactions on the part of Storey 
County occurred very quickly, often before proper surveying and 
identification of public land versus properly located and surveyed town 
site lots had been completed. This unique situation resulted in 
residential and commercial structures being constructed in whole, or in 
part, on lands that BLM records identify as public lands and county 
title documents indicate as privately owned. It also resulted in 
similar discrepancies with regard to undeveloped land.
                 h.r. 1167--restoring storey county act
    H.R. 1167 would direct the BLM to convey approximately 890 acres of 
Federal surface estate in and around Virginia City to Storey County. 
Under the bill, the BLM would be responsible for all costs associated 
with the conveyance. Since the Federal Government owns both the surface 
estate and mineral estate of most of these lands, the mineral estate 
would remain in Federal ownership under H.R. 1167.
    Due to the specific set of historical circumstances surrounding the 
residential and commercial development of Virginia City and Storey 
County, the Department supports the primary goal of H.R. 1167 to 
resolve the title inconsistencies described above. While the Department 
generally supports the conveyance of these lands to Storey County, we 
have several concerns with the bill.
    As written, H.R. 1167 would exempt the conveyance from the National 
Environmental Policy Act (NEPA) and the National Historic Preservation 
Act (NHPA). The Department opposes exemption from these laws, which 
provide opportunities for consideration of environmental impacts, 
public engagement, identification of mitigation, an informed 
decisionmaker, and identification of unknown or unforeseen issues. 
Given that much of this land lies within a National Historic Landmark, 
there is a high potential for cultural resources in the area that 
require careful attention under NEPA and NHPA. Failure to comport with 
NEPA, alone, can result in a failure to provide relevant and useful 
information to the public and the BLM decisionmaker.
    H.R. 1167 also would require the BLM to cover all costs and convey 
the identified lands to Storey County within 60 days of enactment. The 
Department believes that conveyance costs should be paid by the county, 
consistent with past legislation that has supported local community 
development. Additionally, we recommend more flexibility in timing to 
satisfy the requirements of the Federal Land Policy and Management Act 
(FLPMA) and other applicable laws.
    Similarly, H.R. 1167 does not specify the payment of fair market 
value for the public lands that would conveyed. It is our understanding 
that the sponsor intends for the conveyance under the bill to be made 
without the payment of fair market value. The Department recommends 
that H.R. 1167 be amended to provide payment for the fair market value 
of any lands that would be conveyed.
    Furthermore, the Department would like to work with the sponsor and 
the subcommittee on some technical modifications to the bill, including 
protection of valid existing rights; the addition of a direct reference 
to monetary consideration; amendment of the map reference; and minor 
boundary changes. H.R. 1167 does not include language that makes the 
conveyance under the bill subject to valid existing rights. There are 
at least 12 existing land use authorizations on these lands, including 
rights-of-way for power lines, Federal highways, pipelines, and 
railroads, as well as Recreation and Public Purposes Act leases. There 
are also approximately 149 mining claims and two grazing allotments on 
these lands. Because the bill does not address grazing, the reduction 
in the existing grazing permits and removal of any authorized range 
improvements on these lands ordinarily would be carried out in 
accordance with FLPMA and the BLM's grazing regulations (43 CFR part 
4100). However, the bill's 60-day timeframe for conveyance conflicts 
with FLPMA and the operation of the grazing regulations.
    The bill also currently references a legislative map entitled 
``Restoring Storey County Act,'' and dated July 24, 2012. It is our 
understanding that the sponsor intends to change the reference to a map 
dated November 20, 2012. The more recent map informs the Department's 
position on the legislation. In addition, the Department recommends 
some minor changes to align the conveyance boundaries with existing 
lots that already have been surveyed. We would be happy to work with 
the sponsor and the subcommittee on these changes and other, more 
minor, technical corrections.
    Last, the Department of Justice recommends that the bill be revised 
to make absolutely clear that the County would have to agree to the 
proposed conveyance, as requiring the County to accept the land without 
consent might raise constitutional concerns. This change might be 
accomplished by adding ``, and subject to the agreement of the County'' 
before ``the Secretary shall convey to the County'' in section 4(a) of 
the bill.
                               conclusion
    Thank you again for the opportunity to testify on H.R. 1167. The 
bill is important to the people of Virginia City and Storey County, and 
the Department looks forward to working with the sponsor and the 
Subcommittee on modifications so we can fully support the bill.

              H.R. 1633--Small Lands Tracts Conveyance Act

    Thank you for inviting the Department of the Interior to testify on 
H.R. 1633, the Small Lands Tracts Conveyance Act. The Department of the 
Interior opposes H.R. 1633 as it applies to lands under the 
administrative jurisdiction of the Bureau of Land Management (BLM). The 
BLM has the authority to dispose of public land as appropriate with 
full public involvement; H.R. 1633 circumvents that critical public 
process. The Department defers to the U.S. Department of Agriculture 
for lands under the jurisdiction of the U.S. Forest Service.
                               background
    The BLM manages more than 245 million acres of public land 
primarily in 12 Western States. Our mission is to sustain the health, 
diversity and productivity of the public lands for the use and 
enjoyment of present and future generations. As the Nation's largest 
Federal land manager, the BLM administers the public lands for a wide 
range of multiple uses and sustained yield, including energy 
production, recreation, livestock grazing, conservation use, forestry, 
and open space. The 1976 Federal Land Policy and Management Act (FLPMA) 
provides the BLM with a clear multiple-use mandate which the BLM seeks 
to implement through its land use planning process. Additionally, FLPMA 
includes policy direction that the United States should generally 
retain Federal lands in public ownership. This was a departure from 
previous land disposal policies of the U.S. Government and FLPMA 
repealed many of those former disposal laws.
BLM's Land Disposal Authorities
    The FLPMA is the BLM's primary authority for disposals of Federal 
lands through exchanges, sales and various conveyances. Section 203 of 
the FLPMA allows the BLM to identify lands (though the land use 
planning process) as potentially available for disposal by sale if they 
meet one or more of the following criteria:

    <bullet> Lands consisting of scattered, isolated tracts that are 
            difficult or uneconomic to manage;
    <bullet> Lands that were acquired for a specific purpose and are no 
            longer needed for that purpose; or
    <bullet> Lands that could serve important public objectives, such 
            as community expansion and economic development, which 
            outweigh other public objectives and values that could be 
            served by retaining the land in Federal ownership.

    Section 206 of FLPMA provides land exchange authority. To be 
eligible for exchange under FLPMA, BLM-managed lands must have been 
identified for disposal through the land use planning process. Land 
exchanges are a tool the BLM uses to acquire environmentally sensitive 
lands while transferring public lands into private ownership for local 
needs and the consolidation of scattered tracts.
    The Recreation and Public Purposes Act (R&PP) is an extremely 
popular authority used by the BLM to help States, local communities, 
and nonprofit organizations obtain public lands at no or reduced cost 
for important public purposes. Examples include parks, schools, 
hospitals and other health facilities, fire and law enforcement 
facilities, courthouses, social services facilities and public works. 
Over the last 5 years, the BLM has sold nearly 9,000 acres of public 
land through R&PP conveyances and leased an additional 10,000 acres of 
public land under the R&PP Act.
    Another important law for the facilitation of land disposals over 
the last decade is the Federal Land Transaction Facilitation Act 
(FLTFA). The administration strongly supports reauthorization of the 
FLTFA, which expired on July 25, 2011. Under the FLTFA, the BLM could 
sell public lands identified for disposal prior to July 2000 through 
the land use planning process, and retain the proceeds from those sales 
in a special account in the Treasury. The BLM and the other Federal 
land managing agencies were then able to use those funds to cover 
processing costs for future land sales and to acquire, from willing 
sellers, lands within or adjacent to certain federally designated areas 
that contain exceptional resources. The National Park Service (NPS), 
the U.S. Fish and Wildlife Service (FWS), the U.S. Forest Service (FS), 
and the BLM were all able to acquire lands with FLTFA funds. Over the 
life of the FLTFA, approximately 27,000 acres of BLM-managed public 
lands were sold under this authority and approximately 18,000 acres of 
high resource value lands were acquired. These acquisitions consolidate 
land ownership, frequently providing access to increased recreational 
opportunities for the public and reducing costs to the Federal 
Government in areas with fragmented land patterns.
BLM's Land Use Planning Process
    Many of the decisions about how best to manage the public lands 
entrusted to the BLM's stewardship are made through the land use 
planning process. The BLM's field offices document these decisions in 
157 individual Resource Management Plans (RMPs) developed with full 
public participation at the local level. These RMPs provide the 
foundation for every on-the-ground action taken or authorized by the 
BLM and include inventories and assessments of a broad range of 
resource values and public land uses. Among the many decisions made 
through the RMP process is the identification of lands that are 
potentially available for disposal. Extensive public involvement is a 
critical component of this process.
    Each RMP is unique to the local situation and the local community. 
The RMP identifies lands as potentially available for disposal by 
various means. For example, lands may be identified as available for 
sale or they may be identified as available for exchange (e.g. to 
further particular resource goals).
    The process of identifying lands as potentially available for 
disposal typically does not include the clearance of impediments to 
disposal such as the presence of threatened and endangered (T&E) 
species, cultural or historic resources, mining claims, oil and gas 
leases, rights-of-way and grazing permits. Also not included in this 
identification process is an appraisal of values or a specific survey 
of the lands. Furthermore, because land use plans typically extend over 
many years, lands identified as potentially available for disposal at 
one point in time may be found later to be unsuitable as a result of 
subsequent changes, such as oil and gas leasing, listing of T&E 
species, and establishment of extensive rights-of-way or other 
encumbrances. For this reason, the BLM normally conducts site-specific 
NEPA analysis prior to disposal of a particular tract or tracts of 
public land. The Department uses the NEPA process to provide 
opportunities to consider environmental impacts, public engagement, and 
mitigation opportunities, as well as to ensure that unknown or 
unforeseen issues are not overlooked. Failure to use the land planning 
process, and the associated NEPA review, can result in a failure to 
provide relevant and useful information to the public and the BLM 
decisionmakers.
                               h.r. 1633
    H.R. 1633 would provide for the sale of ``eligible Federal lands 
parcels'' to adjacent landowners at their request. The bill defines 
``eligible Federal lands parcel'' broadly, as BLM-managed public lands 
that share a boundary with non-Federal land, are within an area with a 
population of more than 500 persons, do not contain ``exceptional 
resources,'' do not provide habitat for an endangered or threatened 
species, and are ``not subject to existing rights held by a non-Federal 
entity.'' Adjacent landowners could petition for up to 160 acres 
annually under the legislation. Within 30 days of receiving a request 
for sale, the BLM would have to make a determination as to whether or 
not the parcel met the eligibility criteria established in H.R. 1633. 
If a parcel were determined to be eligible, the purchaser would be 
required to pay the BLM the fair market value for the land as well as 
the costs of the conveyance. Determination of fair market value under 
the bill would not require an appraisal completed under the ``Uniform 
Appraisal Standards for Federal Land Acquisitions.'' The proceeds of 
the sales would be deposited into an account in the Federal Treasury 
and distributed by a formula to States in which the Federal Government 
owns more than 33 percent of the land area in the State.
    The Department of the Interior opposes H.R. 1633. The BLM is 
committed to a process for the disposal of public land rooted in the 
core principle of public participation. H.R. 1633 excludes tribes, 
States, and local governments, as well as user groups, and the public 
at large from the process of land disposal and undermines key tenants 
of FLPMA. Furthermore, H.R. 1633 provides a blanket exemption from the 
National Environmental Policy Act (NEPA) analysis and circumvents BLM's 
land use planning process. Failure to comport with FLPMA and NEPA, 
alone, can result in a failure to provide relevant and useful 
information to the public and BLM decisionmakers. Furthermore, while it 
excludes units of the National Landscape Conservation System (NLCS) and 
other environmentally sensitive lands from eligible sale lands, H.R. 
1633 does not limit lands to be sold to those preliminarily identified 
for disposal through the public land use planning process, and broadly 
redefines lands eligible for transfer to include significant amounts of 
land along the Federal/non-Federal border without determination that 
the conveyance is in the public interest. A 30-day window to make a 
determination on whether or not requested lands meet the eligibility 
requirements excludes the public and likely makes a thorough, 
thoughtful process nearly impossible.
    H.R. 1633 effectively establishes new criteria for lands eligible 
for disposal that are inconsistent with established FLPMA criteria. 
Many of these new criteria are confusing and unclear. For example, 
section 2(a)(3)(C) provides that eligible lands do not include those 
``subject to existing rights held by a non-Federal entity.'' Typically, 
administrative and legislative sales of lands are subject to ``valid 
existing rights.'' This provision protects established rights such as 
power lines or roads, but does not prohibit the transfer of such lands. 
On the other hand, the bill does not address other existing uses of the 
land that are not rights, such as livestock grazing and unproven mining 
claims, which would be considered during the land planning process 
under FLPMA and NEPA.
    When determining the value of public lands, the BLM and the 
Department are committed to using the ``Uniform Appraisal Standards for 
Federal Land Acquisitions'' and the ``Uniform Standards of Professional 
Appraisal Practice.'' To deviate from these long-established 
procedures, which apply across the Federal Government, would expose the 
process to uncertainty, inconsistency, and irregularities.
    Additionally, the Department opposes the establishment of a new 
fund in the Treasury and the proposed distribution of land sale 
revenues to certain States, rather than the public as a whole. Under 
current law, typically 96 percent of the value of land sales are 
returned to the Treasury and typically 4 percent distributed to the 
individual states as required by individual statehood acts.
                               conclusion
    The BLM's land use planning process, as directed by FLPMA and NEPA, 
ensures that all of the users of the land have an opportunity to 
participate in the public land management process. tribes, States, 
local governments, user groups, conservation groups, and the public at 
large become actively involved in these processes and final decisions 
made by the BLM are better and stronger because of that involvement. We 
oppose efforts, however well intended, which would undermine that 
process.

 H.R. 2015--Las Vegas Valley Public Land and Tule Springs Fossil Beds 
                     National Monument Act of 2013

    Thank you for inviting the Department of the Interior to present 
this statement on H.R. 2015, the Las Vegas Valley Public Land and Tule 
Springs Fossil Beds National Monument Act. The Department generally 
supports H.R. 2015 and would welcome the opportunity to work with the 
sponsor and committee on modifications to provisions of the bill.
                               background
    The Las Vegas Valley is home to nearly 2 million people, the famous 
Las Vegas Strip, spectacular desert landscapes, and historic, cultural, 
and paleontological treasures. Balancing the protection of these 
important natural, cultural, and scientific resources with economic 
development and growth is a challenge embraced by the Nevada 
delegation. Over the last 20 years, a number of laws have been enacted 
to help maintain that balance. Among these are: the Red Rock Canyon 
National Conservation Area Establishment Act (Pub. L. 101-621); the 
Southern Nevada Public Land Management Act (Pub. L. 105-263); and the 
Clark County Conservation of Public Land and Natural Resources Act 
(Pub. L. 107-282), several of which are the subject of today's hearing.
                               h.r. 2015
Tule Springs Fossil Beds National Monument (Section 2)
    H.R. 2015 would designate a new unit of the National Park Service 
(NPS)--the Tule Springs Fossil Beds National Monument. This bill would 
transfer administrative jurisdiction of approximately 22,650 acres of 
public land from the Bureau of Land Management to the National Park 
Service. The bill would establish the Tule Springs Fossil Beds National 
Monument Advisory Commission to provide guidance for the management of 
the Monument.
    The Department supports the establishment of the Tule Springs 
Fossil Beds National Monument and the Advisory Council. The NPS does 
not currently have a park designated specifically to protect and 
interpret Pleistocene fossils and the creation of this site would 
comprise the most significant Pleistocene paleontological resources in 
the American Southwest. However, since a special resource study has not 
been completed, there are many outstanding questions regarding the most 
efficient and effective means for managing this area.
    The NPS completed a Reconnaissance Report for the Upper Las Vegas 
Wash/Tule Springs area in June 2010. Preliminary findings from this 
report indicated that the resources in this area appeared to be 
nationally significant and suitable for inclusion in the national park 
system but further study would be needed to compare the resources of 
Tule Springs to other similar areas that represent nationally 
significant resources of the late Pleistocene epoch. Preliminary 
findings also indicated that the area is potentially feasible but that 
the initial determination would greatly benefit from a full study of 
alternatives that would more fully examine site issues such as 
vandalism, unauthorized removal of fossils, and ORV use that may affect 
future options for management and protection of the area. Additionally, 
the report recommends an analysis of operational costs, particularly 
those associated with an active paleontology management program 
involving the preparation and curation of fossils, such as collection 
storage equipment, materials and supplies, dedicated curation space, 
and staff time to prepare fossils.
    Section 2(d)(5)(B)(IV) directs the NPS to include a travel 
management plan for the national monument that may include existing 
public transit. Although it is unclear what is being proposed by this 
language, this proposed monument is on the border of the cities of Las 
Vegas and North Las Vegas and transit options for existing residents 
will be taken in account during the planning process.
    Finally, section 2(e) provides for a renewable energy transmission 
corridor to be managed by the Bureau of Land Management (BLM) on the 
north side of the new National Monument. The BLM recommends that this 
narrow strip of land be withdrawn from the mining and mineral leasing 
laws, and that access to these lands be limited to administrative uses 
in order to avoid incompatible activities.
Red Rock Canyon National Conservation Area Additions (Section 3)
    First established by an Act of Congress in 1990, the 196,000-acre 
Red Rock Canyon National Conservation Area (NCA) is located 17 miles 
west of the Las Vegas Strip. The NCA welcomes over 1 million visitors 
annually who are looking to explore the natural wonders beyond the 
traditional Las Vegas experience. The Red Rock Canyon NCA offers 
opportunities for hiking, rock climbing, horseback riding, biking, and 
photography. A 13-mile scenic drive provides an up close look at this 
spectacular desert landscape.
    The BLM supports the provisions of H.R. 2015 (section 3) which 
propose to expand the boundaries of the NCA by approximately 1,540 
acres. We would like to work with the Sponsor and the Committee on some 
minor boundary modifications to improve manageability of the NCA 
addition.
Conveyances to the Cities of North Las Vegas & Las Vegas (Sections 4 
        and 5)
    H.R. 2015 (sections 4 and 5) provides for the conveyance of public 
lands to the city of North Las Vegas (645 acres) and the city of Las 
Vegas (660 acres) respectively at no cost. The lands proposed for 
conveyance are within the Southern Nevada Public Land Management Act 
(SNPLMA) (Pub. L. 105-263) boundary established by acts of Congress. 
Under these provisions of the bill, the two local governments would 
then be able to sell, lease, or otherwise convey these lands at fair 
market value to third parties. All revenues derived from these 
conveyances would be distributed consistent with direction under SNPLMA 
as if the conveyances had been undertaken by the BLM under its existing 
authorities. Additionally, the bill would allow these governments to 
retain some of the lands for uses consistent with those allowed under 
the Recreation and Public Purposes (R&PP) Act, such as for schools, 
parks and fire stations. All costs related to the initial transfer of 
land to the city governments or from them to third parties would be the 
responsibility of the cities of North Las Vegas and Las Vegas.
    SNPLMA identified these lands for disposal, and specified the use 
of the proceeds from the sale of these lands. By transferring the lands 
to the cities of North Las Vegas and Las Vegas, the bill will allow 
those communities to determine the development of the lands within 
their boundaries, while requiring fair market value for subsequent 
conveyances. The BLM does not oppose these transfers, but recommends 
amending this section to eliminate the leasing option. Such leases are 
difficult to oversee and manage; by only allowing reconveyance by the 
cities through sale or R&PP conveyance, we can better protect the 
integrity of the process.
Expansion of Police Shooting Range (Section 6)
    The Clark County Conservation of Public Land and Natural Resources 
Act of 2002 (Pub. L. 107-282) transferred 176 acres of BLM-managed 
public land to the Las Vegas Metropolitan Police Department for a 
shooting range. H.R. 2015 (section 6) would transfer an additional 80 
acres of BLM-managed lands to the Las Vegas Police Department.
    The BLM supports this conveyance, which will allow the Police 
Department to establish long-range shooting and training facilities. We 
recommend that the legislation specify that the transfer will be 
subject to valid existing rights.
Spring Mountain National Recreation Area Withdrawal (Section 7)
    The Department of the Interior defers to the Department of 
Agriculture on the Spring Mountain National Recreation Area provisions 
of H.R. 2015 (section 7), which affect lands administered by the U.S. 
Forest Service.
SNPLMA Boundary Modification (Section 8)
    The SNPLMA, as amended, was designed to provide for the responsible 
disposal of BLM-managed public land within the Las Vegas Valley. Under 
the act, funds generated from the sale of these lands are deposited 
into a special account to be expended consistent with the provisions of 
the act. Funds from SNPLMA lands sales have been used for a variety of 
purposes as stipulated by the act, including: acquisition of high value 
environmentally sensitive lands; establishment of parks, trails, and 
natural areas; creation of new conservation initiatives; and a number 
of other projects. To date, nearly 45,000 acres have been conveyed out 
of Federal ownership under the provisions of SNPLMA, and approximately 
39,500 acres remain to be considered for disposal under SNPLMA.
    H.R. 2015 (section 8) proposes to modify the SNPLMA disposal 
boundary by removing approximately 9,950 acres of public land currently 
inside the boundary and by adding approximately 6,795 acres of public 
land currently outside the boundary, resulting in a net reduction of 
lands within the SNPLMA boundary of approximately 3,158 acres. Total 
public land acres within the SNPLMA boundary would be 36,890 acres if 
H.R. 2015 is enacted. The acres proposed for removal are lands that 
H.R. 2015 would transfer (section 2) to the National Park Service for 
inclusion in the Tule Springs Fossil Beds National Monument. The acres 
proposed for addition to the boundary are primarily on the northeast 
and northwest sides of the Las Vegas Valley, and the most significant 
current uses are for the mining of aggregate materials for 
construction. The BLM supports section 8 of S. 974.
Conveyances to Nevada Colleges and Universities (Section 9)
    The Nevada System of Higher Education (NSHE), a subdivision of the 
State of Nevada, provides for the education for over 125,000 students 
throughout the State at 8 different colleges and universities. The NSHE 
is seeking to expand the capacity of three of those schools in southern 
Nevada in order to improve higher education opportunities.
    H.R. 2015 (section 9) provides for the conveyance of three parcels 
of public land for three of these colleges and universities in southern 
Nevada at no cost and for uses consistent with those allowed under the 
Recreation and Public Purposes Act (R&PP). All costs associated with 
the transfers would be paid by the NSHE. The three conveyances include 
approximately 285 acres for the Great Basin College in Pahrump, Nevada, 
41 acres for the College of Southern Nevada, and 1,886 acres for the 
University of Nevada-Las Vegas (UNLV).
    The R&PP Act authorizes the Secretary of the Interior to lease or 
convey public lands at nominal costs for recreational and public 
purposes, including for educational facilities. The BLM generally 
supports appropriate legislative conveyances at no cost if the lands 
are to be used for purposes consistent with the R&PP Act, and if the 
conveyances have a reversionary clause to enforce this requirement.
    The BLM supports these conveyances for higher education in H.R. 
2015 and would like to work with the Sponsor and the Committee on minor 
and technical modifications to these provisions. Specifically, we 
recommend the addition of a clause allowing the Secretary to add 
reasonable terms and conditions to the transfer. For example, the lands 
proposed for transfer for the Great Basin College are adjacent to the 
BLM's Pahrump Fire Station. In the conveyance documents we may want to 
include building height restrictions in areas closest to the helipad to 
ensure safe aerial fire activities. The addition of a ``terms and 
conditions'' clause would allow the agency to address this and similar 
situations.
Ivanpah Airport Conveyance (Section 10)
    The Ivanpah Valley Airport Public Lands Transfer Act (Pub. L. 106-
362) provided for the sale of approximately 5,750 acres of public land 
to Clark County for the construction of a future airport. The 
completion of the sale of the land and construction of the airport is 
contingent on a number of factors, including approval by the Federal 
Aviation Administration (FAA). H.R. 2015 (section 10) provides for the 
conveyance, at no cost, of approximately 2,350 acres to the east of the 
proposed airport for flood mitigation projects related to the airport. 
The land would not be conveyed unless and until the FAA approves the 
airport project.
    H.R. 2015 also reserves to the Federal Government the mineral 
estate (potentially valuable sand and gravel) of the 2,350 acres to be 
conveyed for the airport, except that the county may construct flood 
control facilities and remove aggregate following flood events under 
the bill. The BLM supports these provisions. However, provisions 
providing that the county pay all costs associated with this transfer 
and a terms and conditions clause (similar to those in section 9 of 
H.R. 2015) should be added to this section as well. We would note, that 
there are desert tortoise concerns in this area, and the BLM and the 
Fish & Wildlife Service would like to continue to work with Clark 
County to address them.
Sunrise Mountain Instant Study Area Release (Section 11)
    The Sunrise Mountain Instant Study Area (ISA) lies to the east of 
Las Vegas. The 9,700-acre area has been managed by the BLM to protect 
these lands for possible future wilderness designation as required by 
law. Over the last decades, and most recently in 2009, the Congress has 
legislatively released portions of the Sunrise Mountain ISA from those 
protections, but the BLM does not have the independent authority to 
release the remaining acres.
    The BLM supports the provisions of H.R. 2015 (section 11) which 
would release the entire Sunrise Mountain ISA from interim protected 
status, thereby allowing the consideration of a full range of multiple 
uses. The Sunrise Mountain ISA does not possess significant wilderness 
characteristics. Furthermore, it is the assessment of the BLM that this 
area is appropriate for the expansion of high-voltage transmission 
lines, including those for renewable energy transmission, as well as a 
possible interstate natural gas and water pipelines.
Nellis Dunes Off-Highway Vehicle (OHV) Recreation Area (Section 12)
    The Nellis Dunes OHV area is a popular recreation area with over 
100,000 visits annually. H.R. 2015 (section 12) would promote the 
further development of this area as a destination OHV site. OHV use is 
a popular and growing activity in Nevada and across the West. The BLM 
welcomes opportunities to support this type of recreation in 
appropriate locations.
    Studies conducted by the UNLV at the request of the BLM have 
indicated that there are high levels of naturally occurring arsenic in 
the Nellis Dunes area. While the area is presently open to OHV use, the 
BLM makes visitors aware of these potential health concerns. Currently, 
the UNLV is conducting a health risk assessment of the area in 
accordance with the Environmental Protection Agency's human health risk 
assessment processes and protocols. The BLM expects to receive a 
completed study by late 2014, and believes that it is premature to make 
permanent decisions about the Nellis Dunes area prior to receiving the 
final report. Therefore, the BLM recommends deferring sections 12(a), 
(b), and (c) until the final report is available.
    However, if Congress elects to move forward with these provisions 
of H.R. 2015, the BLM recommends a number of substantive modifications. 
The bill (section 12) allocates uses in Nellis Dunes in three parts. 
First, it establishes a BLM-managed Nellis Dunes Off-Highway Vehicle 
Recreation Area on approximately 10,000 acres of public land. Second, 
it transfers approximately 960 acres of public land to Clark County for 
a more intensively managed OHV Recreation Park. Third, it establishes 
an ``Economic Support Area'' adjacent to the other two areas.
    The BLM could support the establishment of the Nellis Dunes OHV 
Recreation Area if our safety concerns are appropriately addressed. 
Likewise, we could support the transfer of land to Clark County for an 
OHV Recreation Park if the transfer and management of those lands is 
done consistent with the R&PP Act, and if the transfer addressed issues 
outlined in our discussion of section 9 regarding similar no cost 
conveyances. Finally, the BLM does not object to the establishment of 
an Economic Support Area; however, we strongly urge that these 290 
acres be sold to the county at fair market value, rather than setting 
up a system of revenue sharing between the county and Federal 
Government for private enterprises on these lands. The BLM does not 
typically participate in commercial activities such as these and we do 
not believe that it would be appropriate in this case.
    The BLM would like to work with the sponsor and committee on 
perfecting these sections of H.R. 2015, provided the human health risk 
assessment determines that establishing an OHV park in this area is 
appropriate.
Expansion of Nellis Air Force Base (Sections 12(d) and 13)
    H.R. 2015 (sections 12(d) and 13) provides for the expansion of 
Nellis Air Force Base though withdrawal, reservation, and transfer of 
administrative jurisdiction of approximately 1,120 acres of BLM-managed 
public lands. The administration supports the future use of these lands 
by the Department of the Air Force for national security purposes. 
However, these sections permanently transfer administrative 
jurisdiction over these lands to the Air Force, rather than withdrawing 
them from the public land and mining laws and reserving them for the 
military's use for a specific time period, as is more typical and 
consistent with adjacent military lands. The Administration could 
support these provisions if they were amended to withdraw and reserve 
the lands for military use, including terms and conditions of past 
legislative withdrawals, and if they were subject to valid existing 
rights. The BLM would also like to work with the Sponsor, the 
Committee, and the Department of Defense to ensure appropriate access 
for several mining companies that have long-term contracts for the use 
of some lands in this area in a manner consistent with the requirements 
of Nellis Air Force Base.
Military Overflights (Section 14)
    Section 14 of the bill would address military overflights over new 
units established by the bill. Providing for such military overflights 
requires a careful balancing of conservation and national defense 
requirements and is highly factually specific. The Department of the 
Interior believes it needs to conduct additional discussions with the 
Department of Defense with regard to the specific circumstances of 
flights over the lands covered by this bill before determining whether 
legislative guidance is needed and, if so, what form that guidance 
should take.
                               conclusion
    Thank you for the opportunity to present the Department's views on 
H.R. 2015. We look forward to working with the sponsor and the 
committee to resolve the outstanding issues.

         H.R. 2259--North Fork Watershed Protection Act of 2013

    Thank you for the opportunity to provide a statement on H.R. 2259, 
the North Fork Watershed Protection Act of 2013. The Department of the 
Interior supports H.R. 2259, which would withdraw Federal lands within 
the North Fork watershed of Montana's Flathead River from all forms of 
location, entry, and patent under the mining laws and from disposition 
under all laws related to mineral or geothermal leasing. Enactment of 
H.R. 2259 would mark an important milestone in the work occurring 
across multiple jurisdictions to help preserve the remarkable resources 
in the Crown of the Continent ecosystem.
                               background
    The Flathead River Basin, a key portion of an area known as the 
Crown of the Continent ecosystem, spans the boundaries of the United 
States and Canada. It includes part of the United States' Glacier 
National Park and borders Canada's Waterton Lakes National Park. These 
two parks comprise the world's first International Peace Park as well 
as a World Heritage Site. The U.S. Forest Service's Flathead National 
Forest is also located within the Flathead River watershed. The Bureau 
of Land Management manages the Federal mineral estate underlying the 
Flathead National Forest.
    Running along the west side of the Continental Divide, the North 
Fork of the Flathead River enters the United States at the Canadian 
border and forms the western border of Glacier National Park until its 
confluence with the Middle Fork of the Flathead River near the southern 
end of Glacier National Park. The North Fork watershed, a sub-basin of 
the Flathead River watershed, includes areas currently managed by the 
National Park Service, the State of Montana, the U.S. Forest Service, 
and some private landowners.
    The Flathead River Basin is recognized for its natural resource 
values, including wildlife corridors for large and medium-sized 
carnivores, aquatic habitat, and plant species diversity. The area is 
rich in cultural heritage resources, with archeological evidence of 
human habitation starting 10,000 years ago. Several Indian tribes, 
including the Blackfeet, the Salish, and the Kootenai, have a well-
established presence in the area. The area also has celebrated 
recreational opportunities, including hunting, fishing, and backcountry 
hiking and camping.
    There has been interest in protecting the Crown of the Continent 
resources for some time. On February 18, 2010, the State of Montana and 
the Province of British Columbia executed a Memorandum of Understanding 
which addresses a myriad of issues related to the Flathead River Basin 
on both sides of the U.S.-Canada border. The intention of part I.A. of 
that memorandum is to ``[r]emove mining, oil and gas, and coal 
development as permissible land uses in the Flathead River Basin.''
    The Flathead River Basin contains federally owned subsurface 
mineral estate under National Forest System lands that the Federal 
Government has leased for oil and gas development. At the time 
legislation was initially proposed in 2010, there were 115 oil and gas 
leases in the North Fork watershed that the BLM issued between 1982 and 
1985. The leases, which cover over 238,000 acres, are inactive and 
under suspension as part of the 1985 court case Conner v. Burford. At 
the request of Montana Senators Max Baucus and John Tester, 
leaseholders have voluntarily relinquished 76 leases consisting of 
almost 182,000 acres. The BLM has not offered any other leases in the 
Flathead National Forest since the Conner v. Burford litigation 
suspended the existing leases in 1985.
    The U.S. Forest Service is responsible for the surface management 
of National Forest System land; however, as noted earlier, the 
Secretary of the Interior and the BLM are responsible for administering 
the Federal subsurface mineral estate under the Mining Law of 1872, the 
Mineral Leasing Act of 1920, and various mineral leasing acts. With 
respect to locatable minerals and oil and gas resources, the Forest 
Service has authority to regulate the effects of mineral operations 
upon National Forest System resources. The BLM only issues mineral 
leases for locatable minerals and oil and gas resources upon 
concurrence of the surface management agency and always works 
cooperatively with the agency to ensure that management goals and 
objectives for mineral exploration and development activities are 
achieved, that operations are conducted to minimize effects on natural 
resources, and that the land affected by operations is reclaimed.
                               h.r. 2259
    H.R. 2259 withdraws all Federal lands or interest in lands, 
comprised of approximately 430,000 acres of the Flathead National 
Forest, within the North and Middle Fork watersheds of the Flathead 
River from all forms of location, entry, and patent under the mining 
laws and from disposition under all laws related to mineral or 
geothermal leasing. We note that National Park acreage within the 
watershed is already unavailable for mineral entry. H.R. 2259 does not 
affect valid, existing rights, including the 39 leases in the North 
Fork watershed that are suspended under the Conner v. Burford 
litigation. H.R. 2259 also does not restrict existing recreational 
uses, livestock management activities, or forest management activities. 
The Department fully supports H.R. 2259 as it furthers the goal of 
preserving the important resources of this region.
    The Waterton-Glacier International Peace Park, which extends from 
Canada into the United States, is one of the great protected ecosystems 
on the North American continent. A 2010 World Heritage Center/
International Union for the Conservation of Nature Report noted that 
the International Peace Park is ``one of the largest, most pristine, 
intact, and best protected expanses of natural terrain in North 
America. It provides the wide range of non-fragmented habitats and key 
ecological connections that are vital for the survival and security of 
wildlife and plants in the Waterton-Glacier property and the Flathead 
watershed.'' Retaining this expanse of natural landscape in the Crown 
of the Continent ecosystem is of vital importance for providing 
ecosystem connectivity, which is essential for the growth and survival 
of plants and animals in the region. H.R. 2259 will help accomplish 
this goal.
    The Department of the Interior is also committed to maintaining the 
ecological integrity of Glacier National Park, one of the most 
noteworthy natural and cultural treasures of our Nation. Preserving the 
region's and the park's water resources is also critical. The rich 
aquatic ecosystems provide breeding and feeding habitats for a variety 
of important species, and the Department recognizes the importance of 
maintaining critical habitat corridors when planning for resources 
uses. H.R. 2259 will help protect and preserve the important resources 
of the greater Crown of the Continent ecosystem, including those within 
Glacier National Park.
                               conclusion
    The Department supports H.R. 2259 and commends the many parties 
involved in protecting the North Fork of the Flathead River and the 
important resources shared by the United States and Canada. We hope 
that this legislation and the efforts of the Federal and State/
provincial governments add to the important legacy of conservation in 
the Glacier/Waterton Lakes area and Flathead River basin.

        H.R. 2657--Disposal of Excess Federal Lands Act of 2013

    Thank you for inviting the Department of the Interior to testify on 
H.R. 2657, the Disposal of Excess Federal Lands Act. The Administration 
strongly opposes H.R. 2657 and instead encourages the Congress to 
reauthorize the Federal Land Transaction Facilitation Act (FLTFA) which 
has a proven track record of providing for the thoughtful, efficient, 
and economical disposal of appropriate public lands.
                               background
    Congress has long recognized the national interest in preserving 
and conserving the public lands for present and future generations of 
Americans. In 1976, Congress declared it the policy of the United 
States that ``. . . the public lands be retained in Federal ownership, 
unless as a result of land use planning . . . it is determined that 
disposal of a particular parcel will serve the national interest'' 
(Federal Land Policy and Management Act of 1976 (FLPMA); Public Law 94-
579). Section 203 of FLPMA allows the BLM to identify lands as 
potentially available for sale through the land use planning process, 
provided they meet one or more of the following criteria:

    <bullet> Lands consisting of scattered, isolated tracts that are 
            difficult or uneconomic to manage;
    <bullet> Lands that were acquired for a specific purpose and are no 
            longer needed for that purpose; and
    <bullet> Lands that could serve important public objectives, such 
            as community expansion and economic development, which 
            outweigh other public objectives and values that could be 
            served by retaining the land in Federal ownership.

    The BLM oversees the public lands through 157 Resource Management 
Plans (RMPs). Since 2000, the BLM has completed 75 RMP revisions and 
major plan amendments. Additionally, the BLM is currently working on 
planning efforts for 57 new RMPs. Each land use planning document is 
unique and typically identifies lands as potentially available for 
disposal through sale, exchange (typically to further particular 
resource goals), or for conveyance under the Recreation and Public 
Purposes Act (R&PP) for public purposes such as schools, fire stations, 
and community parks. Lands identified for potential disposal may be 
available for any or all of these purposes. The BLM may only dispose of 
lands that are identified for disposal in the appropriate land use plan 
unless otherwise directed by Congress.
    Lands that are identified for disposal in RMPs do not represent a 
Federal ``multiple listing service'' and there may be substantial 
impediments to disposal. The process of identifying these lands as 
potentially available for disposal in an RMP typically does not include 
site-specific identification of impediments to disposal, such as the 
presence of threatened or endangered species, cultural or historic 
resources, mining claims, mineral leases, rights-of-way, and grazing 
permits. Also not included in this identification process is an 
appraisal to establish market value or a specific survey of the lands. 
Furthermore, because land use plans typically extend over many years, 
lands identified as potentially available for disposal at one point in 
time may be found later to be unsuitable because of new circumstances 
such as oil and gas leasing, the listing of threatened and endangered 
species, the establishment of rights-of-way, or other encumbrances.
Disposal of BLM-Managed Lands
    A number of authorities and mechanisms currently exist that provide 
for the disposal of BLM-managed public lands. The BLM has the authority 
under FLPMA (section 203) to sell lands identified for disposal. The 
proceeds from sales are deposited into the General Fund of the 
Treasury. Typically these sales have been for low value lands, for 
example isolated parcels surrounded by private land.
    FLPMA (section 206) also provides the agency with administrative 
land exchange authority. To be eligible for exchange, BLM-managed lands 
must be identified for disposal through the land use planning process. 
Exchanges allow the BLM to acquire environmentally sensitive lands 
while transferring public lands into private ownership for local needs 
and to consolidate scattered tracts.
    Congress also has provided specific direction to the BLM through 
legislated land exchanges. For example, the Utah Recreational Land 
Exchange Act of 2009 (Public Law 111-53) mandated the exchange of 
specific public lands in Grand and Uintah Counties in Utah for State 
lands in those same counties. Another example is the Southern Nevada 
Public Land Management Act (Public Law 105-263, as amended), whereby 
Congress provided for competitive auction of public lands in the Las 
Vegas Valley with the proceeds from those sales used to acquire 
environmentally sensitive lands and other purposes.
    The R&PP Act is an extremely important authority utilized by the 
BLM to help States, local communities, and nonprofit organizations 
obtain at no or low cost lands for important public purposes. Examples 
include parks, schools, hospitals and other health facilities, fire and 
law enforcement facilities, courthouses, social services facilities, 
and public works projects. Over the last 5 years, the BLM has sold 
nearly 9,000 acres of public land through the R&PP process and leased 
an additional 10,000 acres of public land under the act.
    Finally, enactment of the FLTFA in 2000 (Public Law 106-248), which 
expired on July 25, 2011, allowed the BLM to sell public lands 
identified for disposal through the land use planning process prior to 
July 2000, and retain the proceeds from those sales in a special 
account in the Treasury. The BLM could then use those funds to acquire, 
from willing sellers, inholdings within and adjacent to certain 
federally designated areas that contain exceptional resources, 
including areas managed by the National Park Service (NPS), the U.S. 
Fish and Wildlife Service (FWS), the U.S. Forest Service (FS), and the 
BLM. Approximately 27,000 acres were sold under this authority and over 
18,000 acres of high resource value lands were acquired.
1997 Lands Report to Congress
    In 1996, the Congress (Public Law 104-127, section 390) directed 
the Secretary of the Interior to report to Congress on lands that may 
be suitable for disposal or exchange to benefit the Everglades 
Restoration effort in Florida. The Department of the Interior's May 27, 
1997 report to Congress included a list of BLM-managed lands that had 
been identified for disposal through the BLM's land use planning 
process, while excluding lands that had been withdrawn, segregated, or 
identified for other specific purposes detailed in the report. The 
report was a general county-by-county summary and did not provide 
individual parcel information, though it did include a list of 
potential impediments to disposal, including lack of legal access; the 
presence of mineral leases and mining claims; threatened and endangered 
species habitat; historical and cultural values; hazardous material 
contamination; and title conflicts. No appraisals or surveys were 
conducted of the lands included in the 1997 report. Lands were not 
identified in California or Alaska because public lands in those States 
that were identified for disposal were committed to needs identified 
under other acts of Congress.
                               h.r. 2657
    H.R. 2657 directs the Secretary of the Interior to sell at 
competitive sale, for no less than fair market value, all lands 
included in the Department of the Interior's 1997 Report to Congress. 
The bill excludes from consideration lands that are no longer 
identified for disposal, under an R&PP application, identified for 
state selection, identified for tribal allotments, or identified for 
local government use. Under the bill, proceeds from the sale of these 
lands are to be deposited in the U.S. Treasury. While a timeframe for 
sales is not established, a report to Congress is required 4 years 
after enactment that includes a list of unsold lands and the a reason 
lands have not been sold. The bill provides no exceptions to the 
requirement to dispose of identified Federal land for resource or value 
reasons.
    Before any parcels could be sold at auction, the BLM may need to 
undertake reviews of every parcel (including cultural resource and 
threatened and endangered species inventories), and a survey and 
appraisal of every parcel. These actions would be both time-consuming 
and costly, requiring the BLM to redirect limited resources from other 
more critical priorities. With limited resources and competing 
priorities such as oil and gas leasing, and renewable energy rights-of-
way, a mandate to sell large blocks of land would severely affect the 
BLM's ability to respond to the Nation's energy needs and the needs of 
local communities. In many cases, the end result would be costs in 
excess of any value realized, and further deflated land values in 
struggling western communities.
    Furthermore, the bill could negatively affect public land ranchers. 
Many of the lands identified for disposal are within existing grazing 
allotments. In the past, grazing permittees have frequently declined to 
acquire these lands when they are offered for sale, for financial or 
other reasons. Moving these lands into other private hands could have a 
deleterious effect on ranching communities.
    Many of the lands that BLM has identified for potential disposal 
through the land use planning process are isolated, rural parcels with 
minimal market value. Others are in or adjacent to communities that 
have seen a dramatic erosion of land values. Flooding those markets 
with additional land could further undermine the economic health of 
those communities. Still others may have important historic or cultural 
sites that deserve to be protected for future generations. Important 
energy resources may yet be tapped on other lands which could provide a 
revenue stream to the Treasury and State governments.
    The administration strongly opposes H.R. 2657. H.R. 2657 would be 
costly, harmful to local economies and communities, and undermine 
important resource values. It also would be unlikely to generate 
significant revenues to the U.S. Treasury.
    The Federal Land Transaction Facilitation Act addressed many of 
these impediments to disposal by providing a careful, thoughtful 
process for land disposal together with a mechanism for funding that 
disposal. Furthermore, the proceeds of the sale of BLM-managed lands 
under the FLTFA are used to acquire inholdings from willing sellers in 
the most environmentally sensitive areas. Thus, the long-term interest 
of the American public and future generations is protected. The 
administration continues to urge the Congress to reauthorize the FLTFA 
and allow the BLM to continue with a rational process of land disposal 
that is anchored in public participation and sound land use planning, 
while providing for land acquisition to strengthen this Nation's 
conservation heritage.
                               conclusion
    Thank you for the opportunity to testify. We would like to work 
with Congress so that the thoughtful, efficient and economical disposal 
of public lands appropriate for disposal can go forward.

                                 [all]
</pre></body></html>
